<html>
<title> - SECURE WATER ACT</title>
<body><pre>[Senate Hearing 110-312]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-312
 
                            SECURE WATER ACT 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

 RECEIVE TESTIMONY ON S. 2156 (SECURE WATER ACT), A BILL TO AUTHORIZE 
  AND FACILITATE THE IMPROVEMENT OF WATER MANAGEMENT BY THE BUREAU OF 
RECLAMATION, TO REQUIRE THE SECRETARY OF THE INTERIOR AND THE SECRETARY 
  OF ENERGY TO INCREASE THE ACQUISITION AND ANALYSIS OF WATER-RELATED 
   DATA TO ASSESS THE LONG-TERM AVAILABILITY OF WATER RESOURCES FOR 
IRRIGATION, HYDROELECTRIC POWER, MUNICIPAL, AND ENVIRONMENTAL USES, AND 
                           FOR OTHER PURPOSES

                               __________

                           DECEMBER 11, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE

41-273 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel




































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     4
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Craig, Hon. Larry E., U.S. Senator From Idaho....................     3
D'Antonio, John, Representing Western States Water Council, Santa 
  Fe, NM.........................................................    23
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     2
Hirsch, Robert M., Ph.D., Associate Director for Water, 
  Geological Survey, Department of the Interior..................    12
Johnson, Robert, Commissioner, Bureau of Reclamation, Department 
  of the Interior................................................     6
Lambeck, Jon C., Power Systems Manager, Metropolitan Water 
  District of Southern California, Los Angeles, CA...............    35
O'Toole, Patrick, President, Family Farm Alliance, Savery, WY....    29
Richter, Brian, Co-Director, Global Freshwater Initiative, The 
  Nature Conservancy, Charlottesville, VA........................    39
Salazar, Hon. Ken, U.S. Senator From Colorado....................     5
Tester, Hon. Jon, U.S. Senator From Montana......................     4
Wunsch, David R., Ph.D., P.G., Representing National Groundwater 
  Association, Concord, NH.......................................    49



































                               APPENDIXES
                               Appendix I

Responses to additional questions................................    57

                              Appendix II

Additional material submitted for the record.....................    89


                            SECURE WATER ACT

                              ----------                              


                       TUESDAY, DECEMBER 11, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Good afternoon. It's a pleasure to welcome 
everyone to this afternoon's hearing. We're lucky to have some 
very well-qualified witnesses here to discuss water-related 
challenges facing the Nation. The committee appreciates 
everyone's effort to be here and to testify.
    The purpose of the hearing is to receive testimony on S. 
2156, which is entitled the SECURE Water Act. This is a bill 
that I'm sponsoring, along with Senator Domenici, Senators 
Cantwell, Johnson, Salazar, and Tester. The bill would initiate 
a range of Federal actions to help address water resource 
issues across the country. While States and local communities 
bear the primary responsibilities for allocating and managing 
water, the Federal Government has a responsibility to be a 
worthy partner in that effort, and the SECURE Water Act was 
drafted to accomplish that objective.
    Water has always been a priority in the West. Nonetheless, 
the stakes are higher now than ever before as the confluence of 
drought and climate change and population increases and 
environmental needs are testing water managers in unprecedented 
ways. Added to the mix is the increasing reliance on water 
resources to help produce electricity and fuel.
    Almost daily, we're seeing disturbing news reports 
describing conflicts over water. These conflicts continue in 
the West, as they have since the West was settled, but we're 
also seeing them spread to other areas, such as the Southeast, 
where drought has resulted in a heated dispute between Georgia 
and Alabama and Florida over flows in the Chattahoochee River. 
News is also filled with dire predictions about water supply. 
For example, there are reports now forecasting significant 
reductions in snowpack. Snowpack is the source of 80 percent of 
stream flows in the West. Perhaps more alarming, USGS testified 
before this committee in June that a majority of climate models 
are in agreement that the Southwest, which is the fastest-
growing region in the country, will likely face a 20-percent to 
40-percent reduction in overall water supply as a result of 
global warming.
    In light of these conflicts and projected uncertainty over 
future water supplies, it's alarming that the funding available 
for water resource programs has fallen significantly in recent 
years. Accounting for inflation, total appropriations for water 
infrastructure, management, restoration, and monitoring 
programs at the Corps of Engineers, the Bureau of Reclamation, 
EPA, USDA, and the U.S. Geological Survey, fell by 11 percent, 
or $1.2 billion, between 2001 and 2007. If the President's 2008 
budget were to be implemented, the reduction would be 19 
percent, or $2.2 billion. In my view, these cuts have been ill-
advised. They have left many communities vulnerable.
    Water issues are complicated, and the strategies intended 
to solve them are, as well. Nonetheless, the premise of the 
SECURE Water Act is simple: effectively addressing water issues 
requires a better understanding of the resource and increasing 
the efficiency with which water is used. For that reason, the 
bill seeks to strengthen the National Stream Flow Program, to 
improve groundwater monitoring efforts, to enhance an 
understanding of water uses and availability, and to provide 
grants to implement water conservation and efficiency projects. 
It's also focused on improving our understanding of the impacts 
of climate change on water and ensuring that adaptation 
strategies are implemented.
    So, I look forward to the testimony. I think this is 
legislation that I believe will be very constructive for the 
Nation, and I appreciate people being here to discuss it.
    Let me defer to Senator Domenici for any opening comments 
he has.

 STATEMENT OF HON. PETE DOMENICI, U.S. SENATOR FROM NEW MEXICO

    Senator Domenici. Mr. Chairman, thank you.
    Thanks, to all of you. To the witnesses who have come from 
afar to help us here today, we want to thank you very much.
    I will speak about a minute.
    Essentially, this legislation is an effort on our part to 
put the U.S. Government in a better position of knowing what we 
should know about water, water rights, water availability, and 
trends in water, because we are going to authorize the study of 
facts that will give us the answers to what I have just 
described. There is no question in my mind that Senator 
Bingaman has put his finger on the issue when he talks about 
spending less money each year. I would tell him, this year in 
the energy and water bill--it's not yet confirmed--we did put 
more in, rather than what the President asked for. Now, we 
haven't got it past muster yet, but the committee itself found 
that it was time to put more in.
    The U.S. Government must spend more money in the future, in 
my opinion, on water--in some cases, on the water supply; in 
other cases, in areas we're speaking of here--to enhance and 
make better the resources that we use and the tools that we 
use, to find out the facts about America's water or America's 
water problems.
    Thank you, Senator Bingaman. I'm on your bill, and hope we 
can pass it quickly.
    The Chairman. Thank you very much.
    Let me just indicate, we do have some additional statements 
that have been provided to the committee, commenting on this 
legislation, that we will incorporate into the record today.
    Of course, the full written statements of today's witnesses 
will be included in the record, as well.
    The first panel is made up of two witnesses that represent 
the Administration: Robert Johnson, who is the commissioner of 
the Bureau of Reclamation, and also Robert Hirsch, who is the 
associate director for water at the U.S. Geological Survey. We 
welcome both of you. If you'll go ahead and summarize your 
testimony, then I'm sure each of us will have some questions.
    Senator Domenici. Senator Bingaman.
    The Chairman. Yes.
    Senator Domenici. Mr. Chairman, I have been asked by our 
two Senators--if they might make a couple of----
    The Chairman. Sure.
    Senator Domenici [continuing]. Observations.
    The Chairman. No, that's fine.
    Senator Craig, you go ahead, and we'll let all Senators 
make comments if they want to.
    Senator Domenici. Thank you, Senator.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, when you're a westerner and 
you're not allowed to speak out about water, you feel a bit 
frustrated, because it is all that you've just said it is, and 
it's even more important than that.
    I don't know that this phrase was coined in Idaho or in New 
Mexico a long time ago, but the phrase goes something like 
this, ``Whiskey is for drinkin', and water is for fightin'.'' 
That still remains a very valid statement today in a State--in 
a region of our country that may even grow more arid and more 
populated; and, of course, water, as you know, Mr. Chairman, is 
the key to that.
    So, whether it is in Santa Fe or in Boise, I'm going to 
want to insist that the prior application--or appropriations 
doctrine be fought out in our State capitals--and I think 
you've basically said that--when it comes to allocation and 
ownership.
    But clearly the Federal Government has always played a 
valuable role in western water issues. You're going to hear 
that from Bob today, or from Dr. Hirsch here, or others; the 
West would not be what it is today if it hadn't have been for 
the Federal taxpayer, through the Bureau of Reclamation and 
other approaches, watering the West, the arid West. We have 
great concerns. Idaho is a very fast-growing State. The Idaho 
Department of Water Resources is in its third week of hearings 
right now over what to do. We're consulting with the best water 
experts we can. Our State legislature has been involved now for 
several years, wrestling over appropriation of water--who's on 
first and who's on second, in other words--to try to avoid that 
old argument about ``Water is for fightin'.'' But, certainly, 
fights will occur, because water is the very sustenance of life 
in the West as we know it.
    So, I think you're most appropriate, Mr. Chairman, to push 
the issue of the Federal knowledge and the Federal largesse 
when it comes to helping the West shape its water future and 
understanding it in a way that we might be missing.
    I'm on the board of directors of the Center for the New 
West, and we've held water hearings across the West, both urban 
and rural, as it relates to the very issue you're concerned 
about and that is reflective in S. 2156.
    Thank you for the hearing today.
    The Chairman. Thank you very much.
    Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank you for bringing S. 2156 forward, the SECURE Water Act.
    We all know water is important, because, quite simply, 
water is life. If we don't manage what we have, we're all going 
to be in a lot of trouble. It is our responsibility to ensure 
that the people on the ground making the management decisions 
have the information they need in a format that they can 
understand. You really can't manage something unless you know 
how much you have, where it is, and how it changes over time. 
This bill will provide State managers with the data they need 
to efficiently and cost-effectively manage our Nation's water 
resources.
    In Montana, we understand that local and State governments 
are in the best position to appropriately manage our water 
resources, but that Federal support is critically important to 
guarantee those State and local governments have the 
information that they need.
    Montana is currently suffering through it's arguably 
seventh year of drought; it may be longer than that. Without a 
thorough understanding of how climate change will affect our 
water resources--especially the timing of precipitation and 
snowmelt--Montana's already stressed farmers and ranchers, as 
well as its water utilities, are sure to experience further 
hardships and uncertainty.
    As water is a vital, yet exhaustible, resource, a national 
water-use and availability assessment is crucial to the future 
prosperity of this country. It is better to find out what we 
have, before we find out we don't have enough.
    Montana, I'm proud to say, has been a leader in 
implementing new and innovative water-management methods, such 
as water trading and efficient irrigation technologies. The 
funding provided in this bill will allow Montanans to more 
efficiently harness those methodologies in order to promote the 
wise use and conservation of our water resources.
    Once again, I want to thank you, Mr. Chairman. I want to 
welcome the members of the panel. I look forward to your 
testimony.
    The Chairman. Thank you very much.
    Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I especially welcome Pat O'Toole here, all the way from 
Savery, Wyoming. Mr. Chairman, he fought his way across I-80, 
as it was closed on Saturday afternoon, to get from where he 
is, in Savery, all the way across the State to get to an 
airport to ultimately get to Denver and then to get here to 
Washington. So, welcome, Pat. Pat served in the Wyoming 
legislature a number of years before I did, but he is well 
respected on both sides of the aisle.
    Mr. Chairman, I do have some concerns with the underlying 
legislation which is presented today, because, to me, this bill 
is not a comprehensive analysis of water resources of the West, 
but, in spite of what the title says, the bill assesses western 
resources as it relates specifically to the impacts of climate 
change on these resources. The language in the bill, about 
collecting data, appears to be limited to the impacts of 
climate change.
    I have another concern, and that's the effort to establish 
additional water resources. Those that I identify in the bill 
specifically deal with reclamation.
    I also have concerns about section 4, which establishes a 
new Climate Change Adaptation Program that analyzes the changes 
in water supply due to global warming on listed or candidate 
endangered species.
    When I look at this, I ask myself, Will proposed strategies 
developed by the Federal Government, if not fully implemented, 
open the door to environmental lawsuits to open up existing 
habitat restoration plans? Is this section of the bill a way to 
open up all these habitat recovery plans? I would submit that 
we allow and help the States to develop their own comprehensive 
inventories. The States could look at all factors affecting 
water supply, not just the impacts of global warming on these 
resources.
    Wyoming's Department of Environmental Quality or Wyoming's 
Water Development Office have qualified individuals more than 
ready to accomplish this task on behalf of our State.
    The bill, as it is currently written, establishes two new 
Federal panels and five new Federal grant programs at a sizable 
cost to the taxpayer. In return, the concern is--from the 
taxpayers of the West--is, Will they get more lawsuits and more 
uncertainty for businesses, for landowners, and for local 
governments? We all know there isn't adequate water in the 
West. I support efforts to improve the availability of this 
resource. I look forward to hearing the comments of those 
testifying today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Bingaman, 
chairman of the committee, and to Senator Domenici, for moving 
forward with this important legislation.
    Let me also just thank Patrick O'Toole, whom I happened to 
serve on a national water commission many years ago, and look 
forward to his testimony; Senator Barrasso, here later on 
today.
    From my point of view, this is a very important piece of 
legislation, because when we look at our States in the West, 
the Land of Enchantment in New Mexico, Idaho, Wyoming, the 
State of Colorado, we know the importance of water there 
perhaps more than any other place. As I often say in Colorado 
when I talk about water, I say, ``Water is for fighting, and 
whiskey is for drinking.'' That's the way it's done in 
Colorado. So, it's important for us to look ahead at the issues 
of water and the challenges that we're going to face in the 
western United States, especially as we start seeing the 
impacts of climate change with respect to what that means 
relative to the timing of water runoff and storage and a whole 
host of other things.
    So, I think the assessment that is called for in this 
legislation that also asks to address some of the water 
management challenges that we're going to face is a timely 
assessment, and I'm proud to be a cosponsor of this 
legislation.
    I have a full statement, Mr. Chairman, that I will just 
submit to the record.
    The Chairman. Very good, we'll be glad to include that in 
the record.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Chairman Bingaman and Ranking Member Domenici for holding 
this important hearing today on the SECURE Water Act. I am proud to be 
a co-sponsor of this important bill, and welcome this legislative 
hearing.
    Climate change is a very real problem that is caused primarily the 
burning of fossil fuels. This Congress has worked hard to promote clean 
energy technologies that will significantly reduce the amount of 
greenhouse gas emissions released to the atmosphere, and also reduce 
our country's dependence on foreign oil. The energy bill Congress is 
considering will ramp up domestic renewable fuel production, promote 
efficiency throughout the U.S. economy and invest in groundbreaking 
research designed to reduce carbon emissions. This energy bill is 
critically important for our country, and I am committed to working to 
find a bipartisan way forward on the energy bill.
    Even if we move forward with significant increases in the use of 
renewable energies, we are learning that some adaptation measures are 
inevitable to reduce the harm from climate change that proves to be 
unavoidable. Today's hearing is particularly important for those of us 
from the Western states of the U.S. because many scientists are now 
saying the American West will experience the effects of climate change 
sooner and more intensely than most other regions. Our scarce snow and 
water of the West is already being impacted, much of it in ways that we 
do not clearly understand.
    Colorado, my State, has a lot at stake when it comes to global 
warming. For example, parts of my State have incredibly rich, 
productive farmland that depends heavily on irrigation. The SECURE 
Water Act is exceedingly important to help us increase the acquisition 
and analysis of water-related data in order to assess the impacts of 
climate change on the long-term availability of our water resources. It 
is also important to help us understand what adaptation measures must 
be planned for to ensure adequate water supplies for agricultural, 
industrial, business and residential uses.
    Chairman Bingaman and Ranking Member Domenici, I thank you again 
for holding this important hearing so that we can learn from the 
experts testifying today.

    The Chairman. Commissioner Johnson, why don't you go right 
ahead.

     STATEMENT OF ROBERT JOHNSON, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Johnson. Thank you, Chairman Bingaman and Ranking 
Member Domenici and other members of the committee. I am 
pleased to be here today, along with Bob Hirsch from the U.S. 
Geological Survey, to discuss S. 2156, the SECURE Water Act.
    We have submitted a written statement for the record which 
provides detailed comments of the Department on the bill. I 
will summarize just a few highlights from that testimony.
    Water is the lifeblood of the Nation and the foundation of 
our economy. It is easy to forget that water is a limited 
resource, particularly in some of the fastest-growing areas of 
the country. The U.S. population is growing quickly in regions 
of water scarcity, irrigated agriculture is changing, and our 
increasing focus on biofuels will lead to significant water 
needs. Additionally, climate change is predicted to change 
precipitation types and amounts, runoff, and groundwater 
recharge. The SECURE Water Act contains measures designed to 
take proactive steps toward addressing the water challenges of 
the 21st century.
    Before agencies can plan for, and react to, these 
variations, we need data, and that's the major consideration in 
the bill before us today. Our Nation's network of stream 
gauges, weather monitors, snow sensors, and soil moisture 
measurements is extensive, but it will never cover every stream 
of every basin in totality. S. 2156 seeks to narrow the gaps in 
this data.
    The Department supports the goals of S. 2156, and believes 
it is a logical continuation of the work undertaken by 
Secretary Kempthorne's Climate Change Task Force. The 
Department also appreciates the fact that Section 5 of the bill 
provides a new permanent authority for the Bureau of 
Reclamation to issue water conservation grants for qualified 
entities. This section would, in essence, authorize the Water 
2025 Program, and is similar to authorizing legislation we 
submitted to the committee as an administration proposal this 
year. For the first years of this program, from 2004 to the 
present, Water 2025 has been funded through annual 
appropriation process. Permanent authorization would improve 
the long-term effectiveness of Water 2025 by allowing eligible 
entities to rely on the availability of the grants, and 
therefore, to invest resources in developing potential 
projects.
    However, S. 2156 does contain some provisions that are of 
concern to the Department. Section 4 and 6 direct the Secretary 
to prepare reports describing each effect and each impact of 
global climate change on operations, hydropower production, or 
in major river basins. While the time is right for gathering 
more data in these areas, the Department is not yet able to 
recommend strategies to draw the kind of final conclusions 
called for in these reports within the timeframes allowed. My 
written statement expands on this further, and we'd be glad to 
talk about timeframes with your staff or with you in more 
detail.
    Also, the Department recommends that the legislation 
specifically designate the authority to enter into cooperative 
agreements for research as not only limited to activities 
carried out under the appropriations ceiling established by 
this section, but also authority specifically for reclamation, 
which is sometimes interpreted to have limited authority for 
these types of grants. We think this legislation could clarify 
our ability to use grants in our programs.
    Finally, the Administration is concerned about the 
potential cost of the bill and its impact on budget 
formulation.
    This concludes my remarks. I look forward to working with 
the committee on this legislation, and will be pleased to 
answer any questions.
    [The joint prepared statement of Mr. Johnson and Mr. Hirsch 
follows:]
  Joint Prepared Statement of Robert Johnson, Commissioner, Bureau of 
   Reclamation, and Robert M. Hirsch, Associate Director for Water, 
             Geological Survey, Department of the Interior
    Chairman Bingaman and Ranking Member Domenici, we would like to 
thank you for the opportunity to appear today to present the Department 
of the Interior's views on S. 2156, a bill titled the ``Science and 
Engineering to Comprehensively Understand and Responsibly Enhance Water 
Act'' or the ``SECURE Water Act.'' This legislation would authorize 
substantial new investments in our nation's understanding of the water 
resources vital to our way of life. S. 2156 contemplates a number of 
task forces, data gathering efforts, grant authorities, and assessments 
prepared by key federal agencies covering many of the Nation's water 
basins.
    While some of the activities authorized in the legislation are 
consistent with initiatives and research areas that are already being 
pursued by the Department, we have strong concerns with certain parts 
of this legislation. One concern is that many of the activities called 
for in this bill are not in the President's budget. While some of the 
bill's provisions have the potential to strengthen existing programs, 
there are additional requirements in the legislation that would compete 
with ongoing, high-priority Administration programs. In addition, we 
note that the Bureau of Reclamation and the United States Geological 
Survey (USGS) are already authorized to carry out many of the 
activities provided for in this bill.
    We believe, however, that many of the goals of this bill-expanding 
data acquisition and analysis to improve water management and ensuring 
that decisionmakers have reliable information about water resources and 
climate change impacts on water availability and energy production-are 
critically important. We support these goals, which are similar to 
those outlined in a number of recent plans and reports issued by the 
National Science and Technology Council's Committee on Environment and 
Natural Resources, Subcommittee on Water Availability and Quality 
(SWAQ), and the National Research Council (NRC).
    In particular, the bill tracks closely with five of the seven 
elements of implementation identified by the SWAQ report, A Strategy 
for Federal Science and Technology to Support Water Availability and 
Quality in the United States (September 2007), which has been endorsed 
by the Office of Management and Budget and the Office of Science and 
Technology Policy in their FY 09 guidance to the agencies. The areas of 
congruence include calls for implementing a national water census, 
developing a new generation of water-monitoring techniques, developing 
and expanding technologies for enhancing reliable water supply, 
improving understanding of the water-related ecosystem services and 
ecosystem needs for water, and improving hydrologic prediction models 
and their applications. Existing authorities are generally adequate to 
pursue these activities.
    In 2004, the National Research Council warned that ``[t]he 
strategic challenge for the future is to ensure adequate quantity and 
quality of water to meet human and ecological needs in the face of 
growing competition among domestic, industrial-commercial, 
agricultural, and environmental uses.'' The USGS has described a 
possible approach to quantifying, forecasting, and securing freshwater 
for America's future by developing a water census of the United States. 
Such a census could include the status of the Nation's freshwater 
resources and how they are changing, a more precise determination of 
water use for human and environmental needs, the relationship of water 
availability to natural and engineered storage and movement of water, 
and other key issues (see Facing Tomorrow's Challenges--U.S. Geological 
Survey Science in the Decade 2007-2017, USGS Circular 1309).
    Water is the lifeblood of the Nation and the foundation of our 
economy. It is easy to forget that water is a limited resource, 
particularly in some of the fastest growing areas of the country. 
Improving water security is important to our Nation's energy, 
agricultural, and environmental future. The U.S. population is growing 
quickly in regions of water scarcity, irrigated agriculture is moving 
into new areas, and our increasing focus on biofuels will lead to 
significant associated water needs. Additionally, climate change is 
predicted to change evapotranspiration, precipitation types and 
amounts, runoff, and ground-water recharge. The SECURE Water Act 
contains measures designed to take proactive steps towards addressing 
the water challenges of the 21st century. The remainder of this 
statement will discuss each of the substantive sections of this bill 
and discuss Administration concerns about each section, including 
concerns about the need to take into account budgetary parameters.
                       climate change adaptation
    Section 4 of the legislation authorizes a Climate Change Adaptation 
Program, and requires that the Secretary report to Congress on the 
effect of global climate change on each major Reclamation river basin. 
Monitoring and reporting increments are all detailed in this section, 
and much of it is focused on the potential effects of climate change on 
Reclamation projects and developing mitigation strategies. Reclamation 
testified before this Committee on June 6, 2007 regarding the widely 
acknowledged need to improve the quantity and resolution of our basin-
specific data related to climate change. Existing authorities are 
generally adequate for this purpose. The SECURE Water Act requires that 
the Secretary collect information and provide annual reports to 
``assess the effect, and the risk resulting from, global climate 
change.'' While the Administration acknowledges the relevance of this 
information, acquiring sufficient data to enable a comprehensive 
assessment of the risk to water supplies at the basin level associated 
with climate change, and then to develop and implement appropriate 
mitigation strategies, is a significant challenge that would require 
much more time than the one year allowed under this bill. In order to 
carry out the necessary data acquisition to complete these reports, we 
suggest that the 8 major river basin studies, or portions of the basins 
as appropriate, could be completed in five years, and updated every 
three to five years. This research and reporting activity would need to 
compete among the Administration's other priorities for funding. We 
also recommend that the bill make clear how it impacts basin-specific 
statutes with existing obligations such as the Truckee-Carson-Pyramid 
Lake Water Rights Settlement Act of 1990, Pub. L. 101-618.
    Despite these concerns, we recognize and agree with the premise of 
this section: that it is important to develop collaborative approaches 
to assess the potential impacts of climate change on water supplies and 
to develop strategies to address potential water shortages, conflicts, 
and other impacts. Although it is widely agreed that climate change 
will have significant impacts on water supplies and flood hazards, 
there is a great deal of uncertainty about the nature of the change 
that can be expected. Effective adaptation to these changes will depend 
on better monitoring, better climatic and hydrologic models, and new 
thinking about water-resource system operations. The USGS, Reclamation, 
the U.S. Army Corps of Engineers, the EPA, and the National Oceanic and 
Atmospheric Administration (NOAA) are already working together to 
develop comprehensive approaches to water planning and management in a 
more uncertain world. Federal agencies are also working with non-
Federal entities regarding climate change and water resource management 
challenges in the United States.
                           water 2025 grants
    Section 5 provides a new permanent authority for the Bureau of 
Reclamation to issue water conservation grants for qualified entities. 
This section would authorize the Water 2025 Program and is similar to 
authorizing legislation we submitted to the Committee as an 
administration proposal. This section would provide permanent 
authorization for the Challenge Grant component of the Department of 
the Interior's Water 2025 program.
    Water 2025 is intended to focus attention on the reality that rapid 
population growth in western urban areas, the emerging need for water 
for environmental uses, and the national importance of western farms 
and ranches are driving major conflicts between competing uses of 
water. Water 2025 recognizes that State and local government should 
play leading roles in meeting these challenges, and that the Department 
of the Interior should focus its attention and existing resources on 
areas where Federal dollars can provide the greatest benefits to the 
West and the rest of the Nation.
    Water 2025 has two purposes. First, it provides a basis for a 
public discussion of the realities that face the West so that decisions 
can be made at the appropriate level in advance of water supply crises. 
Second, it sets forth a framework to identify the problems, solutions, 
and a plan of action to focus limited resources as the Department of 
the Interior works with States, Tribes, local government, and others to 
meet water supply challenges.
    For the first years of the program, FY 2004 through the present, 
Water 2025 has been funded through the annual appropriation process. 
Permanent authorization would improve the long-term effectiveness of 
Water 2025 by allowing eligible entities to rely on the availability of 
the grants and therefore to invest resources in developing potential 
projects.
    While the Department supports this provision, the requirement in 
Section 5(a) contains overly proscriptive language relative to which 
entities may receive the grants. The directive to provide grants only 
in watersheds that have a nexus to federal Reclamation projects would 
limit the flexibility of the current Water 2025 Program, and constrain 
our ability to select projects that best match the Program's mandate to 
remove institutional barriers to increase cooperation and collaboration 
among Federal, State, Tribal, and other organizations. In the 
Administration proposal, we suggested language limiting the grants to 
activities ``in watersheds that have a nexus to Federal water 
projects'' in Reclamation States. Federal water projects encompass a 
larger number of projects than ``federal Reclamation projects,'' and 
given the active role of agencies such as the Corps of Engineers and 
the Bureau of Indian Affairs in developing water resources throughout 
the West, this language is preferable to language in S. 2156 as 
introduced limiting the grants to projects ``that have a nexus to 
federal Reclamation projects.''
    Additionally, the Department recommends that the legislation 
specifically designate the authority to enter into Cooperative 
Agreements for research as not limited only to activities carried out 
under the appropriation ceiling established by this section. This 
authority exists for almost all federal agencies, but it is not clear 
whether Reclamation's authority, often contained in appropriations 
bills, has general applicability. This legislation could clarify this 
situation.
       effect of climate change on hydroelectric power generation
    Section(6)(a) tasks the Secretary of Energy, in consultation with 
each Power Marketing Administration (PMA), to ``assess each effect of, 
and risk resulting from, global climate change with respect to water 
supplies that are required for the generation of hydroelectric power at 
each Federal water project that is applicable to a Federal Power 
Marketing Administration.''
    While the responsibilities of transmission and marketing of federal 
hydroelectric power lies with the PMA's (P.L. 95-91), hydrologic 
scheduling and facility operations and maintenance still lie with 
Reclamation and the U.S. Army Corps of Engineers (Corps). There may be 
some duplication of effort between DOI and the Department of Energy 
given the requirements on Interior in Section 4, and Interior would 
expect that much of the information generated for a Section 4 report 
could be useful for the Section 6 assessments. Finally, as the nation's 
first and second largest producers of hydroelectric power in the 
nation, respectively, the Corps and Reclamation should be includedI in 
the Section 6(a) consultations with the Secretary of Energy and the 
PMAs in order to ensure a full assessment of risks to water supplies 
used for federal hydroelectric generation.
            climate change and water intragovernmental panel
    Section 7 of the SECURE Water Act directs the Secretary to 
establish and lead a climate change and water intragovernmental panel 
to review the current scientific understanding of global climate change 
impacts on the water resources of the United States and to develop 
strategies to improve observational capabilities and expand data 
acquisition to increase the reliability and accuracy of modeling and 
prediction systems to benefit water managers at the Federal, State, and 
local levels.
    This is a commendable goal and, by directing multiple agencies to 
participate, should foster coordination among the agencies and lead to 
improved integration of water resources-related capabilities of the 
numerous agencies with water-resources responsibilities. The Secretary 
has already taken action on this front, by establishing a climate 
change team, internal to DOI, to evaluate climate change science, 
management, and policy issues. The proposed intragovernmental panel is 
consistent with this effort and a logical next step. We suggest adding 
the Secretary of Energy to the panel. In addition, the panel's efforts 
should be coordinated with the work of the interagency Climate Change 
Science Program. However, as we stated with respect to section 4, the 
activities of this panel must compete against other programs for 
funding, and under existing budget constraints the number and timing of 
the reporting requirements may pose a resource and practical challenge.
                      usgs water data enhancement
    The USGS has played an essential role in monitoring the Nation's 
rivers for well over a century, providing streamflow information that 
is critical for protecting life and property from floods, assessing and 
allocating water resources, managing water quality, supporting 
engineering design of water projects, and ensuring the safety and 
enjoyment of the many people who fish and boat in the Nation's rivers 
and streams. The USGS currently operates more than 7,000 streamgages 
nationwide that provide daily streamflow records accessible to the 
public. This national system of streamgages provides information that 
is vital to water resources management throughout the country, 
providing accurate measurements that protect human life, health, 
welfare, and property.
    We appreciate the emphasis that this legislation places on this 
valuable network, for which the Administration has twice proposed 
increases in the Federal funding (in the FY07 and FY08 budgets). We 
have recently conducted an extensive review of the plans for the 
National Streamflow Information Program (NSIP), including reports by 
the National Research Council and the Advisory Council on Water 
Information (ACWI), and several national and regional stakeholder 
meetings. Section 8(a)(1)of the proposed legislation calls for a review 
of the NSIP plan. We are concerned about the additional time and 
expense associated with such a review, in light of the recent 
extensive, and expensive, reviews that have already been conducted. We 
are also concerned that the legislation does not consider the important 
role that cost-sharing plays in the funding of streamgages. We continue 
to believe that cost-sharing by State and local agencies should be a 
prerequisite for national funding. The lack of a cost-share requirement 
would hinder efforts to meet the measurement goal identified in section 
8(a)(4) of the bill, and could undermine the current cost-sharing 
structure between the USGS and State and local agencies.
    The SECURE Water Act requires the USGS to work with Federal, state, 
and local entities to implement a systematic ground-water monitoring 
program for major aquifer systems in the United States and to support 
the ground-water climate response network. The USGS co-chairs the 
Subcommittee on Ground Water under ACWI that was formed in January 2007 
with the goal of creating a framework for ground-water monitoring 
across the Nation. This effort, involving more than 60 people from the 
private sector, academia, and Federal, State, and local governments, is 
currently under way. If this legislation were enacted, the Secretary 
would use the established ACWI mechanism to develop the plans called 
for in Section 8(b). However, no new authorities are needed to move 
this process forward.
    The SECURE Water Act authorizes the Secretary to provide grants to 
develop new methods and technologies to estimate or measure water-
resources data in a cost-efficient manner. Given the high level of 
experience and capability of Federal agencies, including the USGS, 
NOAA, Reclamation, the Corps of Engineers, and the Agricultural 
Research Service, we think that the use of grants only would be less 
effective than a broader approach involving Federal agencies, academia, 
and the private sector.
           usgs water use and availability assessment program
    It has been said that ``you can't manage what you don't measure.'' 
The last overall assessment of water resources for the Nation was 
published by the Water Resources Council in 1978. Since that time, 
dramatic changes in water availability and use have occurred as a 
result of demographics, economic development, environmental issues, 
technology, law, and a changing climate. Our ability to manage water in 
the context of competing demands would be significantly enhanced with 
an up-to-date water census that includes a national ground-water 
information system, new technology that integrates surface- and ground-
water information, and better measurement that leads to better 
management of water resources.
    Section 9 of the SECURE Water Act directs the USGS to implement a 
program to provide a more accurate assessment of the status of the 
water resources of the United States; to assist in the determination of 
the quantity of water that is available for beneficial uses; to 
identify long-term trends in water availability; to provide a more 
accurate assessment of the change in the availability of water in the 
United States; and to develop the basis for an improved ability to 
forecast the availability of water for future economic, energy 
production, and environmental uses. This information would help us 
advance from our current understanding of water availability toward a 
more comprehensive, ``big picture'' assessment of available water 
supplies.
    Some work towards this assessment has been started pursuant to a 
directive made by the House Appropriations Committee in their report 
language on the FY 2002 budget. The USGS has responded to the Congress 
with a plan for a comprehensive water assessment: USGS Circular 1223, 
``Concepts for National Assessment of Water Availability and Use'' [see 
http://pubs.usgs.gov/circ/circ1223/]. It is also consistent with the 
NRC report Estimating Water Use in the United States (2002), which 
called for the USGS to strengthen its National Water Use Information 
Program in order to maintain a comprehensive national water inventory, 
help assure the Nation's water supply, and help preserve water quality 
and protect ecological resources. The usefulness of this kind of 
information can be seen from a pilot effort in the Great Lakes Basin to 
assess how much water is in the region now, how the region is using 
water, how water availability is changing, and how much water the 
region can expect to have in the future. Through this pilot effort, the 
USGS has published a number of products that we believe will help water 
managers understand the water resources of that region, including 
reports on estimates of ground water in storage, ground-water recharge 
rates, lake-level variability, and historical changes in precipitation 
and streamflow. We believe that this Great Lakes Basin pilot is a good 
model of a water census as defined in the SWAQ report mentioned above, 
A Strategy for Federal Science and Technology to Support Water 
Availability and Quality in the United States.
    Recognizing that the goal is to develop and maintain a 
comprehensive national water resource inventory, help assure the 
Nation's water supply, and help preserve water availability and protect 
water resources, we would be pleased to work with the Committee to 
refine this section in order to put together a program that is fiscally 
sustainable and appropriately integrated with State and local efforts.
                               conclusion
    In conclusion, the Department is currently pursuing many of the 
goals of this legislation, which include enhancing our understanding of 
our Nation's water resources and encouraging collaborative efforts to 
improve water management. While some of the actions authorized in the 
SECURE Water Act have the potential to strengthen the Nation's ability 
to address water-related challenges beyond activities currently 
underway, funding requests for new activities will have to compete with 
other high-priority programs for funds. We also have concerns with the 
specific language in the bill, particularly relating to the need for 
consistent terminology usage and definition of key terms that may be 
defined differently in other environmental and natural resources 
statutes. We have identified several other areas in which technical 
changes may be needed. We would be happy to work with the Committee to 
revise the bill to address our concerns.
    Thank you for the opportunity to comment on S. 2156. The Department 
looks forward to working with the Committee to advance the objectives 
described in the bill.

    The Chairman. Thank you very much.
    Dr. Hirsch.

 STATEMENT OF ROBERT M. HIRSCH, PH.D., ASSOCIATE DIRECTOR FOR 
      WATER, GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Hirsch. Thank you, Mr. Chairman and members of the 
committee. I'm Dr. Robert Hirsch, associate director for water 
at the U.S. Geological Survey. I'm happy to be here today, with 
my colleague Bob Johnson, to provide the views of the USGS on 
the SECURE Water Act.
    The goals of the bill are vital to the Nation's future. 
Similar goals are outlined in reports issued recently by the 
National Research Council, the Subcommittee on Water 
Availability and Quality of the National Science and Technology 
Council, and by the USGS. Managing our water resources in a 
sustainable manner is crucial to our economy and to our 
environment, and a strong base of science is crucial to 
sustainable water management.
    As we plan for the coming decades, we must consider not 
only stresses from population growth and new needs of water for 
agriculture and energy, but also from--due to changes in 
climate. I am pleased to say that the USGS and Reclamation, 
along with the Corps of Engineers and NOAA, are working 
together to identify best practices for managing our water 
resources in the face of the additional uncertainty of climate-
change impacts.
    The USGS has played an essential role in monitoring the 
Nation's rivers for well over a century. In fact, the first 
efforts at stream gauging were conducted by the USGS is 1888, 
at Embudo, New Mexico, on the Rio Grande River. Our second 
director, John Wesley Powell, recognized that, in order to 
develop and manage the resources of the West, we had to have 
sound scientific knowledge of that, and he began that process 
in New Mexico, at Embudo.
    Providing stream flow information for protecting--provides 
information for protecting life and property from floods, 
assessing and allocating water resources, managing water 
quality, supporting engineering design, and ensuring safe and 
enjoyable recreation on the Nation's rivers and streams.
    The USGS operates more than 7500 stream gauges nationwide, 
in cooperation with over 800 State and local partners, to 
provide daily streamflow data accessible to the public. We are 
pleased to see that the SECURE Water Act specifically points to 
the National Stream Flow Information Program. This program has 
enjoyed strong support from the Administration and Congress in 
the last two budget cycles, helping to stabilize and modernize 
this vital monitoring system.
    The SECURE Water Act calls on the USGS to work with 
Federal, State, and local entities to implement a systematic 
national groundwater monitoring program. Monitoring the 
changing status of our Nation's aquifers is crucial to sound 
water management. Through the Subcommittee on Groundwater that 
was formed in January of this year under the Advisory Committee 
on Water Information, the USGS is working with more than 60 
people from the private sector, academia, and Federal, State, 
and local governments to develop a framework for enhanced 
monitoring and data-sharing that draws on the talents of 
Federal, State, and local agencies.
    It has been said that you can't manage what you don't 
measure. The last assessment of the Nation's water resources 
was published in 1978. Since then, dramatic changes in water 
availability and use have occurred as a result of demographics, 
economic development, environmental issues, technology, law, 
and a changing climate. Our ability to manage water in the 
context of competing demands would be significantly enhanced 
with an up-to-date water census that includes improved 
information on water use, surface water, and groundwater. 
Managing water in a sustainable manner has to start with 
knowledge of the resource and knowledge of--about how it is 
being used.
    I am pleased to report that efforts toward the kind of 
water use and availability assessment program called for in 
Section 9 of this bill has already begun. The USGS has 
developed a plan for such an assessment, and a pilot effort is 
underway in the Great Lakes Basin. We believe that this is a 
good model for a national water census.
    In conclusion, I would say that in 2004 the National 
Research Council warned, and I quote, ``The strategic challenge 
for the future is to ensure adequate quantity and quality of 
water to meet human and ecological needs in the face of growing 
competition among domestic, industrial, commercial, 
agricultural, and environmental issues,'' end quote. The SECURE 
Water bill is an important step toward addressing that 
challenge, and the Department of the Interior is already 
pursuing many of the goals of the legislation; however, we note 
that the funding for these activities would have to compete 
with other high-priority Administration programs for funds.
    In our written statement, we have also noted a few concerns 
with specific language in the bill, and we'd be pleased to work 
with the committee to revise the bill to address those 
concerns.
    Thank you, Mr. Chairman, for the opportunity to present 
this testimony, and I'm happy to respond to questions that you 
or other members of the committee may have.
    The Chairman. Thank you very much. Let me start with a 
couple of questions.
    Mr. Johnson, let me start with you. I believe in your 
testimony, you refer to Reclamation's Water 2025 Program. This 
would be authorized under Title 5 of this bill that we're 
talking about here. You make reference to the fact that it has 
been funded on a year-to-year basis up until now. Could you 
give us some indication as to the extent of the applications 
for grants under this program? What has been the amount of 
demand? How much of it have you been able to meet with your 
available funds? Anything else you can tell us about the 
progress that you've made with this Reclamation Water 2025 
Program?
    Mr. Johnson. Yes, Senator. Water 2025 has been a very 
successful program. It's gained a lot of interest throughout 
the West. We do have a lot of competition. It's a challenge 
grant program, where water districts--West-wide, not just 
Reclamation districts, but other water entities, as well--
submit applications for proposals for water conservation 
projects. We review those applications and grant loans of up 
to--or, not loans, but make grants of up to $300,000 to assist 
in implementing those projects.
    We've had, you know, around 100 applications on an annual 
basis. I think we've--and I can't remember the exact number. If 
we could fully fund all of those applications, it would 
require, on average, about $30 million. Our funding levels have 
been in the $5 to $10 million range. This past year, 2007, I 
think, was the highest funding level we had, which was $11 
million for the Water 2025 Program. So, it's a very popular 
program. It does a lot of good things, in terms of conserving 
water on the ground in a relatively short period of time. The 
language here could certainly boost our efforts in that 
program.
    The Chairman. Thank you very much.
    Mr. Hirsch, let me ask you, this National Stream Flow 
Information Program, as I understand it, was intended to create 
a base nationwide stream gauge network that was to be funded 
100 percent by the Federal Government, or at least that was my 
understanding. Your written testimony states that the stream 
gauges under the NSIP program should be cost-shared rather than 
federally funded. Is that a change in position, what's your 
explanation on that?
    Mr. Hirsch. No, Senator, there's no change in position. 
Perhaps just some of the vagaries of our interpretation of some 
of the language of the bill may have resulted in that.
    I think what we were trying to express was the fact that 
stream-gauging--the whole stream-gauging activity of the United 
States Geological Survey is very much currently funded on a 
cost-share basis. In fact, more than half of the money that is 
used in this effort comes from 800 other State--800 State and 
local agencies, plus other Federal agencies. We are trying to 
build what we are calling a national backbone network in this 
National Stream Flow Information Program that would be 
federally funded, and we continue to take that position and 
have been working in that direction. I think our point was 
simply that, in considering the entire enterprise of stream-
gauging on a national basis, which is currently about a $120-
million-a-year enterprise, that there is a very, very important 
role for cost-sharing, in that it drives all of us to be very 
efficient and to work with the needs of people like State 
engineers and other officials. But our goal for this backbone 
network, in fact, is for it to be federally funded.
    The Chairman. All right. Why don't I stop with that.
    Senator Domenici, go ahead.
    Senator Domenici. I'll yield to Senator Craig.
    Senator Craig. Thank you, Mr. Chairman. Thanks, Pete.
    A couple of questions of you, Bob. Certainly, Dr. Hirsch, 
you can chime into this. For about 100 years, Idaho and western 
States watered themselves. By the time most of the great 
projects of the Bureau of Rec and others were completed, most 
arid western States had substantially more water inside their 
boundaries than they had historically had under just stream 
flow and no storage.
    Of course, it's become persona non grata today to even 
suggest new impoundments. Yet, we know that in some areas if 
you simply added a couple of feet to the top of an existing 
reservoir, you could double the size or the capacity of a given 
reservoir, because of--you know better than anyone else, that's 
where the greater water storage capability is. There are even 
some off-main-stem-type basins that certainly could provide 
additional water.
    When I look at the State of Idaho, for example, and I look 
at our historic needs, both human and agricultural, versus our 
new needs, versus the demands downstream--by the Endangered 
Species Act--of fish, primarily in the salmon--the salmon-type 
species of fish in the Snake and the Columbia system, it isn't 
a matter of just reshaping our existing water in a more arid 
environment, it is the possibility of getting more water.
    Then I add the equation of energy in. Let's say, down the 
road a few years, Idaho decides to build a nuclear reactor. 
Those require a substantial amount of energy. If that new 
reactor is a new reactor--meaning, a new generation high-
temperature gas reactor that could make hydrogen--that would be 
through the electrolysis of water. All new energy-related 
sources, be they the synthetics, ethanol--corn or cellulosic--
all require substantial amounts of water. Is the Bureau of 
Reclamation--or, dare the Bureau of Reclamation even think 
about new water when we are so busy scurrying around trying to 
manage an even scarcer water supply to a much broader demand?
    Mr. Johnson. Certainly, there are lots of new demands for 
water out there, and there's certainly a lot of change--or a 
lot of concern about the impacts climate change may have on 
that water in the future. I think there are a broad range of 
tools that the Bureau of Reclamation, along with other State 
and local agencies, ought to be considering to meet those 
demands, and water conservation, water reuse, water transfers 
in markets where you package them in ways that protect 
traditional rural values, and, certainly in cases, new 
infrastructure may, in fact, be an appropriate way to address 
future water needs. I think it depends on the basin, it depends 
on the alternatives that are out there, and the individual 
circumstances that may exist. So, certainly I think that's an 
alternative. In various parts of the country, storage is being 
looked at fairly optimistically. State of California, for 
example, Governor Schwarzenegger and the State legislature are 
looking at a $9 billion water bond. A fairly significant amount 
would go toward actually building new storage in that State. 
So, there are areas where that's certainly a consideration, and 
ought to be part of what we look at when we look at the whole 
toolbox on how we should manage our water supplies.
    Senator Craig. Good.
    Thank you.
    The Chairman. Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I will 
continue along those same lines.
    I don't know if you can speak for Montana, specifically, 
but generally in the West would you say that there is enough 
storage to take care of the needs? You know, our snowpacks are 
melting off quicker, and our irrigation season is shorter, in 
particular. That is what I'm talking about.
    Mr. Johnson. In some areas, there's probably as much 
storage as can reasonably be built and justified. I mean, 
depending on how much storage is there and what the annual 
stream flow might be, it may or may not make sense to add 
additional storage to take care of needs. I think, in most 
places of the West, there is concern about there being enough 
water supply to meet all the demands.
    Senator Tester. OK.
    Mr. Johnson. So, certainly there's a concern about future 
water supplies and being able to meet those demands.
    Senator Tester. Have you done any estimates as to how much 
storage we'd have to build, on a percentage basis, to meet 
future demand?
    Mr. Johnson. No. No.
    Senator Tester. OK.
    Mr. Johnson. Not on any kind of a West-wide basis.
    Senator Tester. All right. 2025, you talked about, $11 
million is your highest funding level. How many States is that 
program in right now?
    Mr. Johnson. Seventeen.
    Senator Tester. Are they all in the West?
    Mr. Johnson. All in the West, yes.
    Senator Tester. OK. You might have said it already, but 
refresh my memory, how much would it be for that to be fully 
funded, was that 30 million?
    Mr. Johnson. $30 or $40 million has been the amount of the 
applications that have been submitted, yes.
    Senator Tester. OK.
    Dr. Hirsch, you talked about the last evaluation, done in 
1978. Did that include rivers, streams, and aquifers?
    Mr. Hirsch. It did include all of them, although it's a--
its look at groundwater was quite limited at that time, and 
groundwater development has moved rather rapidly since that 
time.
    Senator Tester. Did it give you enough information, where 
if a new evaluation was done, you could make some pretty 
informed decisions as to how quickly the aquifers are being 
depleted and what it would take to change that?
    Mr. Hirsch. That particular study would probably not shed 
very much light on that, although I think there are studies 
that have been done in the intervening years, such as our 
analysis of the high plains aquifer, as an example, where we 
track, every couple of years, what the changes in storage are 
in that aquifer. It's quite varied, from one system to another, 
what is our state of knowledge about how much water is in 
storage and what the impacts are of the changes in storage that 
are occurring.
    Senator Tester. Could you say, generally, overall, that the 
aquifers are being depleted quicker than they're being 
recharged?
    Mr. Hirsch. There are many aquifers that are being 
depleted, having a net depletion in--not only in the West, but 
in many other parts of the country, as well.
    Senator Tester. OK. Is there an opportunity--or, is it a 
viable option, I should say, to artificially recharge aquifers?
    Mr. Hirsch. Yes. I think this speaks to the previous 
question about storage. Artificial recharge and something 
called ``aquifer storage and recovery,'' which is really a 
subset of that, are quite viable tools, and we are very 
actively engaged in study of a number of those systems, working 
with State and local governments to determine how useful they 
are. The whole idea of storage, whether it's surface water or 
groundwater, is to take water from a wet season or a wet year 
and hold it over in storage to use in a dry season or a dry 
year. All of these systems have their drawbacks. We know some 
of the drawbacks of surface water storage, in terms of what it 
can do to the biota, as well as the evaporative losses that 
come from surface water storage. Groundwater storage isn't 
perfect, and there are losses, and there are energy costs 
associated with it, but it can be an effective method of 
storing water from wet years or wet season into dry years.
    Senator Tester. Are there negative environmental impacts 
with artificial recharge?
    Mr. Hirsch. I would say not significant ones. I think there 
are--when the water is to be used for drinking water, I think 
there are some questions that need to be carefully examined, 
particularly with the injection of chlorinated water, because 
of the potential formation of trihalomethanes. But I would also 
point out that in--particularly in southern California, those 
water agencies, such as Orange County and others, have been 
using these approaches for quite a number of years, and are 
producing very, very high-quality water. So, in southern 
California, these methods have been put to use quite 
effectively, and, I would say, with little significant 
environmental impact.
    Senator Tester. Thank you.
    The Chairman. Senator Domenici, did you want to go ahead 
now, or Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Johnson, if I could, in reading your testimony, it 
seems that you believe that the Bureau of Reclamation is 
already authorized to carry out many of the activities provided 
for in the bill. You may want to comment on that a little bit 
more and tell me if you believe this provides good value for 
taxpayers.
    Mr. Johnson. We do have existing authorities. We have a 
general authority in the Reclamation Authorizing Act that can 
be--the original organic act--that could be interpreted to 
authorize these kinds of activities. There was another act, 
back in the 1940s--and I don't have the specific cite on it, 
but I could get it for you--that authorized research related to 
reclamation projects, in general.
    Aside from that, we do have individual authorizations for 
reclamation projects, and many of those provide authority for 
operating and maintaining our facilities, and looking at the 
operation of our facilities, and certainly those authorities, I 
think, could be used to support, on a project-by-project basis, 
these kinds of--these kinds of activities.
    So, we do have existing authorities. I think that this bill 
does, however, focus the authority, and provides, maybe in one 
place, some fairly specific direction from Congress, from doing 
those kinds of--these kinds of climate-related research, how do 
we operate our projects, what kinds of water basins ought to we 
be looking at, and those sorts of things. So, I think there's 
some helpful parts of this bill that does add to our authority.
    Senator Barrasso. From the standpoint of the taxpayers and 
value for their money, how do you think this stacks up, Mr. 
Johnson?
    Mr. Johnson. I think, you know, it's always a struggle to 
get the right balance in the budget process, and certainly 
those are part of the concerns that we expressed in our 
testimony, is that there's concerns about what, ultimately, the 
impact of the bill might be on the budget. So, I think it 
depends on the magnitude of the funding. Certainly, we're 
funding some of these activities already. To the extent that we 
increase the funding for these kinds of activities, they'll 
have to be prioritized in the context of the broader budget, 
and that's really the struggle we have is, What is the right 
mix of priorities? Certainly, this is important, but I think it 
really becomes a question of degree.
    Senator Barrasso. Thank you, Mr. Johnson.
    Thank you, Mr. Chairman.
    The Chairman. Senator Domenici, did you have questions for 
these two witnesses, or should we go to the second panel?
    Senator Domenici. We have a Senator over there.
    The Chairman. Oh. Senator Salazar. Go ahead. I'm sorry. I 
thought you had had a chance.
    Senator Salazar. I might have had one, but I want another 
one.
    [Laughter.]
    The Chairman. We'll give you multiple chances. Go ahead.
    Senator Salazar. Thank you very much, Chairman Bingaman.
    Commissioner Johnson and Dr. Hirsch, my question to you is, 
How, from the perspective of your two agencies, are you 
anticipating what many of the water agencies across the West 
are already doing? That is, taking a look at climate change and 
what that's going to do with respect to their water supply. 
Just looking at the note from the Denver Water Board, which 
both of you know well, in Colorado, the Denver Water Board has 
estimated that a 2-degree Fahrenheit increase in temperature 
would cause a 6-percent increase in the demand for water. OK, 
so, 2-temperature-degree increase, 6-percent increase in demand 
for water, and a 12-percent decrease in water supply. So, as 
this major entity in my State is doing its water supply 
planning for the 2 million people served by the Denver Water 
Board, they're taking these parameters into account, and most 
water agencies across the West are starting to do that. Some of 
them are further along than others. How, within your respective 
two agencies, are you doing something that is similar and more 
coherent on a national scale?
    Mr. Hirsch. Thank you for that question. The subject of 
climate change is one that we, in fact, in the water programs 
of the USGS, have been actively engaged in working on for 
nearly two decades. Many of the studies that have looked at the 
changes, for example, in the timing of stream flow, the fact 
that runoff is occurring earlier in the year, we have less 
snowpack storage, that these were works that--work that we 
accomplished in the USGS, both in the east and the western 
United States. We've also done a great deal of work on 
paleoclimate, understanding the climate of the last several 
hundred years and those kinds of variations, and understanding 
the underlying natural variability of climate, which is 
extremely important to look at.
    I think--we're also working closely with our partners, the 
key two most important operating agencies in water resources at 
the Federal level, the Bureau of Reclamation and the Army Corps 
of Engineers. In fact, we have a small group that's beginning 
to work on what we're calling a paper on best practices for 
looking at how to operate in this more uncertain world that we 
live in.
    I would just want to say--and we also work with the global 
climate modeling community on the hydrologic aspects of the 
global climate models. In fact, one of our scientists testified 
before this committee----
    Senator Salazar. If I may, Dr. Hirsch----
    Mr. Hirsch. Yes.
    Senator Salazar [continuing]. What I'm----
    Mr. Hirsch. Let me----
    Senator Salazar [continuing]. What I'm trying to get to, 
though--and part of it is support of this bill, because I think 
what----
    Mr. Hirsch. Right.
    Senator Salazar [continuing]. This bill is trying to do is 
to give us some coherency, in terms of----
    Mr. Hirsch. Right.
    Senator Salazar [continuing]. How we move forward. Right 
now, I know, you're working with the Bureau of Reclamation, 
with the Army Corps of Engineers, and looking at the issue of 
climate change. But, from your point of view as the director of 
USGS, do you think we have that coherent plan, moving forward, 
making this assessment, that you could present to this 
committee, present to those of us who have an interest? I would 
ask the same of you, Commissioner Johnson.
    Mr. Hirsch. I would say this, that I think that the status 
of the science of climate change and its impacts on water is 
still really in its infancy, and that ability to predict the 
specific consequences in specific parts of the country is still 
very limited, and we need to recognize that. In fact, I think 
the study of climate is one of learning about a lot of 
surprises----
    Senator Salazar. Let me have Commissioner Johnson have a 
few seconds to respond.
    Mr. Johnson. We're doing lots of things related to climate 
change. We have partnerships with a lot of universities and 
research agencies, partnerships with other government agencies. 
We're trying to get more specific data on a basin-by-basin 
basis, which I think is what this bill is, kind of, asking us 
to do, is--it's identified basins, and saying we ought to get 
more research in those basins on climate change. In fact, that 
is something that we're trying to do. I think it's good 
direction for Congress to tell us to do that. I think it's 
something that we're already doing.
    I agree with Dr. Hirsch, it's complicated. We have broad 
climate models that are giving us indications on a broad 
regional basis. But getting that down to specific basins is 
very complicated and requires time and effort, and it's 
something that we're currently working on.
    So, yes, we have a plan, and yes, this one is very similar 
to many of the things that we're already doing, what's being 
offered in the bill.
    Senator Salazar. I take it----
    Mr. Hirsch. If I could----
    Senator Salazar. I take it from your testimony that our 
bill would be helpful in moving that whole effort along.
    Let me just make a quick comment, because I only have 20 
seconds left here. In my view, Chairman Bingaman and Senator 
Domenici and my members--my colleagues on this committee--it 
seems to me that, when you take a look at the last time when 
this kind of water assessment was done, 1978, that was 30 years 
ago, and I know that, in each of our respective States, there 
are huge things that have changed in that 30-year period, in 
how we manage the integration of surface water supplies and 
groundwater, how we deal with new water efficiency measures, 
how we institutionalize new water-sharing arrangements between 
agriculture and municipal uses. There has been a huge change 
taking place with respect to water and water supply management 
in the West. I think that a 30-year passage of time makes it 
imperative for us to really move forward and to support this 
legislation which you have introduced.
    The Chairman. Senator Domenici.
    Senator Domenici. Mr. Chairman, first let me say, to my 
friend from Colorado, thank you for your questions and focusing 
in the way you have. To our new Senator from Wyoming, I'm sure 
that you handle your work as a U.S. Senator in exactly the same 
way you handled your work as a surgeon, because you do come 
here prepared, and I assume your life has been one where you 
don't go unprepared to do your work. You will find that many of 
us go unprepared. If you haven't made that observation yet, you 
are less astute than I think. The reason I wait til the end is 
so I can learn from all of you, so I can ask something 
intelligent, because I have been too busy to work very hard on 
this. I am now getting a little excited, so I'll ask a couple 
of questions. Thank you.
    Dr. Hirsch, Mr. Johnson, we're getting down to the point 
where--just like almost every other committee that has any big 
environmental authority--this issue of climate change haunts 
us, because we are haunted as representatives of our people, by 
the people talking and whispering and wondering about what it 
means. I gathered, from what you've just said, that neither of 
you would feel uncomfortable if we passed this bill. Of course, 
we have to modify it here and there--after the hearing. But 
neither of you would feel uncomfortable, both of you are 
indicating that, to the extent that you have capacity now to 
measure global warming and its impacts, you are trying to do 
that in your respective jurisdictions. Is that correct? Both of 
you. Let's start with you, Dr. Hirsch.
    Mr. Hirsch. Yes, we certainly are. I think the--we make a 
lot of measurements of surface water and groundwater. The 
tricky part is understanding what's the signal, if you will, 
that's coming from natural variability, the signal that's 
coming from effects of humans on the landscape--say, in 
developing groundwater--and the signal that's coming from 
climate change. We continue to work on it, and we're learning, 
all the time. But it's a subject that demands continuing 
attention.
    Senator Domenici. Mr. Johnson.
    Mr. Johnson. Yes, yes, it's something that we are working 
on----
    Senator Domenici. OK.
    Mr. Johnson [continuing]. No question about it.
    Senator Domenici. So, now, it seems to me that the question 
that we have to know is, Do you think that you should do more 
in this area, and that we should be considering giving you more 
to do this work with, or do you feel comfortable, as the chief 
professionals in your fields? I know, Dr. Hirsch, you're not in 
charge, but you're second in charge of what is clearly the 
world's best at what it does. I'm not sure, Director Johnson, 
what that bodes for you, excepting we know that we have nobody 
to look to for many other things, other than your Department.
    Now, having said that, do you feel you need more to be able 
to do more, or are we on the right path, and do you have the 
resources and the agreements with other agencies and 
departments to be doing this monitoring on climate change?
    Dr. Hirsch.
    Mr. Hirsch. That's a lot of aspects to that question that 
we could go into, and you ended up by mentioning monitoring.
    Senator Domenici. Be simple.
    Mr. Hirsch. OK. I would say that we're very concerned, when 
it comes to monitoring, with the continuity of the monitoring. 
One of the reasons for this National Stream Flow Information 
Program, which is a part of this bill, is that we have found, 
in the last couple of decades, that long-term stream gauges 
that really are one of our best indicators of climate from a 
water perspective, that we have to shut many of them down 
because of lack of funding from our partners or from our own 
budget. In the last couple of years, each year--we've shut down 
about 100 of them each year for that reason. It is for that 
reason that the Administration has come forward with proposed 
increased. In fact, the Congress has even gone beyond what the 
Administration has proposed to make sure that we're able to 
keep the continuity of that monitoring going. We also believe 
that we need to build that long-term record in groundwater, 
which we don't have in surface water today. So, those are a 
couple of considerations.
    Senator Domenici. Right. Very good.
    Johnson.
    Mr. Johnson. There's always more that we can do. We're 
doing, I think, a reasonable amount now to be looking at 
climate change. I do believe that there is more. I think this 
bill helps focus in a single authority and provide direction 
from Congress on what we would do. I come back to the 
limitations that we talked about in our testimony, and we 
always have to find the right balance in the budget. But, 
certainly, this is a high priority and is something that we do 
need to be focusing on and putting resources on.
    Senator Domenici. Thanks to both of you.
    Thank you, Mr. Chairman.
    Senator Craig. Mr. Chairman.
    The Chairman. Yes.
    Senator Craig. One last question, if I might?
    The Chairman. Senator Craig.
    Senator Craig. It is consistent with what you said in your 
opening comments, Mr. Chairman.
    Are either of you working with our national laboratories, 
at this moment, that are out, many of them, in the West and in 
the arid West? I know that they all have projects in relation 
to future energy demands and water consumption. Is there a 
relationship there at all? If there isn't, I am one who 
believes there ought be.
    Mr. Hirsch. Let me comment on--and this committee, I think, 
sponsored the legislation a few years ago, and the common term 
we use for it is the water/energy nexus, and looking at that 
relationship. That effort is being led up at Sandia National 
Labs. Many of our scientists have participated in that 
exploration of that water/energy nexus, and, in fact, I'm a 
member of the steering committee of the group that's putting 
that picture together. So, it's an important issue, and we are, 
in fact, engaged with the National Labs on that topic.
    Senator Craig. Thank you.
    Mr. Johnson. We are, as well, as long--along with a lot of 
other academic institutions, universities, Scripps Institute; 
so, very much using that resource.
    Senator Craig. Thank you.
    The Chairman. OK. Thank you all very much.
    Why don't we move to Panel 2. We have a vote in about 17 
minutes, so why don't we ask the second panel to come forward. 
While they're coming forward, I'll indicate who's on the panel.
    John D'Antonio, who's our State engineer in New Mexico, is 
here, representing the Western States Water Council, in Santa 
Fe, and we appreciate him being here. Jon Lambeck is the 
Metropolitan Water District of Southern California 
representative here, from Los Angeles. David Wunsch is here 
representing the National Groundwater Association, from 
Concord, New Hampshire. Patrick O'Toole is with the Family Farm 
Alliance, in Savery, Wyoming, and we appreciate Patrick being 
here. Brian Richter is with The Nature Conservancy, from 
Charlottesville, Virginia, and we appreciate him being here.
    Let me just start with John, over on the left, and just 
proceed across the panel there. If each of you could take 5 
minutes or so, and summarize the main points, we'll include 
your full statement in the record. We, again, appreciate your 
being here.
    John, why don't you go right ahead.

STATEMENT OF JOHN D'ANTONIO, REPRESENTING WESTERN STATES WATER 
                     COUNCIL, SANTA FE, NM

    Mr. D'Antonio. Mr. Chairman, thank you, and members of the 
committee. My name's John D'Antonio. I'm the State engineer for 
the State of New Mexico, and today I'm representing the Western 
States Water Council.
    The Western States Water Council is affiliated with the 
Western Governors Association. I'll refer to things in my 
testimony. When I say WGA, it's Western Governors Association.
    The Council supports enactment of Senate bill 2156, the 
SECURE Water Act. This bill addresses many needs identified in 
the June 2006 WGA water report, entitled ``Water Needs and 
Strategies for a Sustainable Future.'' The WGA report 
recommendation 2A calls for a summary of existing uses, ground 
and surface water supplies, and anticipated future demands. 
There is now not sufficient water data for a firm foundation 
for decisionmaking. This bill authorizes a National Water Use 
and Availability Assessment Program to provide better 
information and identify trends in use and availability.
    Section 9 includes grants to assist States in developing 
needed datasets and data bases. The WGA report 2A also suggests 
State and Federal agencies should increase funding for basic 
data gathering, as well as find ways to reduce costs to gather 
and distribute data.
    Section 8 authorizes a USGS Water Data Enhancement Program 
that includes an expanded National Stream Flow Information 
Program and Systematic National Groundwater Resources 
Monitoring Program. The Council strongly supports expanding the 
current Stream Gauging Program. It is increasingly evident that 
there is often not sufficient data to support conjunctive State 
administration and management of surface and ground waters.
    The bill also directs the USGS to identify significant 
brackish U.S. aquifers. Waters of impaired quality can offer an 
effective alternative to traditional supplies.
    Section 8 also authorizes grants to develop new 
methodologies, technologies to cost-efficiently estimate or 
measure water resources data, such as stream flows, groundwater 
storage, precipitation, evapotranspiration, water withdrawals, 
return flows, and consumptive use, as well as improved data 
standards and methods of analysis.
    I'd like to highlight the current use of Landsat to promote 
sensing and thermal infrared imaging--it's known as TIR--for 
monitoring and--evapotranspiration and calculating consumptive 
agricultural uses. This type of applied research and technology 
is something that should be supported, and is supported in this 
bill. Unfortunately, the joint USGS-NASA program is threatened 
by a failure to fund a TIR instrument on Landsat 8, due to be 
launched in 2011. Again, we'll lose all capabilities if that 
happens. We should not lose this valuable tool for present and 
future water management, while authorizing research for, and 
development of, other unknown possibilities.
    We appreciate the interest of the chairman and other 
members of the committee in this issue, and urge you to support 
appropriations language directing NASA to immediately begin 
work to design and produce a TIR instrument for Landsat 8.
    The WGA report 2A says we should explore ways to promote 
water conservation and greater water use efficiency, better 
manage demand, reuse water, and use water banking and water 
transfers to maximize existing water supplies.
    Section 5 of that bill authorizes a Reclamation Water 
Management Improvement Program to provide financial assistance 
to non-Federal entities to help conserve water, facilitate 
water markets, and enhance water and watershed management in 
areas with a nexus to the U.S. Bureau of Reclamation projects 
or to address climate-related impacts. We support continuing 
activities under Reclamation's Water 2025 Challenge Grants and 
Field Services Program and the Bridging the Headgate 
Partnership, which is intended to promote both on- and off-farm 
management improvements.
    WGA report 2A calls for a focus on grassroots watershed 
approaches to water supply-and-demand management problems, to 
find solutions. The assistance of--authorized by the bill will 
be a welcome addition to our toolbox.
    WGA report 3B suggests that the Congress should increase 
appropriations from the Reclamation Fund, as we would urge the 
committee to use the Reclamation Fund for appropriate purposes 
and programs authorized by this bill.
    WGA report 2B recommends we use our existing research 
capabilities at State universities to focus on promising 
applied technologies, to improve water data acquisition, water 
treatment, and water energy efficiency.
    Section 5 of the bill also authorizes cooperative 
agreements with any university, nonprofit research institution, 
and other organizations to fund such research.
    The WGA water report highlights the need to prepare for the 
impacts of increasing climate variability and change on water 
resources, focusing on vulnerabilities, building resiliency, 
monitoring and assessing future supplies, improving our 
predictive capabilities, and mitigating anticipated impacts. 
This needs to be done at the watershed level in the context of 
current planning under various climate change and impact 
scenarios, which requires modeling at a finer scale.
    Section 4 of the bill establishes a Reclamation Climate 
Change Adaptation Program to assess risks to water resources 
and develop mitigation strategies to address shortages.
    Section 7 creates a Climate Change and Water Intra-
Governmental Panel to review the science and develop ways to 
better forecast water availability impacts.
    Section 6 mandates hydroelectric power assessment of the 
effects of climate change on power production.
    I wish to express our appreciation for the recognition of 
Senate bill 2156, that States bear the primary responsibility 
and authority for managing water resources, and its provisions 
requiring Federal agencies to consult and coordinate with State 
water agencies. Moreover, the bill states, ``Nothing in this 
Act preempts or affects any (a) State water law, or (b) 
interstate compact governing water.'' It also directs the 
Secretary to comply with applicable State water laws.
    We recommend the committee, its members and staff, for 
their initiative--or, we commend the committee--and look 
forward to working together toward passage and implementation 
of legislation to address our pressing current and future water 
needs.
    Again, thank you for this opportunity to testify.
    [The prepared statement of Mr. D'Antonio follows:]
Prepared Statement of John D'Antonio, Representing Western States Water 
                         Council, Santa Fe, NM
                              introduction
    My name is John D'Antonio, the New Mexico State Engineer, and I am 
representing the Western States Water Council (WSWC), whose members are 
appointed by the Governors of eighteen states. We are an advisory body 
on water policy issues affiliated with the Western Governors' 
Association (WGA).
    The Council supports enactment of the SECURE Water Act, introduced 
by the Chairman, Senator Bingaman (and cosponsored by Senators 
Cantwell, Domenici, Johnson, Salazar and Tester). The stated purposes 
of S. 2156 are to: (1) increase water use efficiency; (2) expand data 
acquisition and analysis of the Nation's water; and (3) enhance the 
understanding of climate change impacts on water availability and 
energy production in the U.S.
    Specifically, we support the financial assistance to non-federal 
entities for water-use efficiency improvements, enhanced spending 
authority for USGS streamgaging activities, a ground water monitoring 
system, brackish water study, new methods to estimate and measure water 
use, a national water use and availability assessment, establishment of 
a intra-governmental panel on climate change and water resources, a 
Reclamation Climate Change Adaptation Program, and a hydroelectric 
power assessment given the potential effects of climate change.
    The bill addresses many of the needs identified in the June 2006 
WGA Water Report, ``Water Needs and Strategies for a Sustainable 
Future,'' which was prepared by the Council and adopted by the 
governors.
    Over the past year and a half, in cooperation with western 
governors, western water state officials, federal agency 
representatives and many stakeholders, we have been working to 
implement and refine the recommendations in the WGA Water Report. The 
report recognizes that the means to meet our future needs will need to 
come from a variety of sources, and that federal, state and local 
partnerships are one way to leverage limited budgets and staff. We must 
face our future water resources challenges together.
    S. 2156 authorizes additional programs and spending to help meet 
some of the challenges related to ensuring we have sufficient supplies 
of water of suitable quality to meet the future demands related to our 
increasing population, economic growth, food, fiber and energy 
production, as well as environmental and recreational uses.
    One of the first challenges is to better identify and quantify our 
existing uses, our anticipated future needs, and available supplies. 
This is a monumental task. As the Council has consulted with our member 
states, it has become evident that there is not now sufficient 
information available to provide a comprehensive and firm foundation 
for future decisionmaking.
    The WGA Report Recommendation 2A states that--A west-wide summary 
of existing water uses, water plans and planning efforts, current 
ground and surface water supplies, and anticipated future demands 
should be developed, then trends and common themes identified and 
evaluated. This summary should address both consumptive and non-
consumptive uses and demands.
    S. 2156 authorizes a National Water Use and Availability Assessment 
Program. The Secretary of Interior, acting through the U.S. Geological 
Survey (USGS) and ``in coordination with . . . State and local water 
resource agencies,'' is to undertake a program to provide better 
information on water resources and identify trends in use and 
availability, as well as help forecast water availability for future 
economic, energy production and environmental needs. USGS is also to 
maintain a national inventory on water, and provide grants to States to 
enable locally-generated data to be integrated with national datasets.
    We strongly support and are particularly interested in the 
provisions under Section 9 for grants to State water resource agencies 
to assist in developing and integrating water use and availability 
datasets into a comprehensive database. This section should include 
gathering information on environmental water uses, including instream 
uses and outflows for bays and estuaries, as well as traditional 
consumptive water uses.
    As present, western states' water planning capabilities (and 
spending) vary widely from state-to-state, particularly as it relates 
to estimating future water uses and needs. The numbers are often no 
more that ``unsubstantiated estimates.'' The Council is actively 
working with the U.S. Geological Survey (the Bureau of Reclamation, 
Corps of Engineers and Environmental Protection Agency) to better 
define current capabilities and future data needs.
    WGA Report Recommendation 2A also states that--Federal and State 
agencies should increase support and funding for state and federal 
basic water data gathering activities that can serve as the basis for 
sound decision-making. Further, state and federal agencies must find 
ways to reduce costs related to gathering and disseminating real-time 
water data/information, including the acceptance of more in-kind 
contributions from cooperators. Moreover, new and stable sources of 
funding are needed. Basic data gathering is an appropriate governmental 
activity.
    S. 2156, under Section 8, authorizes a USGS Water Data Enhancement 
Program that includes expanding the National Streamflow Information 
Program (NSIP), a base network of streamgages, and integrating NSIP 
with other state and federal water data collection activities. The 
objective is to establish and maintain a minimum of 4,700 NSIP 
measuring sites over the next 10 years.
    The WSWC has a long history of working with the U.S. Geological 
Survey, Interstate Council on Water Policy (ICWP) and streamgaging 
network stakeholders to support and improve the USGS Cooperative Water 
Program and National Streamflow Information Program. We welcome efforts 
to authorize greater expenditures for both programs, as well as actions 
to achieve our future streamflow data needs in the most cost-efficient 
manner possible.
    The bill also directs the USGS to work with federal, state, and 
local entities to implement a systematic national ground water 
resources monitoring program for major aquifer systems in the U.S. It 
has become increasingly evident that there is not sufficient ground 
water data available, both quantity and quality, to support all the 
administrative actions (at the state and local levels) needed to 
understand and effectively manage ground and surface waters 
conjunctively. Many wells are not metered, and increasing ground water 
development is having a significant impact on surface water resources 
in some areas. We must increase and improve our knowledge of our ground 
water resources, and present and future challenges to ground water 
management, including climate change.
    More and more often, the use of waters of impaired quality, such as 
brackish ground waters, offer an effective alternative to the 
development of surface water supplies and their transport over long 
distances. S. 2156 directs USGS to work with appropriate state and 
local entities to conduct a study identifying significant brackish U.S. 
aquifers. Desalination of brackish ground water and other impaired 
waters promises to be an important alternate source of supply for some 
uses and users.
    Section 8 also authorizes the Secretary to provide grants to 
appropriate entities to develop new methodologies and technologies to 
estimate or measure water resources data in a cost-efficient manner. 
Priority is to be given to: (1) predicting and measuring streamflows; 
(2) estimating changes in ground water storage; (3) improving data 
standards and methods of analysis; (4) measuring precipitation and 
evapotranspiration; (5) developing descriptive and predictive models; 
and (6) water withdrawals, return flows and consumptive use. All of 
these are significant areas in need of greater emphasis.
    I would like to highlight one technology of growing importance in 
many western states that presently has the capability to provide 
critical information on ground water withdrawals, agricultural and 
other outdoor water uses, evapotranspiration rates and consumptive 
uses. The USGS and National Aeronautics and Space Administration (NASA) 
now jointly operate a system of earth observation satellites that 
include a thermal infrared (TIR) sensor on Landsat 5 and Landsat 7, 
which are over due for replacement. Data from this sensor is now used 
by western states (and others) to measure and monitor 
evapotranspiration and consumptive uses from irrigated areas (and other 
land cover) by calculating the ``residual'' energy balance. The Landsat 
Data Continuity Mission (LDCM), under NASA's Earth Sciences 
Directorate, currently has scheduled the launch of Landsat 8 for 2011. 
Once in orbit, NASA will turn over satellite operations and data 
management to USGS. However, NASA's FY 2008 budget did not include 
funding for a TIR instrument, and without immediate action by the 
Congress, this important tool could be lost for the foreseeable future.
    We appreciate the Chairman's interest in this issue, as well as the 
efforts of several members on this committee, in asking NASA to explain 
how it intends to continue to provide this thermal data to USGS. At 
present, I am not aware of any other alternative source of this data on 
a comparable scale that would allow western water managers to continue 
to meet the growing need for this type of information. For example, 
Idaho uses this information to conjunctively administer rights to use 
both surface and ground waters on the Snake Plain. Colorado uses this 
data to assure its compliance with interstate compacts governing its 
water use on the Arkansas River. This technology has also been used in 
California, Montana, Nevada, New Mexico, Texas, Utah, Washington and 
Wyoming, and other states, including Arizona, Kansas, Nebraska, 
Oklahoma, Oregon and South Dakota have expressed interest in its use. 
It could be used in the Colorado River basin to verify extraordinary 
conservation actions undertaken under the Seven Basin States shortage 
sharing agreement currently being negotiated. This is the type of use 
of technological applications that S. 2156 would appropriately promote. 
Ironically, without prompt congressional action, we now face the loss 
of this conservation and management tool.
    WGA Report Recommendation 2E reads--Water conservation and water 
use efficiency, demand management (including pricing structures), water 
and water rights transfers, water banking, water reuse, revolving 
fallowing of agricultural lands and other means should be explored to 
augment existing supplies, as well as the relative merits and obstacles 
related to various programs and technologies.
    S. 2156, Section 5, authorizes a program for Reclamation Water 
Management Improvement and allows the Secretary of Interior to provide 
grants or enter into cooperative agreements with eligible applicants to 
help conserve water, increase water use efficiency, facilitate water 
markets, enhance water management or carry out similar activities in 
any watershed with a Reclamation project nexus or to address climate-
related impacts to U.S. water supplies.
    Reclamation may provide financial assistance to States, Tribes, and 
local entities to construct improvements or take actions to increase 
water-use efficiency to address drought, climate change, or other 
water-related crises.
    We support authorization for these and other continuing actions 
taken under such programs as the Bureau of Reclamation's Water 2025 
Challenge Grants and Field Services Programs, and the Bridging-the-
Headgate Partnership, of which the WSWC is a signatory. Further, we 
strongly support the inclusion of in-kind services in calculating non-
federal cost sharing contributions, as provided under Section 
5(3)(E)(ii).
    WGA Recommendation 2A states--A summary should be developed of 
existing water supply and demand management policies and programs, as 
well as planned or potential activities. The focus should be on a 
grassroots, watershed approach to identifying water problems and 
potential solutions.
    In November, a workshop was been held by the Council, along with 
the WGA that focused on past and present efforts to meet western water 
supply challenges through various policies and programs to improve 
water management and increase supplies. It is important to recognize 
and support grassroot, local initiatives to identify, assess and work 
out solutions to water related problems. State and local agencies and 
others are working to solve their own water problems, and it is 
important that federal efforts complement and supplement these efforts. 
S. 2156 authorizes such assistance and will be a welcome addition to 
our present box of water management tools.
    WGA Recommendation 3B suggests--The Congress should increase 
appropriations from annual receipts accruing to the Reclamation Fund 
for authorized Bureau of Reclamation projects and purposes to help meet 
western water supply needs, especially for rural communities, to 
maintain and replace past projects and to build new capacity necessary 
to meet demands related to growth and environmental protection.
    May we suggest that such sums as are authorized under S. 2156 for 
Reclamation-related programs and purposes should be made available from 
the Reclamation Fund. Current receipts are not now fully used for 
authorized purposes. It is our understanding the amounts authorized for 
expenditure under the bill are in addition to assistance authorized and 
provided pursuant to other provisions of federal law. As a general 
comment, we are concerned that the amounts authorized be sufficient to 
reasonably support the mandated activities--and it follows that there 
is a need for sufficient appropriations to match the authorization.
    WGA Recommendation 2B directs we--Use the research programs at 
western state universities to focus research on practical applications 
of promising new technologies, and to identify areas where the 
increased use of technology (e.g. remote sensing, supervisory control 
and data acquisition, new water and wastewater treatment, and energy 
and water efficiency) should be promoted to enable more efficient and 
cost effective operations.
    S. 2156, Section 5, also authorizes the Secretary to enter into 
cooperative agreements with any university, nonprofit research 
institution or organization with water or power delivery authority to 
fund research to conserve water, increase efficiency or enhance 
management.
    The WGA Water Report includes a section highlighting the need to 
prepare for the increasing of climate variability and change on western 
water resources. Warming in the West would lead to significant changes, 
such as a more precipitation falling as rain rather than snow. This has 
the potential to upset the current balance achieved through the storage 
of seasonal surpluses. Snow is a major source of water in the West. It 
is a critical element in the current hydrologic cycle, and it is an 
irreplaceable water storage medium. Increasing future climate 
variability will bring new water management challenges involving not 
only the quantity of water available, but changes in its form and the 
timing with which it arrives. Several WGA report recommendations 
related to climate would be addressed by S. 2156's provisions.

  <bullet> WGA Recommendation 5--While recognizing the uncertainties 
        inherent in climate prediction, efforts should be made to focus 
        on vulnerabilities and building increased resiliency to 
        climatic extremes.
  <bullet> WGA Recommendation 5A--Federal agencies must continue and 
        expand funding for activities necessary for monitoring, 
        assessing and predicting future water supplies.
  <bullet> WGA Recommendation 5B--The Congress should fund research for 
        improving the predictive capabilities for climate change, and 
        assessment and mitigation of its impacts. Given the complex 
        climatology in the West, it is important that climate change 
        modeling be conducted at a much finer resolution, e.g. 
        watersheds and sub-watersheds.
  <bullet> WGA Recommendation 5C(2)--Particular emphasis should be 
        placed on climate change within the context of watershed 
        planning and the impacts of climate-change scenarios on energy, 
        economic development and forest management.

    S. 2156, Sections 4 and 7 respectively, direct the Secretary to 
establish a Reclamation Climate Change Adaptation Program, and a 
Climate Change and Water Intra-Governmental (I-G) Panel. Reclamation is 
to assess the risks of climate change to water resources in its service 
area and develop strategies and conduct feasibility studies to address 
water shortages, conflicts and other impacts to water users and the 
environment. The I-G Panel is to review the science on climate change 
and water, and develop ways to better forecast impacts to water 
availability. The Secretary, acting through the Bureau of Reclamation, 
is to consult with State water resource agencies in assessing specific 
risks to the water supply of each ``major Reclamation river basin.'' 
Similarly, the I-G Panel is to consult with States and the Advisory 
Committee on Water Information (ACWI).
    May we suggest that the definition of ``major Reclamation river 
basin'' in the bill be expanded to include the Arkansas, Republican and 
Pecos River Basins, and the Great Basin.
    S. 2156, Section 6, also mandates a Hydroelectric Power Assessment 
and directs the Secretary of Energy, in consultation with the federal 
Power Marketing Administrations (PMAs), and other federal and state 
agencies, to assess the effects of climate change on the water 
available for facilities producing hydropower marketed by the PMAs.
    Lastly, we appreciate the explicit recognition that ``. . . States 
bear the primary responsibility and authority for managing the water 
resources of the United States'' and that ``the Federal Government 
should support the States, as well as regional, local and tribal 
governments . . . '' We appreciate the many provisions in the bill 
requiring federal agencies to consult and coordinate with the 
applicable State water resource agency with jurisdiction. The savings 
clause is also important which states that: ``Nothing in this Act 
preempts or affects any--(A) State water law; or (B) interstate compact 
governing water.'' So is the requirement that the Secretary comply with 
applicable State water laws.
    In conclusion, we commend the Committee, its members and staff, for 
their initiative in addressing these critical water issues. While 
recognizing the jurisdictional limits of the Committee, we would also 
urge you to ensure that water quality issues, which are inextricably 
linked to water quantity issues, are considered together in 
collaboration with all applicable federal and state agencies.

    The Chairman. Thank you very much.
    Mr. O'Toole, go right ahead.

STATEMENT OF PATRICK O'TOOLE, PRESIDENT, FAMILY FARM ALLIANCE, 
                           SAVERY, WY

    Mr. O'Toole. Thank you, Mr. Chairman. I appreciate the kind 
words of some of the Senators. I've had the opportunity to work 
with several of you in different instances, and this room 
contains many people that are champions of water in the West, 
and appreciate it.
    I'm representing the Family Farm Alliance, and we support 
this bill. We represent farmers in the 17 western States, and 
our perspective is that there are things happening. We talked 
to this committee about a report that we developed. It's called 
``Water Supply and in a Changing Climate.'' I'll leave copies 
available to the committee. But we've been looking at this for 
about 4 years, not only because of the climate implications, 
but also because of the impact to farmers on population growth 
and lack of supply. We are the shock absorber for western 
growth and the shock absorber for climate change. It's farmers 
whose water is moving away from farms as this happens. I had 
the opportunity last week to speak, in Sante Fe at the La 
Fonda, to the New Mexico water users, and it was very clear how 
emotional an issue it is there. It's the same in every western 
State.
    Our family ranches on the Colorado/Wyoming line. We have 
cattle and sheep, and irrigate. The State line splits our 
ranch, and so, we have experience with both Wyoming and 
Colorado water law. I can tell you from personal experience 
that we're seeing things on the ground that really tell me, as 
a farmer and rancher, that things are changing. Places that I 
would never go in the springtime with a horse, you go right 
over, because of the cumulative effect of lack of water. This 
is right at the top of the Continental Divide. We're 25 miles 
from the split between the Platte and the Colorado River. So, 
we know the country pretty well, and we know what we're used to 
seeing. We know that things are changing. So, we try to react 
accordingly.
    The Family Farm Alliance has a very simple mission 
statement, ``Adequate supply of affordable water for farmers.'' 
That's what we feel like is in great jeopardy as we move into a 
different climate regime.
    Again, as I said earlier, you know, we support this bill; 
specifically, things like the coordination of Federal agencies. 
I'll talk a little bit later about some recommendations. But 
it's very important that, in today's world, that we have 
uniform information, and I think we have a dearth of 
information. Certainly the stream gauging information has got 
to be accelerated. We lost a lot of that over the last couple 
of decades, and we've got to have that. We've just got to have 
information. As Senator Tester said, ``Water is life, and 
knowledge is power.'' That's how we're going to solve these 
problems. As farmers, our report was really about looking at a 
broad set of recommendations, including storage. We think 
storage is certainly going to be on the table. If you get to 
the watershed level now, and you talk to people in their own 
watersheds, they're going to tell you about storage. It 
happened on the Rio Grande last week. If you guys can believe 
it, the forest guardian fellow who is on a committee to work on 
the Rio Grande, talked about storage. The days that that's--
that that isn't a subject that we can talk about are over. We 
have to make watershed-by-watershed decisions about the 
appropriateness of what we're doing.
    This bill also authorizes cost-shared grants for 
coordination with those Federal agencies. I think that's very 
important for local districts. Again, the Family Farm Alliance 
represents people at the district level in every one of the 
western States. What we think we bring to the table--we're 
celebrating our 20th anniversary this year--is a in-depth 
knowledge of what's going on in the ground, and that's what we 
try to bring to you all and others in the policy area, is that 
we will tell you what really is happening. We began this water 
supply issue--I know there was a question earlier, Is there 
evidence, for example, in the Bureau of Rec? In the last energy 
bill, we asked that all nonconstructed projects in the Bureau 
of Rec be listed. Those that are there because of some of the 
work that you all and we have done. I think there's a lot of 
projects that have been authorized and still have all the 
geology and all of the infrastructure described in detail, that 
still have the possibility of construction. So, I think that's 
a resource that we can take advantage of.
    One of the things I wanted to mention real quickly is this 
new responsibility of farmers to not only feed the Nation--and 
food security is certainly one of our recommendations, a look 
at food security--but the responsibility to produce fuel is 
huge. My wife called me, just before, to wish me good luck in 
this hearing, and she's in a ground blizzard north of I-80, 
bringing in the truckload of corn that we're going to feed to 
our sheep through the winter. That truckload of corn is about 
double what it was last year, with the combination of diesel 
and the acceleration of cost of grains because of the ethanol 
and the fuel issues. I believe that anything that helps farmers 
make more money is a good thing, but we have to realize that, 
in this push that has been policy implemented to produce fuel 
for the Nation, there are winners and there are losers, and it 
is creating quite a lot of change in the industry. Feeding 
livestock, for example, is a much more rigorous process than it 
was a year ago, I can tell you that.
    A couple of things that we would like to suggest for the 
bill is certainly what Senator Barrasso referred to, and that's 
a coordination with the States. As we all know, I mean, 
everybody knows that in the West, if you don't work with the 
States, there's going to be a pushback. I think the more 
coordination we have with the States, the better off the 
process is going to be. That's where the information is, that's 
where the people on the ground are. So, we would really 
recommend that.
    One that hasn't been talked about very much, but I think is 
very, very important--and in the next Administration, it needs 
to continue on--but it's the fact that the water resides in the 
forest. Most of the water in the West is in the U.S. Forest 
Service, in the snowpack. My experiences, as I've related them 
to you, about crossing rivers and all the things that we have a 
creek that runs through, so you'd better have some sharp spurs 
and be ready to have a ride to cross when it's in high water. 
We didn't have that last year, didn't have high water, because 
the April 80-degree weather took that hydrograph that was 
supposed to be like this and made it like this. We have to 
understand that if there's going to be storage built, a lot of 
it's going to be built with forests--relationship with a 
national forest.
    Another one of our recommendations is regulatory reform. 
Our community built a project, 23,000-acre-foot project, that 
saved our community, really--took 24 years to permit. That just 
can't keep happening.
    So, this bill, I think, does an awful lot of good things. 
We support it. We have some recommendations. I really 
appreciate the opportunity to speak to you.
    [The prepared statement of Mr. O'Toole follows:]
Prepared Statement of Patrick O'Toole, President, Family Farm Alliance, 
                               Savery, WY
                              introduction
    Good afternoon, Chairman Bingaman, Ranking Member Domenici, and 
Committee Members. My name is Patrick O'Toole, and I serve as the 
president of the Family Farm Alliance (Alliance).
    The Alliance is a grassroots organization of family farmers, 
ranchers, irrigation districts and allied industries in 16 Western 
states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental and 
national security reasons--many of which are often overlooked in the 
context of other policy decisions.
    My family operates a cattle, sheep and hay ranch in the Little 
Snake River Valley on the Wyoming-Colorado border. I am a former member 
of Wyoming's House of Representatives and I served on the federal 
government's Western Water Policy Review Advisory Commission in the 
late 1990's.
    I am honored to be here today and grateful that Senators Bingaman, 
Domenici, Cantwell, and Johnson have introduced S. 2156, The SECURE 
Water Act. This legislation is not only important to the Alliance; it 
also is immediately relevant to me and other Wyoming water users, and 
to farmers, ranchers and small communities all over the West. We were 
pleased to see that this bill contains some provisions that are very 
close to recommendations we provided in my testimony before the Water 
and Power Subcommittee last June.
            alliance involvement with climate change issues
    The Family Farm Alliance Board of Directors at its 19th Annual 
Meeting in Las Vegas last February established a subcommittee to 
develop a white paper that addresses the important issue of climate 
change, its possible impact on Western water supplies and irrigated 
agriculture, and recommendations on how to plan and provide stewardship 
for this change. The report was prepared by a Family Farm Alliance 
climate change subcommittee, our Advisory Committee, and water 
resources experts from around the West. That document--titled ``Water 
Supply in a Changing Climate: The Perspective of Family Farmers and 
Ranchers in the Irrigated West''-was released in early September. If 
you have not already received a copy of our report, we have additional 
copies that we can make available to you.
    Our report shows that climate change could further strain fresh 
water supplies in the American West. We must begin to plan for that 
now, and not wait until we are forced to make decisions during a 
crisis.
 s. 2156 represents a positive step towards addressing climate change 
                   impacts to western water resources
    Western water supplies are already inadequate to the demands of 
agriculture, urban growth and environmental enhancement. Global climate 
change, we're told, will further reduce those supplies. Working with 
farmers has made us incredibly sensitive to the big picture 
ramifications facing the future of Western agriculture, and the 
critical role reliable water supplies play in that big picture. We must 
immediately begin to address the critical challenges we face. A 
practical, prioritized approach to addressing these challenges is 
possible, and essential. We believe that S. 2156 takes a positive step 
towards addressing two of the Alliance's key recommendations.
1. S. 2156 will promote coordination of federal agencies and resources 
        in assessing, monitoring, and planning for future water supply 
        impacts and trends
    In our view, S. 2156 will promote coordination of federal agencies 
and resources in assessing, monitoring, and planning for future water 
supply impacts and trends--an important first step in developing an 
adaptive approach to climate change and water. The Alliance supports 
this approach as embodied in S. 2156 because it provides additional 
authorities for federal agencies to offer grants and agreements for 
demonstration, research, or methodology development in this 
coordinative effort. Such partnerships with local water authorities, 
universities, and local governments are key to providing localized 
solutions to vexing water supply problems.
    Our country has tremendous, but limited, resources available to fix 
our problems, so we must prioritize and sequence our actions, including 
those authorized or facilitated by S. 2156.
    The Alliance recommends that an initial priority research item 
carried out under S. 2156 be a comprehensive quantification of West-
wide changes in climate change-driven streamflow. This should be 
followed by quantification of the amount of additional above-and below-
ground reservoir storage, conservation targets, etc. required to re-
regulate the anticipated hydrologic regime changes. To optimize water 
management for beneficial use, researchers should look at scenarios 
where storage is spaced through the drainage. Potential storage sites 
should be located at high and low elevations to regulate and 
subsequently re-regulate the water supply to maximize beneficial use. A 
study of this type would quickly illustrate to policy makers the need 
to start modernizing our water infrastructure.
    The potential water impacts associated with use of alternative 
fuels must also be studied. Throughout the West, we are seeing 
proposals to build plants to make ethanol, another ``answer'' that may 
(or may not) lower greenhouse gas emissions. An April 2007 Sacramento 
Bee editorial provides a reality check on how much water it would take 
to grow all the corn required to meet California's goal of producing a 
billion gallons of ethanol a year. According to the Bee's calculations, 
that's about 2.5 trillion gallons of water for 1 billion gallons of 
ethanol, which is more than all the water from the Sacramento-San 
Joaquin Delta that now goes to Southern California and valley farms. 
Because there is only so much water for agriculture in California and 
other Western states, this means that some other existing crops will 
not be grown, thus furthering our dependence on imported food sources.
    Another growing demand that will be placed on Western water 
resources is driven by power requirements. The total water consumed by 
electric utilities accounts for 20 percent of all the nonfarm water 
consumed in the United States. By 2030, utilities could account for up 
to 60 percent of the nonfarm water, to meet the water needs required 
for cooling and pollutant scrubbing. This new demand will likely have 
the most serious impacts in fast-growing regions of the U.S., such as 
the Southwest. Even without warming climate conditions, continued 
growth in these regions will put the squeeze on both water and power 
use. When you throw in climate change considerations, the projections 
look worse.
    Studies of these types of issues lend themselves well to a private-
public partnership that would add non-governmental farming 
organizations, state agencies and academic institutions to a team of 
federal agencies including the expertise found within the Natural 
Resources Conservation Service, Bureau of Reclamation, and U.S. 
Geological Survey. For example, the Family Farm Alliance has partnered 
with Colorado State University and recently developed a proposal to the 
USDA for a project that would assess public attitudes and perceptions 
regarding agricultural water use in the West.
2. S. 2156 will provide water managers with highly beneficial ``on-the-
        ground'' solutions to infrastructure problems exacerbated by 
        global climate change
    S. 2156 authorizes the Secretary of the Interior to provide cost-
shared grants for planning, designing, or constructing improvements to 
water infrastructure that conserve water, provide management 
improvements, and promote increased efficiencies. These grants will 
provide water managers with highly beneficial ``on-the-ground'' 
solutions to infrastructure problems exacerbated by global climate 
change. These projects provide for improved water management, enhanced 
supplies, water conservation, and greater efficiencies, thereby 
stretching dwindling water supplies.
    Temporary water transfers, conservation, recycling, and 
desalination efforts must continue. However, these demand-management 
actions must be balanced with supply enhancement measures that provide 
the proper mix of solutions for the varying specific circumstances in 
the West.
    Supply enhancement actions should include rehabilitation of 
existing facilities and construction of new infrastructure. Many of the 
West's Reclamation projects are nearly a century old and many are badly 
in need of repair and/or modernizing. Rehabilitation measures should 
focus on maximizing the conservation effort through increased delivery 
efficiencies, construction of re-regulation reservoirs to minimize 
operational waste, and construction of new dams and reservoirs in 
watersheds with inadequate storage capacity to increase beneficial use 
and provide operational flexibility. Additional groundwater supplies 
should also be developed, but in a manner where groundwater use falls 
within the safe yield or recharge parameters of the aquifer. 
Conjunctive management of surface and groundwater supplies should be 
encouraged. Installation of additional stream gauges, water meters, 
groundwater recharge projects to employ during times of high surface 
flow, groundwater monitoring wells and better estimates of consumptive 
use are of paramount importance for the equitable management of 
available water supplies.
    Many water projects are ready to be developed in the West (see 
Family Farm Alliance, 2005; also U.S. Bureau of Reclamation, 2005). 
While conservation and recycling programs have done a tremendous job of 
meeting new growth, only a small amount of new water storage capacity 
has been developed in the past 30 years. Maintaining the status quo 
simply isn't sustainable in the face of unstoppable population growth, 
diminishing snow pack, increased water consumption to support domestic 
energy, and increased environmental demands. It's time to start 
implementing the water infrastructure needed to cope with a changing 
climate, meet the needs of a burgeoning population, and support a 
healthy agricultural base in the West.
3. S. 2156 will improve streamflow measurement and data collection 
        efforts
    Improved understanding and knowledge of existing water supply 
inventories, the interrelationships between surface and groundwater 
resources, and the impacts of predicted climate change on watersheds 
will be critical to water managers and at the local, regional, state, 
and national levels in adapting to and managing for climate change.
    Most of the recent reports and studies on climate change and water 
supply impacts suggest that federal agencies must focus on 
vulnerabilities and improve knowledge-based data collection activities. 
Current predictive models for future climate change scenarios, while 
useful in illustrating general areas of impact, are not particularly 
accurate at the local or regional scale. We support provisions in S. 
2156 to improvement in streamflow measurement and data collection 
efforts. We also support the development of more cost-effective 
methodologies in accomplishing these goals.
                     suggestions to improve s. 2156
    The membership of the Family Farm Alliance fully supports S. 2156, 
and encourages its enactment. The Alliance, however, believes that 
there are additional tools that are not included within the provisions 
of S. 2156 and that should be made available in order for western water 
managers and agricultural producers to adequately deal with the effects 
of global climate change.
1. S. 2156 Should Encourage the Federal Government to Partner with 
        States on Groundwater Monitoring
    S. 2156 directs the Secretary of the Interior to develop a 
systematic groundwater monitoring program for each major aquifer system 
located in the United States. We believe this can best be accomplished 
in partnership with the states and their respective water resource 
agencies. While we understand the utility of a national perspective in 
understanding the status of groundwater resources in the U.S. and in 
setting a standard criteria for comparative purposes, we also recognize 
the important work the states have already accomplished in 
characterizing these resources, and partnering with the states will 
ensure the federal government is not ``reinventing the wheel'' in 
implementing this provision of S. 2156. The bill only requires 
``consultation and coordination'' with state and local water resource 
agencies. We believe a stronger bond between the states and the federal 
government through partnerships in this effort is a better approach and 
will result in a better product. Any ``partnering'' should rely heavily 
on the actual experience of those actively using groundwater supplies.
2. S. 2156 Should Strongly Encourage the Federal Government to Partner 
        with States on Water Use and Availability Assessments
    We have similar concerns with the provisions calling for the 
development of a water use and availability assessment program. Without 
the complete involvement of state water resource agencies, this program 
will not be successful. We are supportive of the grant authorities 
provided through S. 2156 for implementation of this program, but more 
assertive language with regard to Federal consultation is needed to 
attract state participation and cooperation.
    We appreciate and support the provisions of S. 2156 requiring the 
federal agencies to comply with state water laws and compacts.
                              other needs
    Outside the scope of S. 2156, we will continue to advocate for 
solutions that will mitigate for climate change impacts to Western 
water resources, as well as ensuring the availability of reliable, 
affordable irrigation supplies. Critical problems remain to be solved.
1. Create Flexible Financing Options to Help Water Managers Proactively 
        Deal with Aging Infrastructure, Modernization and Climate 
        Impacts to Western Water Supplies
    Such tools include new, innovative, federally-enhanced financing 
instruments, such as expanded federal loan guarantees, tax-credit 
bonds, private equity bonds, and municipal bonds to finance aging 
federal and local infrastructure rehabilitation, modernization, and 
technological improvements--especially where such financial tools are 
currently not available.
    Some of these financing options are already authorized and await 
implementation by the responsible agencies. In the last Congress, this 
Committee wrote rural water supply project legislation that authorized 
the Secretary of the Interior to provide federal loan guarantees to 
local water agencies to help them meet their obligations to pay for 
costs of rehabilitating and improving aging Bureau of Reclamation 
facilities. Congress enacted the Committee loan guarantee provisions, 
yet they have not been implemented. Congressional inquiry and oversight 
might be necessary in order to assist the responsible federal agencies 
in achieving the goals of the loan guarantee program and to help 
western water managers proactively deal with an aging water 
infrastructure and global climate impacts to western water supplies.
2. Streamline the Regulatory Permitting Process
    Modern, integrated water storage and distribution systems can 
provide tremendous physical and economic flexibility to address climate 
transformation and population growth. However, this flexibility is 
limited by legal, regulatory, or other institutional constraints, which 
can take longer to address than actually constructing the physical 
infrastructure. The often slow and cumbersome federal regulatory 
process is a major obstacle to realization of projects and actions that 
could enhance Western water supplies.
3. Make the U.S. Self-Sufficient in Food Production
    Remarkably absent from the newly-ignited dialogue about food safety 
is a recognition of the importance of a secure and sustainable domestic 
food supply. While much is made of the need to end our reliance on 
foreign energy sources, nobody is talking about food independence. In 
the big picture, a national response to climate change should include 
as one of its goals self-sufficiency in food production. It is time for 
our national leaders to stand up and focus on improving the security, 
stability, and economic aspects of domestic food production so that our 
food remains readily available, ample, affordable, and safe.
4. Protect Farmland
    New research suggests that irrigation has kept croplands cool, 
essentially countering rising temperatures caused by greenhouse gas 
emissions over the last half century. Crops also turn carbon dioxide 
into oxygen. In addition to a multitude of other benefits (economic, 
security, habitat and open spaces, to name a few), our diminishing 
farmland needs to be protected. Federal funds and other money should 
also be authorized to help local governments protect farmland, analyze 
ways to keep farmland in production, set up grant programs for local 
governments and provide technical assistance to farmers. Congress 
should consider the option to encourage states to lease development 
rights from farmers to buffer their farmland.
                               conclusion
    The impacts of climate change on sensitive Western water supplies, 
while not totally understood today, will significantly challenge all 
water users in the West--municipal, industrial, agricultural, and 
environmental--in the near future. Being prepared requires investment 
and adaptation in the management of Western water supplies. To meet 
these challenges our efforts need to begin today--before crises, before 
conflict, and before there are winners and losers. S. 2156 is a very 
positive step in the right direction, providing much needed 
opportunities for partnerships with federal agencies; providing 
direction for federal policymakers in dealing with the impacts of 
climate change on our precious water supplies; and providing some 
innovative new tools that will be necessary in order for the federal 
government to proactively work with local and state water authorities 
on real solutions.
    We stand ready to assist you, Mr. Chairman, and the Members of this 
Committee in improving upon, and enacting this legislation so important 
to all our communities in the face of such an uncertain and challenging 
future. We must emphasize, however, that we are facing water problems 
right now. Legislation, water transfers and data collection alone will 
not resolve these problems. The amount of water on the planet remains 
the same. Only the infrastructure to conserve, reuse, store, treat, 
manage and convey water to where and when it is needed, at the quality 
and quantity needed, will resolve these problems and avoid even more 
severe consequences that loom on the horizon.
    Thank you for the opportunity to testify before this Committee 
today. I would be happy to answer any questions you might have.

    The Chairman. Thank you very much for your testimony.
    Mr. Lambeck, why don't you go right ahead.

      STATEMENT OF JON C. LAMBECK, POWER SYSTEMS MANAGER, 
    METROPOLITAN WATER DISTRICT OF SOUTHERN CALIFORNIA, LOS 
                          ANGELES, CA

    Mr. Lambeck. Thank you.
    Mr. Bingaman, Ranking Member Domenici, and members of the 
committee, the Metropolitan Water District of Southern 
California is honored to be invited to participate in today's 
hearing.
    Although I've provided a copy of my oral comments, I would 
respectfully request permission to provide written comments in 
due time.
    The Chairman. We will certainly be glad to get any comments 
you want to provide.
    Mr. Lambeck. Thank you.
    Again, thank you for inviting Metropolitan to testify 
before the committee on S. 2156, as it addresses the important 
issue of climate change and its effects on water supply 
management, particularly in the arid West. I am Jon Lambeck, 
and my responsibilities at Metropolitan are to oversee the 
energy needs of our extensive water supply system.
    Metropolitan is the Nation's largest provider of imported 
water to an urban area, serving a population of over 18 
million. Our region is expected to increase to 25 million over 
the next 25 years. The sources of southern California's 
imported water are from northern California and the Colorado 
River Basin. Our mandate, to provide a reliable, long-term 
wholesale supply of water to our high-growth region, is now 
rendered more challenging in the face of unmistakable impacts 
on water supplies, due to climate change. We are managing this 
through a dynamic integrated resources plan that is designed to 
respond to the rapidly changing water supply conditions first 
evident in the West, and now emerging in other regions of the 
country.
    However, no water agency can respond alone, and that is why 
legislation like 2156 is essential to define and authorize the 
crucial role the Federal Government must play in obtaining 
vital information to better understand the situation we are 
facing, to assist in evaluating alternative solutions, and to 
support the changes that will be necessary to mitigate the 
challenges of climate change to the water industry.
    There are many problems that must be addressed, as 2156 
makes clear, but today I want to focus, in my brief remarks, on 
the relationship of water resources and power generation. We 
are also attaching previous testimony by our chairman to 
Congress on the broader policy implications of climate change 
for water agencies.
    2156 is legislation that again proves the wisdom of a 
committee having jurisdiction over both natural resources and 
energy. As an example, one of the key issues encountered by 
water managers in responding to climate change is the lower 
water levels in storage facilities and the resulting decrease 
in hydropower capability. The diminished storage can limit the 
amount of water available to meet the needs of a growing 
population and reduce the amount of clean hydropower available 
to move the water. The result can be increased costs and 
increased emissions of greenhouse gases.
    For Metropolitan, water stored in Lake Mead on the Colorado 
River is released to meet our water demands, while, at the same 
time, it produces electric energy at Hoover Dam. From the start 
of Metropolitan's water operations in 1939, the generators at 
Hoover Dam have annually supplied over half the power needed to 
move Metropolitan's water through its Colorado River aqueduct. 
With storage elevations at both Lakes Powell and Mead down by 
50 percent, the seriousness of the situation is obvious for 
both water and power.
    Metropolitan's planning assumptions are conservative, 
meaning that we assume the effects of climate change will 
continue and low storage elevations will be a factor for years 
to come. This requires innovative responses, starting now.
    Let me suggest two immediate areas in which Federal 
assistance would be of immense importance on this set of 
problems.
    First, we need to understand how to optimize power 
production with reduced water supply, such as more efficient 
low head turbines. The Federal Government could undertake 
studies itself, or support studies by others, to create models 
and help develop and improve the design of more efficient 
turbines. This would allow the most benefit and value to be 
obtained from existing Federal hydropower assets under adverse 
storage conditions. This would also provide power contractors 
and water agencies with the technical means and credibility to 
finance the construction of new facilities.
    Second, other studies might address operational 
modifications under reduced water levels or the potential for 
physical changes, such as dredging at existing hydroelectric 
facilities. Relatively minor actions could result in measurable 
generation improvements.
    If these studies show the potential to make generation more 
efficient, they might be implemented relatively quickly, 
assuming there is limited structural modifications that would 
be required.
    2156 does an admirable job of conveying many of the issues 
that now allow water systems to respond to the effects of 
climate change, and we support the bill, for that reason. 
Nevertheless, we believe the legislation could be strengthened 
by an addition to Section 6, which specifies additional 
research the Secretary could perform, or contract to have 
performed, to address the problems of hydropower generation 
under reduced water conditions.
    Although the existing language of 2156 may cover these 
issues, the three areas of new generation equipment, 
operational changes, and physical modifications are all 
specified in the amendment that is attached, which we hope you 
will consider.
    It is important to maximize the efficiency of our clean, 
noncarbon power sources in this era of climate change, and 
these are some of the first steps we can take.
    In closing, Mr. Chairman, I want to compliment the 
committee for moving so quickly and comprehensively on these 
SECURE Water issues. As our chairman, Mr. Brick, told the Water 
and Power Subcommittee in June, the uncertain effects of 
climate change and increasing demands on the scarce fresh water 
supply mean we cannot afford to wait. Metropolitan's climate 
change policy encourages research and other efforts to better 
understand the effects of this global issue as 2156 would 
provide, and you can count on Metropolitan's support.
    Thank you.
    [The prepared statement of Mr. Lambeck follows:]
    Prepared Statement of Power Systems Manager, Metropolitan Water 
            District of Southern California, Los Angeles, CA
    Mr. Chairman and Committee Members: Thank you for inviting the 
Metropolitan Water District of Southern California (MWD) to testify 
before the committee on S. 2156, as it addresses the important issue of 
climate change and its effects on water supply management, particularly 
in the arid West. I am Jon Lambeck and my responsibilities at 
Metropolitan are to oversee the energy needs of our extensive water 
supply system.
    MWD is the nation's largest provider of imported water to an urban 
area, serving a population of over 18 million. Our region is expected 
to increase to 25 million over the next 25 years. The sources of 
Southern California's imported water are from Northern California and 
the Colorado River Basin. Our mandate is to provide a reliable long-
term wholesale supply of water to our high growth region, now rendered 
more challenging in the face of unmistakable impacts on water supplies 
due to climate change. We are managing this through a dynamic 
Integrated Resources Plan (IRP) that is designed to respond to the 
rapidly changing water supply conditions first evident in the west and 
now emerging in other regions of the country.
    No water agency can respond alone, of course, and that is why 
legislation like S. 2156 is essential to define and authorize the 
crucial role the federal government must play in obtaining vital 
information to better understand the situation we are facing, to assist 
in evaluating alternative solutions, and to support the changes that 
will successfully mitigate the challenges of climate change to the 
water industry. There are many problems that must be addressed, as S. 
2156 makes clear, but today I want to focus in my brief remarks on the 
relationship of water resources and power generation. We are also 
attaching previous testimony by our Chairman to Congress on the broader 
policy implications of climate change for water agencies.
    S.2156 is legislation that again proves the wisdom of a committee 
having jurisdiction over both natural resources and energy. As an 
example, one of the key issues encountered by water managers in 
responding to climate change is the lower water levels in storage 
facilities and the resulting decrease in hydropower capability. The 
diminished storage can limit the amount of water available to meet the 
needs of a growing population and reduce the amount of clean, 
hydropower available to move the water. The result can be increased 
costs and increased emissions of green house gases. For Metropolitan, 
water stored in Lake Mead on the Colorado River is released to meet our 
water demands while at the same time it produces hydroelectric energy 
at Hoover Dam. From the start of Metropolitan's water operations in 
1939, the generators at Hoover Dam have supplied over half the power 
needed to move MWD's water through its Colorado River Aqueduct. With 
storage elevations at both Lakes Powell and Mead down by 50%, the 
seriousness of the situation is obvious for both water and power.
    MWD's planning assumptions are conservative, meaning that we assume 
the effects of climate change will continue, and low storage elevations 
will be a factor for years to come. This requires innovative responses, 
starting now. Let me suggest two immediate areas in which federal 
assistance would be of immense importance on this set of problems.
    First, we need to understand how to optimize power production with 
reduced water supply, such as more efficient low head turbines. The 
federal government could undertake the studies itself, or support 
studies by others, to create models and help develop and improve the 
design of more efficient turbines. This would allow the most benefit 
and value to be obtained from existing federal hydropower assets under 
adverse storage conditions. This would also provide power contractors 
and water agencies with the technical means and credibility to finance 
the constructing of new facilities.
    Second, other studies might address operational modifications under 
reduced water levels or the potential for physical changes, such as 
dredging, at existing hydroelectric facilities. Relatively minor 
actions could result in measurable generation improvements. If these 
studies show the potential to make generation more efficient, they 
might be implemented relatively quickly assuming there is limited 
structural modifications that would be required.
    S. 2156 does an admirable job of covering many of the issues that 
will allow water systems to respond to the effects of climate change, 
and we support the bill for that reason. Nevertheless, we believe the 
legislation would be strengthened by an addition to Section 6 which 
specifies additional research the Secretary could perform, or contract 
to have performed, to address the problems of hydropower generation 
under reduced water conditions. Although the existing language of S. 
2156 may cover these issues, the three areas of new generation 
equipment, operational changes and physical modifications are all 
specified in the amendment (attached) which we hope you will consider. 
It is important to maximize the efficiency of our clean, non-carbon 
power resources in this era of climate change and these are some of the 
first steps we can take.
    In closing, Mr. Chairman, I want to compliment the committee for 
moving so quickly and comprehensively on these SECURE Water issues. As 
our Chairman, Mr. Brick, told the Water and Power Subcommittee in June, 
``. . . the uncertain effects of climate change and increasing demands 
on the scarce freshwater supply mean we cannot afford to wait.'' 
Metropolitan's climate change policy encourages research and other 
efforts to better understand the effects of this global issue as S.2156 
would provide, and you can count on Metropolitan's support.
                               amendment
    Insert a new (b) in Section 6.
          (b) Authorization of Research--
                  (1) AUTHORITY OF SECRETARY--The Secretary may perform 
                or have performed research by an appropriate party, to 
                provide the following:
                          (A) analysis of operational changes at 
                        federal hydroelectric power plants to mitigate 
                        adverse impacts to power production from 
                        reduced water supplies caused by climate change
                          (B) simulations and models to test and verify 
                        potential equipment changes that would achieve 
                        higher power production at lower water storage 
                        levels
                          (C) recommendations of physical changes to 
                        federal hydroelectric power plants and dams to 
                        increase power production during periods of 
                        reduced water supplies
                  (2) TITLE TO IMPROVEMENTS--Any infrastructure 
                improvement to a facility under the jurisdiction of a 
                Federal agency that results from the activities listed 
                in Paragraph (1), shall be the property of the Federal 
                Government
                  (3) COST SHARING
                          (A) FEDERAL SHARE--Research performed at the 
                        request of the Secretary shall be paid entirely 
                        by the Federal Government and shall be non-
                        reimbursable.

    The Chairman. Thank you very much.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, might I say to you that I 
have a number of constituents waiting and I am going to have to 
leave and let them walk with me to the vote. I want to just 
comment on two things.
    First, Mr. O'Toole, you raised the issue of how long it 
took to license--24 years.
    Mr. O'Toole. Yes, sir.
    Senator Domenici. I wanted to tell you that, in the 
Comprehensive Energy Policy Act, that's 3 years old, the 
section on licensing--and it affects you--has been dramatically 
changed, and, I think, if you were doing that now, you would 
find that it would not take 24 years. I'm just guessing, but I 
know what we did.
    Mr. O'Toole. That's important. Yes, sir.
    Senator Domenici. I want to say to the witness that just 
testified, next year we'll introduce a bill--hopefully, our 
chairman will support it--called ``Energy for Water, Water for 
Energy''--a play on words. It will have a section on 
researching--you know, urgency of research in the areas that 
you have alluded to, and because of just what you've said.
    Mr. Lambeck. Thank you.
    Senator Domenici. Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    We are already into a vote, nearly halfway through a vote, 
so I think the best course is to take a short break, and then 
I'll come back in about 10 or 15 minutes, and we will hear from 
the final two witnesses. I apologize for having to do that, but 
that's the schedule around this place. We'll adjourn for about 
15 minutes.
    [Recess.]
    The Chairman. Why don't we get started again. Sorry for 
that interruption.
    We have two additional witnesses here.
    Mr. Richter, why don't you go right ahead.

  STATEMENT OF BRIAN RICHTER, CO-DIRECTOR, GLOBAL FRESHWATER 
    INITIATIVE, THE NATURE CONSERVANCY, CHARLOTTESVILLE, VA

    Mr. Richter. Mr. Chairman and members of the committee, 
thank you for this opportunity to testify on the SECURE Water 
Act and the impacts of climate change on the management of our 
water resources.
    My name is Brian Richter, and I'm the director of the 
Global Fresh Water Program for The Nature Conservancy. The 
Nature Conservancy is a leading conservation organization that 
protects ecologically important places for nature and people. 
Our on-the-ground conservation work is carried out in all 50 
States and in more than 30 countries now.
    While The Nature Conservancy's mission is focused on 
sustaining the Earth's diversity of plants and animals, we know 
that protection of ecosystems is also critical to human well-
being; therefore, we are gravely concerned about the potential 
for climate change to substantially disrupt the things that 
everyone in this room cares about: our economy, our culture, 
and the ecosystems that support our way of life. That's why The 
Nature Conservancy is calling for legislation and policies to 
address greenhouse gas emissions by establishing a strong, 
cost-effective cap and a market-based program to reduce 
emissions.
    As we all know, even immediate reductions in greenhouse gas 
emissions cannot arrest the expected climate impacts of gases 
we've already put into the atmosphere. Therefore, we must also 
develop adaptation programs, like the one proposed in the 
SECURE Water Act, to help ecosystems, and the human communities 
relying upon them, to cope with the impacts of climate change.
    Mr. Chairman and Senator Domenici, we applaud you and other 
cosponsors of the SECURE Water Act for introducing legislation 
that will help us to better understand the impacts of climate 
change and what that will mean for the management of our water 
resources, and to begin to prepare strategies now to adapt to 
these changes.
    I would like to focus the rest of my remarks on strategies 
that will help better manage our water systems in response to 
climate change and provide specific recommendations on how to 
improve the SECURE Water Act to incorporate these strategies.
    To meet both human and ecosystems needs in the face of 
climate change, we must do a much better job of comprehensively 
managing our water resources. First, we need to assimilate much 
better data on the availability of water and how it is being 
used. Today, most States possess only a rudimentary 
understanding of who is using the water, how much they're 
using, when they use it, and how much is left for other 
purposes.
    To ensure that all States have the ability to account for 
and manage water resources comprehensively, we must 
substantially increase State and Federal investment in basic 
water accounting, particularly for the U.S. Geological Survey. 
In fact, each and every one of the activities I will highlight 
today is strongly dependent upon the science provided by the 
USGS.
    By providing support for the USGS National Stream Flow 
Information Program, establishing new monitoring programs, and 
providing incentives to integrate and standardize water 
availability data, the SECURE Water Act will do a great deal to 
fulfill this need.
    Comprehensive water management will also require improved 
management of our existing water infrastructure. By re-
evaluating current operations, we can better serve human needs 
and adapt to changing climate conditions while protecting 
natural systems. We appreciate the focus in the SECURE Water 
Act on reassessing current operations of water supply and 
hydropower dams, but we believe this assessment must also 
include an evaluation of the water needs of downstream 
ecosystems, referred to as environmental flow needs, so that we 
can sustain the productivity and many benefits, such as healthy 
fisheries, that freshwater ecosystems provide for our society. 
For example, through a national partnership with the Army Corps 
of Engineers and the U.S. Geological Survey, called the 
Sustainable Rivers Project, we are now working together to 
improve the management of 27 dams and nine river basins in the 
United States. Together, we're finding abundant opportunities 
to better protect the river ecosystems affected by these dams, 
while continuing to provide flood control, water supply, 
hydropower generation, and recreational benefits.
    Another important approach to provide for future water 
supply needs without compromising our natural resources is to 
implement nonstructural and natural means of water storage. For 
example, floodplains and wetlands can store excess flood waters 
and recharge our depleted aquifers. Conjunctive management, 
also known as aquifer storage and recovery, of surface-and 
groundwater can provide an integrated solution to meeting water 
supply needs without building additional surface reservoirs by 
artificially recharging aquifers that can store water for later 
use. We believe these and other nonstructural approaches will 
be critical for adapting to climate change. The adaptation 
strategies and grants in the SECURE Water Act should 
incorporate incentives for natural methods of water storage and 
seek to minimize new infrastructure needs.
    One of the most promising ways to improve our use of 
existing reservoir storage is to reduce our reliance on dams to 
provide flood control. I can illustrate this concept through 
our work on the Yangtze River in China. We have developed a 
proposal, now under serious consideration by the Central 
Chinese Government, that calls for large-scale restoration of 
the Yangtze River's floodplain to enable safe storage of flood 
waters on the floodplain. This proposal would relieve the 
upstream dams of having to provide flood control, and this 
would free up considerable space in the upstream reservoirs, 
that can be used for other purposes, including water supply and 
hydropower generation.
    Finally, all of our action must be based on sound science; 
therefore, we would recommend an even stronger science 
component in the development and implementation of adaptation 
strategies in the SECURE Water Act.
    In closing, it's important that all of our policy and on-
the-ground adaptation measures recognize the need to maintain 
healthy and resilient ecosystems that preserve the ability to 
adapt in the face of climate change and continue to meet the 
needs of both humans and wildlife. With the improvements 
suggested here, we believe this legislation will provide a good 
first step in assisting humans and ecosystems in adapting to 
climate change.
    Thank you for your attention and in this opportunity to 
share our thoughts with you today.
    [The prepared statement of Mr. Richter follows:]
  Prepared Statement of Brian Richter, Co-Director, Global Freshwater 
        Initiative, The Nature Conservancy, Charlottesville, VA
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on the SECURE Water Act and strategies to adapt 
our water management practices for the impacts of climate change. I am 
Brian Richter, the Co-Director of the Global Freshwater Program for The 
Nature Conservancy. In addition to providing specific recommendations 
on the SECURE Water Act, my comments today will focus on three themes:

  <bullet> impacts of climate change to streamflow, water temperature, 
        and water quality,
  <bullet> the need to balance human and ecosystem water requirements 
        in the wake of these changes,
  <bullet> and management strategies to achieve this goal.

    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in more than 30 countries and is supported by 
approximately one million individual members. The Nature Conservancy 
has protected more than 117 million acres of land and 5,000 miles of 
river around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and 22 U.S. states.
    While The Nature Conservancy's mission is focused on sustaining the 
Earth's diversity of plants and animals, our broader contribution to 
society is in the protection of the life support systems of our 
planet--we cannot protect the diversity of life on this planet, 
including human life, without protecting the ecosystems that sustain us 
all. Natural ecosystems provide humanity with clean water, food and 
fiber. Natural resources derived from ecosystems support major sectors 
of our economy, whether in the form of fisheries that sustain coastal 
communities or through tourism economies that rely so heavily upon 
nature-based recreation. Healthy natural ecosystems perform an array of 
valuable services with substantial economic values, including purifying 
our water supplies, sequestering carbon, and regulating the climate and 
hydrologic cycles of our planet, and this work is provided to humanity 
free of cost.
    Climate change is perhaps the greatest long-term threat to the 
health of aquatic ecosystems that support people, economies, and fish 
and wildlife. Prompt action to address this threat is critical to 
minimize future harm to nature and to the social and economic fabric of 
our communities. While the testimony provided today will focus on 
adaptation strategies in order to avert the most extreme effects, 
strong action to address the causes of climate change is essential. The 
Nature Conservancy is calling for legislation and policies that include 
three paramount concepts:

  <bullet> A strong cost-effective cap on emissions and a market-based 
        program designed to stabilize atmospheric greenhouse gas 
        concentrations at a level that ensures the well-being of human 
        communities and ecosystems worldwide. As a member of the U.S. 
        Climate Action Partnership, the Conservancy endorses the 
        coalition's call for specific U.S. emissions reductions to 
        achieve the goal of limiting global atmospheric greenhouse gas 
        concentrations to a level that minimizes large-scale adverse 
        climate change impacts to human populations and the natural 
        environment.\1\
---------------------------------------------------------------------------
    \1\ The US CAP's Call to Action states: ``We recommend Congress 
establish a mandatory emission reduction pathway with specific targets 
that are: between 100--105% of today's levels within five years of 
rapid enactment; between 90--100% of today's levels within ten years of 
rapid enactment; between 70--90% of today's levels within fifteen years 
of rapid enactment. The short- and mid-term targets selected by 
Congress should be aimed at making it clear to the millions of actors 
in our economy and to other nations that we are committed to a pathway 
that will slow, stop and reverse the growth of U.S. emissions. 
Furthermore, Congress should specify an emission target zone aimed at 
reducing emissions by 60% to 80% from current levels by 2050.'' The 
Call to Action and more information on US CAP is available at www.us-
cap.org.
---------------------------------------------------------------------------
  <bullet> Reduction of emissions from forest and land-use practices 
        through the incorporation of verified credits from these 
        practices in a cap-and-trade program.
  <bullet> Support for adaptation programs designed to help ecosystems 
        and the human communities that rely on them to cope with the 
        impacts of climate change.

    The principles outlined here recognize that strong measures are 
needed now to reduce the sources of greenhouse gases that contribute to 
global climate change, but significant effort is also required to 
mitigate projected impacts. Uncertainties in future human responses and 
the persistence of previously emitted gases mean that even with 
reductions in greenhouse gas emissions, we will continue to feel the 
effects of climate change for decades to come. We can already see the 
effects of a changed climate, including increases in global average air 
and ocean temperatures, increased precipitation in some areas and more 
frequent and severe droughts in others, and an increase in the 
occurrence of intense weather events. These impacts are here today, and 
they are projected to continue and, in many cases, intensify in the 
future.
    It is important for organizations, agencies and individuals to 
identify strategies and policies to help human communities and 
ecosystems adapt to a changing climate. We applaud the proactive 
approach embodied in S. 2156, the SECURE Water Act, that recognizes the 
need to better understand the impacts climate change will have on the 
management of our water resources and to prepare strategies now to 
adapt to these changes.
                             i. streamflow
    Streamflow patterns rise and fall seasonally with changes in 
precipitation, evaporation and snowmelt. Flow increases during rainy 
seasons or as snow melts and declines with the higher temperatures of 
summer. Freshwater and estuarine plants and wildlife have evolved in 
concert with and are sustained by the natural variations in water flow 
that occur seasonally, annually and over the course of many years. 
Human alterations to natural flow patterns take a serious toll on the 
plants, animals, and freshwater ecosystems that depend on it. 
Environmental flows are the amount and timing of water flows required 
to maintain healthy freshwater ecosystems and their benefits to human 
communities. A well-managed water resource is allocated to people and 
to environmental flows according to the needs of both.
Climate Change Impacts
    Global climate change will exacerbate the changes to natural 
streamflow patterns already caused by other human influences. The 
anticipated changes in climate are predicted to happen at an 
unprecedented rate, challenging any natural adaptation capacity and 
affecting entire ecosystems. Managing our natural ecosystems to persist 
during such rapid change will require fundamental changes in our 
traditional water management approaches. Specifically, water managers 
will need to fully consider not only the human needs like water supply, 
hydropower, and recreation that are served by removing water from 
rivers and lakes, but also the amount of water that must remain in 
these ecosystems to support wildlife and other human benefits.
    Recommendation: Broaden the focus of adaptation strategies in 
        Section 4 of the SECURE Water Act beyond threatened and 
        endangered species and fish and wildlife habitats to protection 
        of ecosystems and specifically the environmental flow needs of 
        freshwater ecosystems.
    Streamflow in regions across the United States will be affected by 
climate change in differing ways. Alaska anticipates and is already 
seeing some of the most profound changes, including increased flooding, 
especially in ecologically critical coastal wetlands; the thawing of 
permafrost, which will lead lakes and wetlands to drain in some areas; 
and earlier Spring peak flows that will cause northern freshwater 
fisheries, central to local diets, to suffer.\2\ Pacific coastal and 
Rocky Mountain states expect earlier spring peak runoff, more winter 
flooding and less summer streamflow. Southwestern states are bracing 
for lower summer flows due to reduced groundwater recharge and for 
increased flash flooding. Midwestern states may expect more severe 
droughts and possible steep declines in summer streamflow. The Great 
Lakes are likely to recede due to reduced tributary streamflow. 
Northeastern states may contend with large reductions in streamflow and 
changes in the magnitude and timing of spring floods. Southeastern and 
Mid-Atlantic states may have lower base flows, larger peak flows and 
longer droughts. Every region anticipates higher water temperatures, 
which weaken the ability of freshwater plants and animals to tolerate 
the other changes in water conditions.\3\ And every region is faced 
with uncertainty regarding the magnitude and timing of climate change 
impacts.
---------------------------------------------------------------------------
    \2\ Arctic Climate Impact Assessment, Impacts of a Warming Arctic, 
2004.
    \3\ http://www.isse.ucar.edu/water_climate/html_map.html (Specific 
sources for each prediction are fully cited here.)
---------------------------------------------------------------------------
    Climate change impacts to streamflow will severely impair our 
ability to meet human water needs. Already, competition for limited 
water resources between irrigators, municipalities, industrial users 
and hydropower generators has ignited untold conflict in this country. 
Even water-rich eastern states are mired in ``water wars'' that we 
usually associate with the waterstrapped western region. Georgia, 
Alabama and Florida, for example, have involved no less than twelve 
federal agencies in attempting to resolve long-standing disputes over 
water allocation in the Apalachicola-Chattahoochee-Flint and Alabama-
Coosa-Tallapoosa river basins. Climate-change induced reductions in 
water supplies during critical seasons will only exacerbate the 
competition for water nationwide.
    It is critical that providing for these competing demands in the 
face of climate change does not come at the expense of our natural 
aquatic systems. The key to providing for all demands efficiently is 
flexibility to adapt in the face of uncertainty. Healthy natural 
ecosystems and watersupply systems that are flexible to respond to both 
short-and long-term changes in streamflow patterns have built-in 
resiliency to floods, droughts and rising temperatures. And resiliency 
secures water supplies both for direct human demands and for the 
healthy aquatic ecosystems that support them.
    Recommendation: To ensure that the appropriate balance between 
        healthy natural ecosystems and water supply is achieved, 
        language should be added to the SECURE Water Act to clarify 
        that adaptation strategies developed under The Climate Change 
        Adaptation Program in Section 4 and the Water Management 
        Improvement grants in Section 5 must seek to balance water 
        supply and ecosystem needs while preventing further degradation 
        of aquatic ecosystems.
Adaptation Strategies
    Any adaptation strategies implemented at the federal, state or 
local level must balance human and ecosystem needs for water. Below we 
offer a number of management approaches that achieve this balance and 
increase our ability to provide for both humans and ecosystems in the 
wake of the impacts to streamflow described above.
                Comprehensive Water Resource Management
    Changes in climate and water availability will present new and 
complex challenges for water managers. Fortunately, proven approaches 
for comprehensively managing water resources for humans and nature 
already exist. But in the vast majority of the country, water managers 
still lack the basic knowledge of when and where water is physically 
and legally available in the basins they manage. Despite the 
availability of sophisticated water accounting tools and methods, very 
few are actually applied to real-world regional water management in the 
United States.
    Texas leads the nation with its Water Availability Modeling (WAM) 
system. WAM, which was implemented in 1997 by the Texas Commission on 
Environmental Quality in collaboration with water users and managers, 
computes water availability and reliability at 13,000 stream sites 
within 20 watersheds covering 685,000 square kilometers. By 
systematically accounting for the cumulative effects of all natural and 
engineered controls on streamflow, including diversions, return flows 
and reservoir storage, WAM enables competing demands on each stream 
segment to be managed efficiently, taking into account both upstream 
and downstream flow requirements. Through WAM, the state incorporates 
environmental flow requirements into each new water permit, thus 
integrating ecological resiliency into statewide water management. 
Although the 5 state does not currently consider climate change in its 
permitting decisions, WAM is a flexible tool with the proven capability 
of modeling the impacts of climate change on water availability.\4\
---------------------------------------------------------------------------
    \4\ Wurbs, Ralph A., Ranjan S. Muttiah, and Fabrice Felden. 2005. 
Incorporation of climate change in water availability modeling. Journal 
of Hydrologic Engineering 10 (5):375-385; Wurbs RA. 2005. Texas water 
availability modeling system. Journal of Water Resources Planning and 
Management 131(4):270-279.
---------------------------------------------------------------------------
    The ability to manage water comprehensively over entire basins is 
fundamental to ensuring flexibility in the overall system and is 
particularly important in the wake of a changing climate. A key 
component of comprehensive management is increasing our understanding 
of water availability, which the SECURE Water Act will help to do by 
providing support for USGS' national streamflow information program, 
establishing new monitoring programs, and providing incentives to 
integrate and standardize water availability data. In addition to 
gathering the necessary data, it is important that all areas of the 
country adopt and implement comprehensive approaches to water 
accounting and management. Therefore, we would support more explicit 
incentives in this legislation to ensure adoption of comprehensive 
management approaches by states and localities.
    Recommendation: The SECURE Water Act should provide incentives for 
        implementation of comprehensive water accounting and management 
        approaches by explicitly including comprehensive water 
        assessments and management, which includes environmental flows, 
        as a component of the climate change adaptation strategies 
        under Section 4 and water management improvement grants 
        authorized in Section 5.
                           Demand Management
    Equally critical to adaptive, resilient water resource systems is 
to have water-demand management plans in place for times of drought. 
Even in water-scarce western states, innovative drought management has 
successfully averted ecological disaster without threatening senior 
water rights. The Big Hole basin in Montana is one such stirring 
example. After nearly a decade of chronic water shortages and ensuing 
conflicts, state and federal agencies, working together with local 
stakeholders, have implemented rules for voluntary cutbacks in 
irrigation diversions and sport fishing, triggered by measured drops in 
streamflow. Meanwhile, applied hydrologic research has targeted 
irrigation efficiency measures to specific stream reaches where they 
most benefit the rest of the basin. Finally, The Nature Conservancy and 
others are working to improve degraded stream habitat to enable water 
to move more freely downstream, helping to maintain cool temperatures 
and good water quality in the otherwise drought-stressed river.
    Thus, after years of distrust and debate among ranchers and 
agencies over irrigation water use, compounded by the threat of federal 
listing of the imperiled Arctic Grayling fish as an endangered species, 
and water rights laws that discourage water conservation, the tables 
are starting to turn. Working together, the people in the Big Hole 
basin have shown that strategically reducing consumption during periods 
of drought and restoring stream habitat increases the resiliency of the 
river and of both the human livelihoods and native species that depend 
on it. As changes in climate increase the likelihood of drought 
conditions in parts of the country, states and localities should 
develop similar demand management plans that enable water users to 
reduce consumption during periods of drought. Federal funding and 
policy should support these efforts.
    Recommendation: The SECURE Water Act should provide incentives for 
        development of demand management plans that protect both human 
        water supplies and ecosystem health by explicitly including 
        demand management plans that incorporate environmental flow 
        needs during droughts as a component of the climate change 
        adaptation strategies under Section 4 and the water management 
        improvement grants authorized in Section 5.
    In addition to planning ahead for management during times of 
drought, it is important that we begin now to reduce our demand on 
increasingly scarce water resources by implementing proactive water 
conservation and efficiency practices. We appreciate the focus on water 
conservation and efficiency in both the development of adaptation 
strategies and water management improvement grants authorized in this 
legislation. However, it is often difficult to see a measurable impact 
from water conservation practices unless they are coordinated on a 
regional or watershed basis and measured to demonstrate the benefit to 
the resource. Such an approach should be incorporated into any funding 
distributed under this legislation for the purpose of reducing 
consumption or increasing efficiency.
    Recommendation: Demand reduction and water efficiency practices 
        funded through the SECURE Water Act should be delivered on a 
        regional or watershed basis and involve measurement of the 
        practices' impact in the delivery area.
                       Sustainable Water Storage
    Historically, society's response to floods and droughts has been to 
impound surface water in reservoirs and to release it as needed. 
However, a dearth of geologically suitable locations for new dams, a 
decrease in the reliability of water available to fill dams, and an 
increased awareness of their ecological consequences will hinder this 
response to future hydrologic extremes, even as their frequency and 
intensity increase. In many areas, an integrated solution can be 
achieved by managing ground water and surface water together. The 
legislation's creation of a National Groundwater Resources Monitoring 
program will provide key data useful for implementing conjunctive 
management of ground and surface water.
    By naturally or artificially recharging excess runoff, depleted 
aquifers can be transformed into underground ``reservoirs'' to 
supplement the flood-and drought-buffering capacity of existing 
surface-water reservoirs. Existing infrastructure such as irrigation 
systems can be used to distribute water and recharge aquifers. In 
addition, wetland ecosystems play a very important role in naturally 
storing water. By slowing the flow of water, wetlands facilitate the 
percolation of water into aquifers that can later be used for water 
supply during dry periods. In light of the environmental consequences 
and costs of new dams and reservoirs, it is important that this 
legislation provide incentives for natural and non-structural 
approaches to water storage, such as artificial aquifer recharge and 
wetland restoration.
    Recommendation: The SECURE Water Act should incorporate incentives 
        for natural water storage such as conjunctive ground and 
        surface water management, artificial aquifer recharge, and 
        wetland restoration, while minimizing any focus on building new 
        water storage infrastructure.
    Another way to increase water storage without building new 
reservoirs is to increase the capacity of existing dams and manage the 
stored water in environmentally sensitive ways. One of the most 
promising ways to improve our use of existing reservoir storage is to 
reduce our reliance on dams to provide flood control. Presently, a 
tremendous volume of potential storage space is left empty behind dams 
because that space is reserved to capture incoming floods and protect 
downstream structures and roads. If those downstream structures could 
be moved out of harm's way, and if natural floodplain areas could be 
restored for the purpose of storing floodwaters, the immense volume of 
usually-empty flood storage in our nation's reservoirs presently being 
reserved for flood control can be converted into storing water to 
supply cities and farms, generating hydro-electric power, and releasing 
improved environmental flows into downstream ecosystems. Moreover, 
floods that are allowed to return to their natural floodplains recharge 
underlying aquifers, which slowly release groundwater back to the river 
as cool, steady baseflows. Additionally, restoring natural floodplain 
areas will greatly benefit many plants and animals that have become 
endangered due to excessive floodplain development.
    Through our work on the Yangtze River in China, we have developed a 
proposal--now under serious consideration by the central Chinese 
government--that calls for large-scale restoration of the Yangtze 
valley's floodplain and illustrates the potential benefits of using 
floodplains instead of dams for flood management. This proposal would 
enable the flood control volume planned for the new reservoirs on the 
Yangtze to be reduced substantially and would instead use the available 
reservoir volume to produce much more hydropower from the Yangtze dams. 
In fact, we estimate that as much as $1 billion per year of additional 
revenue could be generated from increased electricity production on the 
Yangtze River, which in turn would be used to fund floodplain 
restoration and other non-structural forms of flood management. It will 
also enable the Chinese to produce badly-needed electricity in a 
relatively clean manner that does not exacerbate climate change.
    We must integrate the role of healthy and functioning floodplains 
and wetlands into our flood management and not rely solely on dams and 
reservoirs to meet these needs, particularly as climate change makes 
the other purposes of these reservoirs even more important. A national 
assessment should be conducted to identify locations at which the 
operating purposes of flood control dams can be modified by shifting 
flood management to floodplains by removing or relocating roads and 
structures or by removing or setting back levees that constrain 
floodplain areas. Further, incentives are needed to both protect and 
restore wetlands and floodplains, as these valuable areas continue to 
be lost to urban development or agricultural expansion. By thinking 
about flood management and water storage in a more comprehensive manner 
and focusing funding, which may include revenues generated by 
additional hydropower production or water supply, toward floodplain 
restoration and flood mitigation below existing dams, aquatic 
ecosystems, energy customers and water users benefit.
    Recommendation: The SECURE Water Act should provide incentives for 
        restoring the natural flood storage capacities of floodplains 
        and wetlands and encourage dam owners and operators to assess 
        the potential for converting the available flood storage volume 
        in the nation's reservoirs into storage for water supply, power 
        generation, and environmental flow releases. To ensure the 
        ability of natural systems to provide flood reduction benefits, 
        the incentives in this legislation must be coupled with 
        additional strong disincentives for new development in 
        floodplains and wetland areas.
        Modifying Dam Operations to Improve Environmental Flows
    While the construction and operation of dams and reservoirs has 
benefited the nation greatly by providing water supply, flood control, 
and electricity production, dams have also had serious impacts on the 
health of river ecosystems and are a leading cause of aquatic species 
endangerment, including many fish species that are of considerable 
economic value. The hydroelectric power assessment called for in 
Section 6 of the SECURE Water Act and the adaptation strategies to be 
developed under Section 4 present an excellent means for identifying 
ways to modify dam operations to improve downstream environmental flows 
that will benefit ecosystems made increasingly vulnerable by climate 
change.
    The Army Corps of Engineers and Bureau of Reclamation have a 
critical role to play in maintaining adequate environmental flows. The 
operating procedures for the hundreds of dams that the Corps and Bureau 
own and operate seek to optimize inexpensive water, power and flood 
control, but have largely ignored environmental flow needs downstream 
of these facilities. The Sustainable Rivers Project, an innovative 
partnership between the Corps of Engineers and The Nature Conservancy, 
has already demonstrated at several sites that modest adjustments to 
existing dam operations can yield substantial improvements in ecosystem 
health by improving environmental flow releases from the dams, while 
only minimally affecting other dam functions and keeping operational 
changes within the project's authorized purposes.\5\ Updating operating 
instructions by specifically incorporating flow releases that benefit 
the river ecosystem at the nearly two thousand dams under federal 
control could do a great deal to improve river health and increase 
resiliency to climate change. Following the example set working with 
the Corps on the Sustainable Rivers Project, we would support including 
an evaluation of environmental flow needs in the assessment of 
hydroelectric power dams required in Section 6 of the legislation.
---------------------------------------------------------------------------
    \5\ Postel S, Richter B. 2003. Rivers for Life: Managing Water for 
People and Nature. Washington, D.C.: Island Press, p. 92-102.
---------------------------------------------------------------------------
    Recommendation: The SECURE Water Act should include evaluation of 
        environmental flow needs in response to climate change as a 
        component of the hydroelectric power assessment to be conducted 
        by the Secretary of Energy under Section 6 of the Act and the 
        development of adaptation strategies under Section 4.
                         ii. water temperature
Climate Change Impacts
    In addition to the effects discussed above, climate change will 
also cause a rise in water temperatures. Water temperature plays a 
crucial role in the health of river and stream ecosystems. The 
distribution of aquatic species and their growth and reproduction rates 
are determined, in large part, by water temperature. Stream 
temperatures are projected to rise 0.9 C for each 1 C rise in air 
temperature.\6\ In some places, water temperatures have already reached 
the lethal limits for some fish species. A recent analysis projects 
that thermally suitable habitat for 57 species of cool-and cold-water 
fish will decline by 50 percent in U.S. rivers if air temperatures rise 
by 4 C.\7\
---------------------------------------------------------------------------
    \6\ Schindler, D.W. 1997. Widespread effects of climate warming on 
freshwater ecosystems in North America. Hydrol Proc.
    \7\ Poff, N. L., M. Brinson, and J. B. Day. 2002. Freshwater and 
coastal ecosystems and global climate change: a review of projected 
impacts for the United States. Pew Center on Global Climate Change, 
Arlington, VA.
---------------------------------------------------------------------------
Adaptation Strategies
    As water temperatures rise, the survival of many aquatic species 
may depend on stream connectivity and their ability to migrate upstream 
or in a northerly direction to cooler waters. Access to suitable 
migration corridors is necessary for this movement to succeed.\8\ 
Across the nation, state agencies and private conservation groups are 
seeking to improve stream connectivity by actively removing old, unused 
dams that block fish migration. Allowing these fish to migrate to 
higher elevations and latitudes as temperatures increase may be the key 
to their surviving climate change. Similarly, road culverts that pose 
impediments to fish movements are being replaced with fish-friendly 
structures.
---------------------------------------------------------------------------
    \8\ Poff, N. L., M. Brinson, and J. B. Day. 2002. Freshwater and 
coastal ecosystems and global climate change: a review of projected 
impacts for the United States. Pew Center on Global Climate Change, 
Arlington, VA.
---------------------------------------------------------------------------
    Recommendation: Water Management Improvement grants under Section 5 
        of the SECURE Water Act should include funding for activities 
        to improve stream connectivity, which will enable the removal 
        of unnecessary dams, replacement of inadequate road culverts 
        with fish-friendly structures, and incorporation of improved 
        drainage structures into new construction.
                           iii. water quality
Change Impacts Climate
    Climate change will adversely affect water quality in some regions 
of the U.S. by altering water temperature, dissolved oxygen levels, 
salinity, and assimilative capacity for point and non-point source 
pollutants. There is an inverse relationship between water temperature 
and dissolved oxygen levels, which plays a critical role in the health 
of aquatic ecosystems. As water temperatures rise, dissolved oxygen 
levels will decrease. Pollution, in addition to temperature, also 
influences dissolved oxygen levels; when increased organic matter flows 
into water systems dissolved oxygen levels decrease as bacteria and 
other organisms consume oxygen while working to break down the organic 
matter.\9\ So, ecosystems currently under stress from pollution levels 
will see increased stress as water temperatures rise from climate 
change.
---------------------------------------------------------------------------
    \9\ National Estuarine Research Reserve System, NOAA, 
www.nerrs.noaa.gov/Monitoring/WaterOxygen.html
---------------------------------------------------------------------------
    As discussed earlier, some regions in the U.S. will see decreased 
streamflow due to changes in precipitation patterns caused by climate 
change. In some areas, decreased streamflow can lead to increased water 
salinity. One such example is Southern New Mexico. There the Rio Grande 
picks up water on its journey south from upwellings of salt 
concentrated spring waters. With less streamflow and runoff to dilute 
the water, the river will become more saline causing problems for water 
users in the area such as farmers who use the water for irrigation.\10\
---------------------------------------------------------------------------
    \10\ Hurd, B., Coonrod, J., Climate Change and Its Implications for 
New Mexico's Water Resources and Economic Opportunities, July 2007.
---------------------------------------------------------------------------
    Finally, with reduced streamflow, the assimilative capacity for 
point and non-point source pollutants is lowered. Using again the 
example of the Rio Grande watershed in New Mexico, Brian Hurd of New 
Mexico State University and Julie Coonrod of the University of New 
Mexico point out that with less water, in non-attainment reaches of the 
Rio Grande, lower total maximum daily loads (TMDLs) might be expected 
and this could raise control costs. Additionally, new reaches of the 
river may fall out of attainment causing higher pollution control 
costs.\11\
---------------------------------------------------------------------------
    \11\ ibid
---------------------------------------------------------------------------
Adaptation Strategies
    Climate change will exacerbate existing water quality impairments. 
To respond it is important that we both continue and give renewed focus 
to current efforts to address these water quality issues. Further, many 
of the strategies described above to better manage water in the wake of 
climate change will help to mitigate the expected impacts to water 
quality.
                 iv. climate change adaptation research
    All of the straegies outlined above will prove useful as water 
managers respond to climate change. However, we must continue to 
conduct research to better understand the climate impacts and necessary 
responses in specific places. Scientists at the Conservancy are 
actively monitoring climate change impacts around the world to better 
understand climate change and how wildlife and ecosystems may adapt. 
With a growing understanding of present and future scenarios, we will 
be better equipped to help water managers and the ecosystems affected 
by our management cope with warming, changes in precipitation and other 
impacts of climate change.
    Over the course of the past 12 months, The Nature Conservancy in 
New Mexico has initiated a state-wide climate change vulnerability 
assessment and adaptive management program which we hope will serve as 
a blueprint for other states and regions. The primary goals of this 
program is to provide specific science-based information on the current 
and projected impacts of climate change on wildlife habitats, and to 
work with key land managers and conservation practitioners to 
collaboratively design and implement adaptive management strategies and 
actions.
    The project currently includes three core components: (1) analysis 
of recent changes in climate, hydrology, and ecology and how these 
relate to priority conservation areas and target species (as identified 
in TNC's ecoregional analyses and the New Mexico Comprehensive Wildlife 
Conservation Strategy), (2) assessment of potential changes in the 
target species and ecosystem distribution under a suite of future 
climate change scenarios and projection of implications for the 
priority conservation areas, and (3) identification of adaptation 
strategies that managers can use to promote ecological resilience that 
will ultimately facilitate the conservation of biodiversity and 
associated ecosystem services.
    Climate change will alter landscapes, rivers, streams and seascapes 
as we know them. It is important that we build our adaptation 
strategies on sound science and seek to ensure that approaches to 
address the consequences of a changing water supply balance the need to 
protect our aquatic ecosystems. Projects such as the Conservancy's 
climate adaptation program in New Mexico will help us analyze the 
impacts of climate change on plants, animals and natural communities 
and will help to create innovative conservation solutions that will 
enable humans and natural areas to cope with and adapt to what may be 
the unavoidable effects of climate change. Therefore, we recommend that 
the SECURE Water Act take a similar approach by using scientific input 
on climate adaptation in the development of the adaptation strategies 
and linking the implementation of adaptation activities to the science-
based strategies being developed by the Department of Interior.
    Recommendation: The development of adaptation strategies in Section 
        4 of the SECURE Water Act should be based on scientific input 
        regarding climate change impact to water supply and aquatic 
        ecosystems. In addition, the Water Management Improvement 
        grants in Section 5 should be linked to the science-based 
        adaptation strategies developed in Section 4.
                             v. conclusion
    The impacts of climate change on freshwater systems will be 
profound. Water flows in rivers will be altered, incidents of flooding 
and droughts will increase, water temperature will rise, and water 
quality will be degraded. Failing to protect freshwater ecosystems from 
these changes will have tangible societal, cultural and economic 
consequences, putting great pressure on our water managers. Our 
response to climate change must recognize the role that healthy 
ecosystems can play in mitigating these impacts to both humans and 
natural communities. It is important that all of our policy and on-the-
ground adaptation approaches recognize the need to maintain healthy and 
resilient ecosystems that preserve the ability to adapt in the face of 
climate change and continue to meet the needs of both humans and 
wildlife.
    In order to enable aquatic ecosystems to provide for human and 
wildlife needs in the face of a changing climate we must:

  <bullet> Design water-supply systems that are flexible to both short-
        and long-term changes in streamflow patterns including 
        increased floods, droughts and rising temperatures. 
        Specifically, states and localities should develop demand-
        management plans that enable water users to reduce consumption 
        during periods of drought. Federal funding and policies should 
        support these efforts.
  <bullet> Adopt comprehensive basin-wide approaches to water 
        accounting and management to preserve the flexibility of the 
        water system to adapt to change--all water management plans 
        should give due consideration to environmental flows needed to 
        sustain healthy freshwater ecosystems. This includes 
        acquisition and coordination of data on water availability that 
        will be necessary to inform comprehensive management.
  <bullet> Manage existing water infrastructure in a manner that both 
        meets human needs for water and sustains healthy freshwater 
        ecosystems. This includes providing appropriate environmental 
        flow releases from dams.
  <bullet> Restore floodplains and wetlands that can provide needed 
        flood storage and help to recharge aquifers, while freeing up 
        valuable storage space previously allocated to flood control. 
        The reservoir volume made available by non-structural flood 
        management downstream of dams can be used for improved water 
        supply, electricity production, and environmental flow 
        releases.
  <bullet> Remove barriers that constrain the ability of fish and other 
        aquatic organisms to move to cooler waters as the climate 
        warms. Unnecessary dams and road culverts that block aquatic 
        organisms from migrating should be removed or replaced.
  <bullet> Invest in applied research on the impacts of climate change 
        on specific ecosystems and link adaptation strategies to this 
        research.

    We believe the SECURE Water Act is an important first step in 
addressing many of the impacts climate change will have on our water 
resources. We look forward to working with the committee to incorporate 
the principles above into this legislation.
    Thank you again for this opportunity to testify and to comment on 
this important legislation.

    The Chairman. Thank you very much.
    Dr. Wunsch, you're our final witness, go right ahead.

    STATEMENT OF DAVID R. WUNSCH, PH.D., P.G., REPRESENTING 
         NATIONAL GROUNDWATER ASSOCIATION, CONCORD, NH

    Mr. Wunsch. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today in support of Senate bill 2156, 
the SECURE Water Act.
    My name is Dr. David Wunsch, and I'm representing the 
National Groundwater Association, which is an association of 
over 14,000 members that include drilling contractors, 
manufacturers, scientists, and engineers, many of whom are 
national leaders in the groundwater industry. On behalf of the 
Association, I would like to applaud the committee's leadership 
in the legislative initiative directed toward improving the 
Nation's ability to manage and assess its water resources. This 
action is overdue.
    Developing scientifically based strategies for developing 
sustainable groundwater resources is a key component in our 
ability to address the growing demands of an increasing 
population and the uncertainties of global climate change.
    The Association concurs with the bill's statement, ``States 
bear the primary responsibility and authority for managing 
water resources of the United States,'' but we also agree that 
the Federal Government should play a support role to the 
States, as well as regional, local, and tribal governments.
    One overriding theme that we would like to express is that 
groundwater and quantity are inextricably linked when 
discussing water availability, because water must be of 
sufficient quality for designated or intended uses. Thus, all 
programs promoted in this bill should recognize that fact. 
National Groundwater supports the development of a climate 
adaptation program which can help resource managers respond to 
changes in the distribution of water resources.
    While the bill requires an assessment of specific risks to 
the Nation's water supply, there's no mention of assessing 
changes in groundwater recharge or discharge, which we feel are 
equally important. For example, land-use changes that create 
impervious cover, such as parking lots, can critically alter 
the amount of recharge to aquifers, and adequate recharge is 
critical for maintaining sustainable groundwater supplies. The 
Association also strongly supports the inclusion of conjunctive 
use of groundwater and surface water, and also recommends 
examining groundwater storage and recovery as ways to integrate 
and enhance water availability.
    Relative to the groundwater management section of the 
legislation, we would like to emphasize that groundwater will 
play an expanding and crucial role in the Nation's water 
resource portfolio, and we will need to improve management, 
planning, and policy tools to provide citizens with safe, 
reliable water supplies.
    In terms of increasing available, NGWA recommends adding 
language under the section to include treating brackish or 
impaired groundwaters, which would expand limits on what is 
currently viewed as available. The Association supports the 
creation of a Climate Change and Water Intergovernmental Panel, 
but we suggest including the U.S. EPA, U.S. Fish and Wildlife 
Service, Bureau of Land Management, and the U.S. Forest 
Service, in addition to the members currently named.
    Senate bill 2156 would establish a Water Data Enhancement 
and Water Use and Availability Assessment Program.
    In regard to both of these proposed programs, the 
Association supported the formation of the Subcommittee on 
Groundwater under the auspices of the Federal Advisory 
Committee on Water Information. With approximately 60 members, 
this diverse body is working collaboratively to develop a 
nationwide framework for monitoring groundwater quality and 
quantity, and the Association recognizes the primary role the 
States play relative to water resources management, and 
therefore, we encourage ongoing dialog regarding the 
Subcommittee on Groundwater to encourage the directives for 
Federal agencies, as outlined in this bill, and to complement 
the efforts of the subcommittee.
    National Groundwater did have some concerns regarding the 
funding mechanisms for these funding programs, particularly 
concerns that some States may not be able to participate 
without Federal support. The Association has long supported 
increased Federal funding for cooperative groundwater quantity 
and quality data collection, and encourages the committee to 
consider the funding model that's provided through the National 
Cooperative Geological Mapping Program, which I know the 
Chairman is very familiar with. In the State map component of 
this program, Federal dollars are provided on a 50/50 matching 
basis for cooperative data collection for mapping, with the 
States directing the data collection to meet the States' needs, 
while simultaneously providing data to the Federal Government 
for an integrated national mapping program. This may be a good 
model for creating a national monitoring program, as well.
    We are concerned, however, that State funding shortfalls 
would keep many States from participating, and we suggest 
Federal Government provide a maximum of 100 percent of funding, 
or a minimum of 60 percent. Further, on funding questions it is 
not clear as to if grants under the Water Use Availability 
Assessment Program could be used by the States to support their 
groundwater monitoring networks or efforts, which include the 
actual data-gathering, with the idea of submitting and sharing 
this information with the U.S. Geological Survey.
    NGWA is currently completing work on a groundwater 
monitoring survey with other cooperating associations, and 
preliminary results show that several States do not have 
statewide groundwater monitoring programs, or their programs 
may not be sufficient for compiling a national assessment of 
water availability without additional fiscal support.
    In closing, the National Groundwater Association looks 
forward to working with this committee and the entire Senate to 
ensure passage of the SECURE Water Act. As always, our 
Association is available to serve as a resource for scientific 
information, as well as a conduit for further discussions 
related to the Nation's water resource issues.
    [The prepared statement of Mr. Wunsch follows:]
   Prepared Statement of David R. Wunsch, Ph.D., P.G., Representing 
             National Groundwater Association, Concord, NH
    Good afternoon. My name is David Wunsch and I am here to speak on 
behalf of the National Ground Water Association (NGWA). We appreciate 
the opportunity to provide the perspective of its members on the SECURE 
Water Act.
    The National Ground Water Association is a not for profit 
professional society and trade association for the ground water 
industry. Our more than 14,500 members include some of the country's 
leading public and private sector ground water scientists, engineers, 
water well contractors, manufacturers and suppliers of ground water 
related products and services. The Association's vision is to be the 
leading community of ground water professionals that promotes the 
responsible development, use and management of ground water resources.
    I would like to begin my testimony commending the Committee's 
leadership in the introduction and dialogue occurring here today on an 
issue of vital importance for the United States--improving our ability 
to assess and manage our nation's water resources. NGWA has 
continuously encouraged lawmakers to consider the importance of 
assessing, protecting and developing long-term strategies for one of 
our most critical resources--ground water. Developing scientifically 
based strategies for sustainable use of our nation's ground water 
resources is a key component in our ability to address the growing 
demands of an increasing population and to prepare for the potential 
adverse effects of climate change.
    NGWA strongly supports the bill's findings that adequate and safe 
supplies of water are fundamental to sustain the health, economy, 
security and ecology of the United States. We also support the bill's 
goals of developing and implementing systematic data gathering 
programs. Implementing the SECURE Water Act will help ensure data are 
available to effectively manage our water supplies and maintain their 
chemical quality to support population growth, economic growth, 
irrigated agriculture, energy production and sustain ecosystems. NGWA 
also concurs with the bill's statement ``States bear the primary 
responsibility and authority for managing water resources of the United 
States'' but ``the federal government should support the states, as 
well as regional, local and tribal governments . . .''
    One overriding theme that NGWA would like to present to the 
Committee for consideration is to ensure the bill promotes programs 
that recognize water quality and quantity are inextricably linked when 
discussing water availability. Water must be of sufficient quality for 
designated or intended uses. Knowledge of both quality and quantity are 
required for state and local water management and development and 
should be treated with equal importance particularly when this bill 
promotes building communication channels among various agencies and 
organizations. Promoting collaborations on quality and quantity would 
also ensure that data collection efforts could serve to develop water 
management strategies that not only work to protect our nation's water 
resources, but also provide information as to what water is available, 
and for what use.
                       climate adaptation program
    NGWA supports the bill's inclusion of establishing a climate change 
adaptation program. Climate change has the potential to cause 
significant impacts on the distribution of the nation's water 
resources, and subsequent water demand. Changes in local and regional 
temperature and precipitation patterns in the nation have been observed 
and well documented over the past century.\1\ \2\ Further climate 
change related modifications of temperature and precipitation patterns 
are expected to occur over the next century creating greater 
uncertainty in water supply reliability. In addition, changes in sea 
level in response to the changing climate may have profound impacts on 
state and national ecologic and water resource systems.
---------------------------------------------------------------------------
    \1\ Preparing for a Changing Climate, the Potential Consequences of 
Climate Variability and Change, a Report of the California Regional 
Assessment Group for the US Global Change Research Program, June 2002.
    \2\ Progress on Incorporating Climate Change into Management of 
California's Water Resources, Technical Memorandum Report, California 
Department of Water Resources, July 2006.
---------------------------------------------------------------------------
    The bill requires an assessment of specific risks to the nation's 
water supply including changes in snow pack, timing of runoff, 
reservoir evaporation rates, and any increase in the demand for water. 
However, there is no mention of assessing changes in ground water 
recharge and discharge, which are equally important. While other parts 
of the bill recognize ground water-surface water interactions, it is 
not reflected in this section. NGWA recommends adding that the 
assessment of changes in ground water recharge and discharge be 
specifically listed as an important component of an integrated water 
resources management framework for planning.
    Ground water, the nation's subsurface reservoir, will be relied on 
more in the future to help balance larger swings in precipitation and 
temperature, and to increase the water supply reliability in the more 
uncertain times caused by climate fluctuations. NGWA strongly supports 
the bill's inclusion of conjunctive ground water and surface water 
storage as a viable strategy to mitigate water supply changes from 
climate change. There will be more emphasis on conjunctive use, which 
involves the coordinated and planned operation of both surface and 
ground water resources for conservation and optimal use.\3\ However, 
NGWA recommends the Committee also include examining enhanced ground 
water storage and availability as a potential strategy for mitigating 
water supply shortages, in addition to conjunctive ground water and 
surface water storage.
---------------------------------------------------------------------------
    \3\ Groundwater Hydrology, 3rd Edition, David K. Todd and Larry W. 
May, John Wiley & Sons, Inc. New Jersey, 2005.
---------------------------------------------------------------------------
                      water management improvement
    Ground water has and continues to play an expanding and pivotal 
role in national, state and regional water management planning. The 
expanding emphasis on the need and use of ground water resources will 
require improved management, planning and policy tools to provide 
citizens with safe, reliable water supplies. National leadership and 
cooperation with state and local governments are necessary to ensure 
these tools are made available to water professionals to develop 
strategies for long-term sustainable use of our ground water resources.
    NGWA recommends adding language under this section to include 
treating brackish ground water or other impaired waters. Treating 
brackish ground water, utilizing gray water and remediated contaminated 
ground water, as well as, innovative uses of water impaired by either 
natural or manmade substances would expand the water supply from what 
is currently viewed as available.
            climate change and water intragovernmental panel
    NGWA supports the creation of an intragovernmental panel to develop 
a comprehensive understanding of global climate change potential 
impacts on the water resources of the United States. In order to ensure 
the panel maximizes the resources of governmental experts and data 
collections, NGWA recommends including the U.S. EPA, the U.S. Fish and 
Wildlife Service, the Bureau of Land Management and U.S. Forest Service 
to the panel.
       water data enhancement program and water use availability 
                           assessment program
    In recognition of the primary role states play, NGWA supported the 
formation of the Subcommittee on Ground Water (SOGW) under the auspices 
of the Federal Advisory Committee on Water Information, wherein the 
federal, state and private sectors could come together collaboratively 
to develop and encourage implementation of a nationwide framework for 
ground water quality and quantity monitoring. SOGW has grown and is 
continuing to grow. Currently, more than 60 individuals from around the 
country, representing a wide range of organizations as well as 
individual interests, have volunteered their time and energy in 
specific work group assignments. We appreciate the bill's incorporation 
of consultation with ACWI and believe the SOGW can help in achieving 
some of the legislation's aims set out in these sections. We encourage 
on-going dialogue regarding the SOGW to ensure the directives for 
federal agencies as outlined in S. 2156 complement the efforts of the 
SOGW. To that point, NGWA would recommend adding to the objectives for 
the National Groundwater Resources Monitoring Program the following 
``to provide information necessary for the planning, management and 
development of ground water supplies to meet current and future water 
needs and sustain ecosystems as necessary.''
     funding for water data enhancement/water use and availability 
                           assessment program
    NGWA did have some concerns regarding the funding mechanisms for 
the Water Data Enhancement and Water Use and Availability Assessment 
Programs. We have submitted questions for clarification to the 
Committee to determine if it intended that only federal agency 
personnel do the actual ground water monitoring data collection or can 
state agency staff or others do the work and provide the data to the 
federal agency if it proves more cost-efficient or for other reasons 
determined to be more beneficial. NGWA is also concerned states may not 
be able to participate without sufficient federal support.
    NGWA has long supported increased federal funding for cooperative 
ground water quantity and quality data collection. A possible model to 
consider is the National Cooperative Geologic Mapping Program (NCGMP). 
This popular program includes a core federal program, FEDMAP, as well 
as two additional cooperative funding programs. Federal funding 
available to the states is provided to state geological surveys through 
the USGS STATEMAP program, which is the state component of the NCGMP. 
The STATEMAP program utilizes state staff knowledgeable in the local 
geology to maintain the data upon which much of the mapping is based. 
The states, not the federal government, also select the areas of the 
state that are in most need of mapping data. The program provides a 
comprehensive understanding of the geology at/near land surface, in 
which ground water is commonly a major consideration. However, 
limitations of the program are that it requires a 1:1 matching of state 
funds, which can prove to be a burden in some states. Thus we would 
encourage the Committee to allow states to have personnel actively 
involved and provide a funding stream that will not prohibit states 
unable to provide cost-share from being involved (i.e. the federal 
government may at a maximum provide 100% of the funding and at a 
minimum provide 60%).
    NGWA also requested clarification as to whether grant funds under 
the Water Use Availability Assessment Program could be used by the 
states to support their state ground water monitoring networks--the 
actual data gathering--with the idea of submitting the information to 
USGS. NGWA is currently completing work on a ground water monitoring 
survey with other cooperating associations. Preliminary results show 
several states do not have a statewide ground water monitoring level 
program and for other states, their programs may not currently be 
sufficient for the purposes of pulling and compiling a national 
assessment of water availability without increased fiscal support.
                           concluding remarks
    NGWA again would like to express its appreciation of the Committee 
for the introduction and discussion of the SECURE Water Act. We commend 
your leadership for recognizing and addressing data, tools and 
communication channels that need to be supported and implemented in 
order for the United States to develop long-term water management 
strategies. The need for sound water policies and management is 
especially vital with current drought conditions and growing 
population. We look forward to working with this Committee and the 
entire Senate to ensure passage of the SECURE Water Act. The NGWA is, 
as always, available to this Committee to act as a resource for 
scientific data as well as a conduit for further discussions with our 
leading ground water scientists.

    The Chairman. Thank you very much. Thank all of you for 
your excellent testimony. I know the time is late, and some of 
you have planes to catch.
    Let me ask one question that may show my ignorance. To what 
extent are we actually seeing groundwater storage of water--
purposeful groundwater storage, or recharge of groundwater, in 
the West? Let me ask John D'Antonio, first, if he has a 
perspective on that.
    Mr. D'Antonio. Mr. Chairman, we are looking at aquifer 
storage and recovery in the State of New Mexico. Obviously, 
there are several States that are using it. It's very important 
to gain that extra storage space by using groundwater storage 
opportunities. Again, we get rid of the evaporative loss factor 
if we're able to do that. One of the things, again, that we 
need to know more, is the condition of that aquifer--
essentially, quality and quantity of those aquifers--and to 
determine where their availability is to deposit water in, and 
making sure that the water quality issues are addressed. So, 
we're looking at those issues.
    The Chairman. Is there a good scientific consensus as to 
the extent to which the evaporation problem is reduced by using 
groundwater aquifer storage as distinct from surface reservoir 
storage?
    Mr. D'Antonio. Mr. Chairman, you completely get rid of the 
evaporative loss component if you can store the water 
underground. We use a significant amount of and lose a 
significant amount of water in New Mexico with respect to our 
evaporative losses.
    The Chairman. OK.
    Any of the others have a comment on this issue? Yes, Mr. 
O'Toole.
    Mr. O'Toole. Yes, sir. I think it's--we call it a balanced 
suite of opportunities. In the Green River Basin--I know 
Wyoming did a study in the Upper Green River Basin about 
recharge, and the formations did not allow it. I think it's a 
case-by-case basis. Arizona clearly did it successfully in its 
relationship with California, earlier in the last decade. So, I 
think some places, it's really worked. We, in our valley, used 
wetlands as a water storage----
    The Chairman. As an alternative?
    Mr. O'Toole.--alternative. Right.
    The Chairman. Yes, Mr. Lambeck.
    Mr. Lambeck. At Metropolitan Water District, we have a 
number of agreements, both within California and outside of 
California, to store groundwater. Matter of fact, we've spent 
over $400 million through 2006 to develop these efforts, and we 
have several hundreds of thousands of acre feet stored in 
aquifers----
    The Chairman. This is water that's been reinjected into the 
aquifers, or is it just water that has been there naturally?
    Mr. O'Toole. No, this is new water----
    The Chairman. OK.
    Mr. O'Toole.--going into the aquifers.
    The Chairman. Very good.
    Yes, Mr. Wunsch--Dr. Wunsch.
    Mr. Wunsch. My home State of New Hampshire, believe it or 
not, a State that would probably not be normally equated with 
having a dry, arid climate, does, indeed, have localized water 
problems in such that we have a artificial recharge plan being 
implemented right now by areas of our State for that same 
reason, to inject recharge----
    The Chairman. OK.
    Mr. Wunsch [continuing]. During the high times of flow, 
after snowmelt in the springtime, to capitalize on that water.
    The Chairman. Very good.
    Again, thank you all for your testimony. Mike Connor, of 
course, has been the key person working on this legislation. I 
hope you'll continue to give us feedback on it as we try to 
finalize this and move ahead with it.
    But, why don't we stop the hearing, at this point, so 
everybody can get on to whatever they have to do.
    Thank you.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Response of David R. Wunsch to Questions From Senator Bingaman
    Question 1a. Your testimony advocates evaluating ``enhanced ground 
water storage and availability as a potential strategy for mitigating 
water supply shortages.'' How widespread is the use of ground water 
storage in the United States right now?
    Answer. In the face of the concern about the depletion of ground 
water reserves and the potential reduction in surface water flows that 
result, ground water storage projects are being implemented throughout 
the United States. These ground water storage projects may employ wells 
to pump water underground for storage and later recovery. Ground water 
supplies are also recharged through the use of spreading basins and 
other recycling and reuse programs (see Figure 1).* \1\ These 
augmentation strategies are generally employed to prevent saltwater 
intrusion and land subsidence, maintain base flow in streams, and store 
excess water to sustain drinking water or other water supplies during 
periods of peak demand, or to address seasonal and drought cycles.
---------------------------------------------------------------------------
    * Figures 1 and 2 have been retained in committee files.
    \1\ Graphic courtesy of Ralf Topper, Colorado Geological Survey. 
Artificial Recharge of Ground Water in Colorado--A Statewide 
Assessment, p.6.
---------------------------------------------------------------------------
    Currently we are not aware that a comprehensive data-base of 
current and planned ground water storage projects exists nationwide. 
Many of these projects are implemented by state and local 
jurisdictions. In 2004, Topper et al. reported that artificial recharge 
was being ``used in at least 32 states in the U.S., and at least 26 
countries worldwide.''\2\
---------------------------------------------------------------------------
    \2\ Topper, R et al. Artificial Recharge of Ground Water in 
Colorado--A Statewide Assessment. 2004, p. ii.
---------------------------------------------------------------------------
    U.S. EPA in a 1999 study reported that there were 1,185 documented 
aquifer recharge and aquifer storage and recovery wells in the United 
States but that the actual number of aquifer recharge and aquifer 
storage and recovery wells could be ``greater than 1,695 but unlikely 
to be higher than 2,000.''\3\ As of 2005, there were approximately 72 
aquifer storage recovery well fields in the United States, and an 
estimated 100 more in various stages of development (see Figure 2).*\4\ 
The well fields contain one or more aquifer storage and recovery 
wells.\5\
---------------------------------------------------------------------------
    \3\ U.S. EPA. Class V UIC Study Fact Sheet. Aquifer Recharge Wells 
and Aquifer Storage and Recovery Wells. 1999.
    \4\ Pyne, R. David G. Aquifer Storage Recovery--a Guide to Ground 
Water Recharge Through Wells, Second Edition,. ASR Press, Gainesville, 
FL, 2005. p. 13
    \5\ Pyne, R. David G. Where is ASR? Retrieved January 10, 2008 at 
http://wwwasrforum.com/where.html
---------------------------------------------------------------------------
    Suburban communities in the northwest and southwest are developing 
underground storage capacity to meet their growing water demands, 
rather than relying on agreements with larger cities possessing surface 
storage facilities.\7\ Even in the New England states, which are not 
normally thought of as having severe water shortages, aquifer storage 
and recovery programs are being developed and tested. Attachment 1 
provides descriptions of some aquifer recharge projects that were 
discussed at a 2007 NGWA conference or that were provided as examples 
by the NGWA membership.
---------------------------------------------------------------------------
    \7\ Committee on Sustainable Underground Storage of Recoverable 
Water, National Research Council. Prospects for Managed Underground 
Storage of Recoverable Water. Prepublication Copy, 2007. p. 18.
---------------------------------------------------------------------------
    Question 1b. Do you think its use can be significantly expanded?
    Answer. The capacity to store excess water in the subsurface is 
significant. However, ground water systems are complex and development 
of these augmentation strategies need to be based on sound science. 
Ground water storage can be significantly expanded; and as mentioned 
previously, many water providers are moving forward with plans to 
increase water supplies by developing local ground water storage 
programs.
    While there is currently no comprehensive, nationwide assessment of 
ground water storage potential, there is some state specific 
information. In 2004, the Colorado Geological Survey published a 
statewide assessment that included an estimate of storage capacity in 
all of Colorado's major aquifers. They concluded that from a ``regional 
perspective large storage capacities (greater than 100,000 acre feet) 
are available in both unconsolidated alluvial and consolidated bedrock 
aquifers.'' Additionally, they found opportunities for local, smaller 
aquifer storage projects are ``tremendous, and potential source waters 
exist even in over-appropriated surface water drainages.''\8\
---------------------------------------------------------------------------
    \8\ Topper, R. ``Nature's Underground Reservoir: Aquifer Storage 
(abstract)''. 21st Century Ground Water Systems Conference Abstracts. 
National Ground Water Association. October, 2006.
---------------------------------------------------------------------------
    Conservative estimates in California indicate the potential to 
increase average annual water deliveries throughout the state by 
500,000 acre-feet with 9 million acre-feet of ``new'' ground water 
storage. New storage includes both re-operation of existing ground 
water storage and recharging water into de-watered aquifer space. More 
aggressive estimates from screening level studies indicate the 
potential to increase average annual water deliveries by 2 million 
acre-feet with about 20 million acre-feet of new storage.\9\
---------------------------------------------------------------------------
    \9\ California Water Plan Update 2005, California Department of 
Water Resources Bulletin 160-05, December 2005, Volume 2, Chapter 4.
---------------------------------------------------------------------------
    Question 1c. What are some of the obstacles and challenges to 
implementing a ground water storage system?
    Answer. Increasing the availability and capacity of ground water 
use and storage to augment and sustain water supplies and ecosystem 
services is a complex challenge. With limited federal mandates for 
water supply planning, variability in data collection and evaluation 
techniques result on a state-by-state basis. The obstacles to 
widespread implementation of ground water supply augmentation are 
numerous and include a broad range of scientific, economic, legal, and 
institutional issues that will need to be addressed. They include:
                 hydrogeologic system characterization
  <bullet> The subsurface geologic and hydrogeologic systems are 
        complex and as a consequence expensive to adequately 
        characterize.
  <bullet> The density and sufficiency of ground water level and ground 
        water quality monitoring information to properly characterize 
        the ground water storage receiving zone(s) is limited both 
        spatially and temporally.
  <bullet> There is insufficient geologic mapping identifying 
        appropriate geologic, hydrologic, and hydrogeochemical 
        characteristics of aquifer storage.
  <bullet> Currently, the scale and density of data collected to 
        characterize hydrogeologic systems may not be appropriate for 
        evaluation and selection of sites, locally.
  <bullet> The impact of global climate change on ground water 
        reservoirs is only now being investigated.
  <bullet> Surface and ground water interaction, in light of global 
        climate change and land development practices, is not well 
        understood.
             water quality characterization and interaction
  <bullet> Both ground water quality and the hydrogeochemical 
        characteristics of aquifers and potential receiving zones will 
        require additional assessment
  <bullet> The potential interaction of the water injected or otherwise 
        used to augment ground water supplies will need to be carefully 
        studied. The mixing of often chemically and microbiologically 
        different waters may lead to potentially harmful reactions with 
        each other and with materials comprising the aquifer matrix
                         economics and finance
  <bullet> The cost to adequately characterize and evaluate aquifer 
        systems is high
  <bullet> The level of funding for characterization is variable from 
        state to state and may not be adequate to assess risks of 
        ground water recharge.
  <bullet> Funding for basic research on the federal level is 
        fragmented throughout several agencies with appropriately 
        different missions.
  <bullet> The price of water is typically undervalued and obtaining 
        the capital funds for planning and constructing a ground water 
        storage project is a challenge
  <bullet> Capital funds for planning and constructing a ground water 
        storage project must compete with funds and obligations for 
        other more traditional water and wastewater treatment projects
                        legal and institutional
  <bullet> Water laws and ownership rights to the water stored in the 
        subsurface are being debated in the courts.
  <bullet> Allocation of water rights is markedly different in the 
        eastern and western United States, along with the ability to 
        transfer water and water rights.
  <bullet> Subsurface aquifers may cross multiple political 
        subdivisions/boundaries and their management may be subject to 
        multiple jurisdictions.
  <bullet> Institutional control questions may arise where multiple 
        local agencies have responsibility for water and ground water. 
        Cooperative agreements may be required to develop ground water 
        storage projects in a region
  <bullet> Regulatory issues are complex with overlapping federal and 
        state laws and regulations. Water quality regulations are 
        typically based on protection from pollution and not based on 
        sustainability of water supplies or ecosystem services.
  <bullet> Property rights issues for easements and right-of-ways to 
        transfer water to be stored to appropriate injection well 
        locations.

    Question 1c. Can the Secure Water Act help address some of these 
obstacles and challenges?
    Answer. The SECURE Water Act provides an opportunity to address 
some of the obstacles described above. Several programs contained in 
the SECURE Water will improve data collection and monitoring, which 
would benefit the expanded use of ground water storage and enhanced 
water storage recovery systems in the United States. NGWA supports 
providing grants and cooperative agreements to improve ground water 
data collection and management, which could also include the 
integration of these systems. Monitoring our nation's ground water in 
an integrated and comprehensive fashion would augment efforts towards 
monitoring and managing enhanced ground water storage programs, and 
establish suitable sites for their use. For example, it is important to 
monitor ground water to determine which regions of the country would be 
the most likely candidates for developing this management strategy. In 
addition, ground water monitoring is important in determining the 
volume of the aquifer that would be available for enhanced storage, and 
changes that would occur during storage and recovery cycles. From the 
water quality side, it is important to monitor ground water quality 
continuously because even high quality treated water can react with 
geologic materials in the aquifer and change the water chemistry while 
underground. There have been documented cases where elevated 
concentrations of unwanted natural chemicals, such as arsenic, have 
been detected in the recovered water.
    It should be noted that successful aquifer storage and recovery 
programs are critically dependent on sound characterization of the 
geological formations that would host the ground water. This requires 
accurate and advanced geologic studies and mapping of aquifers. This 
task may be accomplished in part by Section 8 which establishes a 
Brackish Groundwater Assessment in the United States. However, NGWA 
would encourage the addition of language to enhance the programmatic 
advancement of detailed aquifer mapping across the nation.
    Also, as noted in our testimony, NGWA is concerned about the 
language in the SECURE Water Act which requires the Secretary to 
prioritize states or local government entities to provide for a 
``substantial'' share of the cost of operating a monitoring well 
network or other measuring devices. NGWA is concerned because regions 
in the country in most need, or those that are most geologically suited 
for hosting enhanced recovery systems, could miss out on opportunities 
because of a lack of state or local resources.
    Question 1e. What are the tradeoffs of ground water storage versus 
surface water storage?
    Answer. Storing surface water underground may seem counterintuitive 
to the public who cannot see the water and its impact on water 
availability. Some recharged water will not be recovered at all, 
although, the same is true of surface water stored in reservoirs. 
Storing water below the ground is slower than surface water storage, 
and you cannot capture storm flows as efficiently as with surface 
reservoirs, and extracting the water from the subsurface reservoir is 
slower being dependent upon the number of wells and pumping rates. 
There needs to be in place sound ground water management practices for 
ground water storage to be a viable option.\10\
---------------------------------------------------------------------------
    \10\ Hanak, Ellen. Water for Growth: California's New Frontier, 
Public Policy Institute of California, San Francisco, California. 2005.
---------------------------------------------------------------------------
    Advantages of ground water storage versus surface water storage 
include:

  <bullet> Ground water storage systems are, by design, more secure and 
        less vulnerable to accidental contamination, acts of sabotage, 
        or terrorism
  <bullet> Little, if any, water is lost through evaporation
  <bullet> Usually, there are fewer and less significant environmental 
        impacts associated with ground water storage projects. Impacts 
        to threatened or endangered species are greatly minimized, if 
        not avoided altogether.
  <bullet> Dams and surface water flows associated with surface storage 
        reservoirs can cause damage to riparian habitat and otherwise 
        impact fish and wildlife.
  <bullet> Ground water storage and recovery well systems allow for the 
        continued use of overlying land and reduce or eliminate the 
        potential for displacements of humans and wildlife. Acreage 
        that would be consumed or covered by water within surface 
        storage reservoirs remains available for other use and provides 
        continuing economic and environmental benefits.
  <bullet> While moderately expensive, it may be the least expensive 
        option\11\
---------------------------------------------------------------------------
    \11\ Committee on Sustainable Underground Storage of Recoverable 
Water, National Research Council. ``Prospects for Managed Underground 
Storage of Recoverable Water''. Prepublication Copy, 2007. p. 215
---------------------------------------------------------------------------
  <bullet> Over time, surface water reservoirs fill up with sediment, 
        reducing overall storage capacity.

    Question 2. What are some of the key water quality parameters that 
need to be measured? Would securing water quality information greatly 
add to the cost of monitoring aquifer water levels?
    (Note: On behalf of NGWA, I am responding to this question as it 
relates to the establishment of a ground water monitoring network. If 
the question relates, instead, to water quality monitoring needed for 
aquifer storage projects, we will be happy to develop and provide a 
response to that question, as well.)
    If very basic parameters, such as pH, temperature, and electrical 
conductivity, are included, testing costs will be relatively 
inexpensive. The electrical conductivity of ground water can be used as 
a proxy for estimating the amount of dissolved solids, or saltiness of 
the water. If the numbers and types of water quality parameters expand, 
costs would as well. Ground water quality data are needed to evaluate 
changes in ground water quality over time and to be able to assess what 
water is available for specific uses or purposes, such as domestic 
consumption, irrigation, livestock watering, or industrial use. Further 
discussion on the need for, and importance of collecting ground water 
quality (in addition to water level) data is contained within NGWA's 
Issue Paper titled ``Ground Water Level and Quality Monitoring''.\12\
---------------------------------------------------------------------------
    \12\ Ground Water Level and Quality Monitoring. National Ground 
Water Association. 2005.
---------------------------------------------------------------------------
    The NGWA and some of its members played an important role in the 
formation of the federal Advisory Committee on Water Information's 
Subcommittee on Ground Water (SOGW) and continue to provide supporting 
roles. As noted in our earlier testimony, the SOGW includes more than 
60 individuals representing a wide range of organizations (federal, 
state and private sector) as well as individual interests. Work groups 
associated with this effort have identified the importance of and need 
for ground water quality testing within a national ground water 
monitoring network. They are analyzing information on existing state 
ground water quality monitoring programs and also have an awareness of 
on-going federal efforts, such as the National Water Quality Assessment 
Program. While yet preliminary, an initial list of ground water quality 
analytes the group recommends as necessary to characterize general 
water quality includes calcium, magnesium, sodium, potassium, dissolved 
solids, chloride, sulfate, nitrate/nitrite, ammonia and orthophosphate. 
To this draft list, I would add alkalinity.
    NGWA would be pleased to keep the Senator and Committee updated as 
the SOGW moves forward with its deliberations as to water quality 
testing parameters.
    Responses of David R. Wunsch to Questions From Senator Domenici
    Question 1. Please describe successful models involving the 
coordinated and planned operation of both surface and ground water 
resources for conservation and optimal use.
    Answer. The following highlight a few examples of the successful 
operation of both surface and ground water resources for conservation 
and optimal use. See Attachment 2 for additional examples.
                                arizona
    Arizona Water Bank: Ground water may be withdrawn from underground 
storage and used during dry periods. This will result in a short-term 
reduction in ground water levels. If this short term reduction is 
balanced in the long term with replenishment, ground water can be used 
much like an above-ground reservoir to store water for use when other 
sources are in short supply. The Arizona Water Bank is an example of 
this strategy. Nevada and California store excess Colorado River water 
underground in Arizona. During drought periods, Nevada and California 
divert surface water flow from the Colorado River while Arizona 
recovers the underground stored water for its uses.
                               california
    Orange County Water District: With a largely agriculture economy, 
including substantial orange groves siphoning more than 200,000 acre-
feet of the ground water out of the Coastal Santa Ana basin annually, 
in the early of the 20th century ground water levels dropped more than 
65 feet. The Orange County Water District (OCWD) was formed in 1933 by 
a special act of the California Legislature, and was empowered to 
protect the water supply and the rights of those who depended upon it, 
which at that time was 60,000 people with 86 percent agricultural water 
use. This type of institution is unique in California, with significant 
powers to manage, regulate, control, purchase, acquire, transport, 
exchange water and ground water within the basin. Over time, dams were 
constructed on the Santa Ana River, which limited the flow into the 
basin, and a growing practice of importation of large quantities of 
water to recharge the basin began to occur. Ground water extraction 
continued to outpace recharge and by the mid 1950's seawater intrusion 
was evidenced more than 3 miles inland. Today's OCWD covers well over 
300 square miles, serves 20 cities and water agencies and a population 
in excess of 2 million. In the forebay area, managed aquifer recharge 
consisting of spreading basins along the Santa Ana River facilities 
receive a combination of treated wastewater, Santa Ana River water, and 
imported water, and these recharge facilities provide the majority of 
recharge to the ground water basin, recharging approximately 250,000 to 
275,000 acre-feet per year. Seawater intrusion is mitigated by pumping 
a blend of recycled water and deep well water into a series of 
injection wells near the coast. The recycled water treatment train 
includes chemical clarification, re-carbonation, multimedia filtration, 
granular activated carbon, reverse osmosis, chlorination and 
blending.\13\
---------------------------------------------------------------------------
    \13\ Fox, Peter, editor. Management of Aquifer Recharge for 
Sustainability, Proceedings of the 6th International Symposium on 
Managed Aquifer Recharge of Ground Water, ISMAR6, Phoenix, Arizona, 
USA, October 28-November 2, 2007. Acacia Publishing Incorporated, 
Phoenix, Arizona.
---------------------------------------------------------------------------
                                florida
    Peace River/Manasota Regional Water Supply Authority: Operating as 
a regional partnership with its members--Charlotte, DeSoto, Manatee and 
Sarasota counties--the Authority works collectively to ensure adequate 
water supplies for an ever-growing population of more than 750,000 
people in the region. The Authority supplies an average of 18 million 
gallons of water to its members. This water, skimmed from the Peace 
River, is treated at the main facility located on the Peace River in 
DeSoto County near Fort Ogden. This facility treats up to 24 million 
gallons per day and has been withdrawing water from the river since 
1980. Treated water is then injected into an aquifer and recovered as 
needed. This ASR process is an ideal method for meeting seasonal water 
demands. This allows the Authority to withdraw water during ``wet'' 
months and then store for use during ``dry'' periods when river levels 
are low. A regional reservoir expansion, slated to be completed by 
2010, will provide an additional 24 million gallons per day of 
treatment capacity. The Peace River, as are other surface water 
supplies, is susceptible to drought conditions. The addition of a 
ground water supply through the Authority itself or its members would 
add a significant degree of reliability to the public supply 
system.\14\
---------------------------------------------------------------------------
    \14\ Personal communication. Jennifer Steadman Ryan, Sarasota 
County Water Resources. 2008.
---------------------------------------------------------------------------
                                 texas
    San Antonio: San Antonio Water System's Twin Oaks Aquifer Storage 
and Recovery Facility (ASR) currently stores about 40,000 acre feet of 
potable water, which equals about 12 billion gallons of water. The 
ASR's technology and science has been successfully proven as an 
economical and environmentally sensitive alternative in helping to meet 
the city's future water needs, especially if faced with environmental 
change issues resulting in reductions in rainfall.
    The ASR withdraws water from the Edwards Aquifer--a karst-based 
limestone aquifer--in wet weather when water is abundant, and stores it 
in the Carrizo sandstone-based aquifer south of the city. Since the 
water tends to stay in place in the sandstone of the Carrizo Aquifer, 
the transferred Edwards water remains in a ``bubble'' near the 
injection site.
    The facility proved itself to the community in 2006 when the region 
experienced extreme drought. San Antonio Water System placed the ASR in 
recovery mode. San Antonio was in drought restrictions during much of 
that year, but retrieval of water from the ASR reduced the city's 
pumping from the Edwards Aquifer while providing much-needed water.
    San Antonio Water System's Aquifer Storage and Recovery facility 
opened in 2004, and has the capacity to pump more than 30 million 
gallons per day. It features 16 wells, a high-service pump station and 
30 miles of large-diameter transmission main to convey water to ground 
storage tanks. While there is currently about 40,000 acre feet of 
storage at the site, San Antonio Water System is expanding the ASR 
system and studying what the maximum potential of the facility may 
be.\15\
---------------------------------------------------------------------------
    \15\ Personal communication. Anne Hayden. San Antonio Water 
Systems. 2008
---------------------------------------------------------------------------
    Question 2. Please describe the role of enhanced ground water 
storage and availability as referenced in your testimony?
    Answer. The role of enhanced ground water storage is but one 
element of a balanced water management portfolio that will be needed to 
sustain our resources into the distant future. Continued investment in 
existing facilities and carefully planned new water developments will 
also be required to provide a strong foundation to meet future demands 
from continued growth. In addition to enhanced ground water storage, we 
must also promote actions such as sound ground water management, ground 
water protection and treatment, water conservation and recycling, and 
support innovative technologies such as desalination of seawater and 
brackish water to meet our future water needs.
    Question 3. Please describe why several states do not have 
statewide ground water monitoring level programs. If it is a financial 
reason, please describe how money is allocated within State water 
resources agencies that do not currently monitor this data.
    Considering all of the federal agencies that provide funding to the 
states for resource management and environmental protection programs, 
there is no unique program that specifically provides funding for 
creating or cost-sharing the development of statewide ground water 
monitoring networks. As a result, there is a significant amount of 
disparity between the states with respect to the number, distribution, 
and quality of wells used for monitoring ground water. For example, 
several states use available domestic water wells as the backbone of a 
monitoring network, or irrigation wells that become hybrid monitoring 
wells. However, these networks can have significant scientific and 
statistical shortcomings because the wells were not planned, designed, 
or installed with scientific collection of ground water information as 
their primary purpose. In these cases there are also usually local 
anthropogenic effects that can interfere with the ground water system 
being monitoring, which does not give an accurate sample of basic or 
ambient ground water conditions. Some states may have created networks 
from orphaned wells installed for a specific water management project, 
or from a specific permitting process.
    For example, in my state of New Hampshire, the wells the state uses 
for monitoring the state's ground water were installed during a 
cooperative State/USGS study of the shallow, surficial aquifer that 
overlies about 13 percent of the state's area. However, these wells are 
biased with respect to the shallow ground water system, leaving the 
state with few wells installed in the important, deeper bedrock aquifer 
that is used throughout the entire state. States have recognized the 
importance of ground water to their overall water management 
strategies, and many states, including New Hampshire, have dedicated 
resources to installing more infrastructure to monitor ground water. 
However, in New Hampshire's case, the network is still inadequate for 
meeting the state's long-term needs. Other states, such as South 
Dakota, have successfully been able to build networks with funding from 
EPA programs. However, funding for programs such as Section 319 that 
provide funds for monitoring for promoting best management practices 
for non-point source pollution from agriculture may not be applicable 
in all states, or in regions within a state, depending on designated 
land uses.
    Vermont has a small program with the U.S. Geological Survey under 
which the USGS monitors the ground water levels in less than 12 wells 
in the state. The program is not a comprehensive statewide ground water 
level monitoring program.
    The state has a very active permitting system. In order to obtain a 
permit, a public community water supply system must demonstrate that 
they have access to a supply of water that would sustain their system 
in the face of a 180-day drought. The hydrogeologic study to prove the 
availability of an adequate water supply is done by the permit 
applicant or its consultants.
    The reason that they do not have a statewide ground water level 
monitoring program is that the state does not have adequate funds for 
existing programs that are viewed as higher priority. State 
implementation of the Safe Drinking Water Act consumes approximately 99 
percent of the available current funding. Additional funding would be 
beneficial for state SDWA oversight and to assist public water systems 
in meeting existing and upcoming regulations.
    If there is targeted funding for a statewide ground water level 
program, implementing such a program may still prove problematic if the 
agency cannot overcome barriers to the hiring of additional state staff 
to oversee the monitoring. Currently, there is a hiring freeze for 
additional state employees. Existing state staff are stretched in 
administering and undertaking current agency priority program duties 
and obligations.\16\
---------------------------------------------------------------------------
    \16\ Personal communication. Rodney Pingree. Vermont Agency of 
Natural Resources, Water Supply Division, Water Resources Section. 2008
---------------------------------------------------------------------------
    Colorado has no statewide ground water level monitoring network. 
The state does have one or more regional (large, multi-county areas) 
ground water level monitoring networks.
    The lack of a statewide network is largely a reflection of the 
state's geology. The Rocky Mountains cut through the mid-state area and 
are underlain by fractured bedrock aquifers. There is no ground water 
monitoring network in this area, given the difficulty in monitoring 
such aquifer settings and the lack of large-scale use of the ground 
water. The Rocky Mountains play a critical part in the water supply for 
Colorado and surrounding states, but in the form of a snow pack 
reservoir which converts gradually over the spring and summer into 
surface water runoff. The major aquifer systems in the state are the 
Denver Basin Aquifer, Ogallala Aquifer and the San Luis Basin. Ground 
water levels in these aquifers are monitored in the Ogallala and Denver 
Basin aquifers by the State of Colorado and the San Luis Valley aquifer 
is monitored by the USGS.
    There are other regional bedrock aquifers in the state for which 
there is little or no monitoring. However, these aquifers tend to lie 
in areas of the state which are sparsely populated. If additional 
targeted money were provided for ground water monitoring, the greater 
need would be to augment the monitoring program in the Denver Basin 
aquifer in those areas which are currently being highly stressed before 
efforts were made to cover areas underlain by fractured bedrock in the 
mid-state area or the other regional bedrock aquifers.\17\
---------------------------------------------------------------------------
    \17\ Personal Communication. Michael Schaubs. Office of State 
Engineer, Division of Water Resources. 2008
---------------------------------------------------------------------------
          Attachment 1.--Examples of Aquifer Storage Projects
      Excerpt from 2007 NGWA Ground Water Summit and Provided by 
                              NGWA Members
  making the connection: joining the rio hondo and san gabriel river 
         spreading grounds for maximum operational flexibility
    The Water Replenishment District of Southern California (WRD or the 
District) manages two of the most utilized ground water basins in 
Southern California, the Central and West Coast Ground water Basins 
(CWCB). The CWCB were adjudicated in the 1960s to limit ground water 
production and to stabilize declining ground water levels. Since that 
time, natural recharge has been supplemented through artificial 
replenishment activities, including injection at coastal seawater 
intrusion barriers and surface spreading at percolation basins 
(``spreading grounds''). WRD spends over $20 million annually to 
purchase imported and recycled water for these artificial replenishment 
activities, owns and operates several replenishment-related facilities, 
and works closely with the owners and operators of other such 
facilities within the District.
    The Los Angeles County Department of Public Works (LACDPW) owns and 
operates the majority of the replenishment facilities throughout Los 
Angeles County. Their Rio Hondo Coastal Basin Spreading Grounds 
(RHCBSG) and San Gabriel Coastal Basin Spreading Grounds (SGCBSG) are 
the primary locations for artificial replenishment in the CWCB. The 
RHCBSG are fed from the Rio Hondo, while the nearby SGCBSG are fed 
primarily from the parallel San Gabriel River. An average of 125,000 AF 
of water (consisting of imported, recycled and local water) is 
conserved between the RHCBSG and SGCBSG each year.
    The RHCBSG and SGCBSG receive imported, recycled and local water 
from the same sources, but are not directly connected to each other. 
This has led to missed opportunities for ground water recharge, when 
one of the spreading grounds is available but the other is not.
    WRD and LACDPW have worked closely together to identify and 
quantify these missed opportunities for ground water recharge, so that 
an appropriate connection may be designed and constructed between the 
RHCBSG and SGCBSG to allow water to be shifted between the two 
spreading grounds as needed, thus improving operational flexibility and 
increasing the total amount of water conserved each year.
    Nancy Matsumoto, P.G., C.HG., Water Replenishment District of 
Southern California Kenneth A. Zimmer, P.E., Los Angeles County 
Department of Public Works
   summary of aquifer storage and recovery performance in the upper 
                   floridan aquifer, southern florida
    Interest and activity in aquifer storage and recovery (ASR) in 
southern Florida has increased greatly during the past 10 to 15 years. 
The storage zone in ASR wells drilled at 29 of the 30 sites in the 
carbonate Floridan aquifer system is contained within the brackish to 
saline Upper Floridan aquifer. The strategy for use of ASR in southern 
Florida is to store excess freshwater that is available during the wet 
season in an aquifer and recover it during the dry season when needed 
to supplement water supplies. Each ASR cycle is defined by three 
periods: recharge, storage, and recovery.
    The primary measure used to evaluate ASR site performance is the 
potable water per-cycle recovery efficiency. This measure, calculated 
for 18 sites, is defined as the percentage of the volume of freshwater 
recharged that is recovered prior to exceeding a recovered water 
chloride concentration of 250 mg/L. Cumulative potable recovery 
efficiencies also were calculated and display substantially less 
variability than per-cycle efficiencies.
    Per-cycle potable water recovery efficiencies vary from 0 to 94 
percent. High potable efficiency on a per cycle basis can be related to 
water banking--an operational approach in which a large volume of water 
is recharged during an initial cycle. This process flushes out the 
aquifer around the well and can build up a temporary buffer zone that 
increases recovery efficiency substantially during subsequent cycles 
conducted with much lower recharge volumes.
    The relative performance for 15 of the 30 sites was determined by 
arbitrarily grouping performance into ``low'' (0-20 percent cumulative 
potable recovery efficiency), ``medium'' (20-40 percent) and ``high'' 
(>40 percent) categories; 3 sites were rated high, 6 were rated medium, 
and 6 were rated low. Although six sites have a high overall recharge 
rate that is associated with water banking, three of these are rated 
low.
    Ronald S. Reese, Hydrologist, U. S. Geological Survey
 colorado pursues managed aquifer recharge as an alternative for water 
                storage at the start of the 21st century
    For Colorado and much of the West the 21st Century began with one 
of the most severe droughts of record. This drought helped raise the 
awareness of the important role that ground water, and perhaps more 
importantly, the aquifers that hold ground water, can have in 
management of water resources in this rapidly growing semi-arid region. 
In 2003 the Colorado Geological Survey (CGS) embarked on a statewide 
assessment of managed aquifer recharge (MAR) that included an inventory 
of existing practices at the time and went on to evaluate the 
geological potential for water storage in aquifers and aquifer systems 
across the entire state. This assessment is a cornerstone for current, 
more detailed investigations into widespread utilization of this water 
storage option.
    Subsequent to, and in part as a result of, this assessment several 
prospects for new managed aquifer recharge projects have arisen. These 
projects include a detailed evaluation of MAR potential in the Arkansas 
and South Platte River basins and a pre-feasibility investigation 
identifying specific recharge sites in the Upper Black Squirrel Creek 
basin of El Paso County. MAR is also being introduced to the water 
community across the state through Colorado's Interbasin Compact 
Committee Roundtable process.
    Although awareness of the potential for MAR throughout the state is 
increasing, many challenges remain. Acceptance by communities that are 
traditionally surface-water dependant will depend on locating the best 
convergences of favorable geology, source water availability, land 
availability, proximity to water demand, proximity to established 
infrastructure, and motivated funding sources.
    Peter Barkmann, CPG, Colorado Geological Survey
pilot study to determine the feasibility of artificial recharge in the 
             san bernardino mountains, southern california
    The Big Bear Valley encompasses an area of approximately 70 square 
miles in the San Bernardino Mountains of southern California. 
Historically, local purveyors have met municipal water demand in this 
weekend recreation area using ground and surface water resources that 
are replenished from precipitation within the watershed. Imported water 
is not available to the area. However, artificial recharge of recycled 
water has been identified as a potential water source to augment the 
existing ground water supply.
    In order to evaluate the feasibility of artificial recharge in the 
Big Bear Valley, a phased investigation program was developed for 
multiple potential sites. The program included field reconnaissance, 
borehole drilling and testing, monitoring well construction, and pilot 
testing. Key criteria for evaluating recharge feasibility included: 
horizontal and vertical extent of low permeability layers, infiltration 
rates of applied recharge water, aquifer characteristics which affect 
the storage and recovery of ground water, changes in the quality of 
recharge water in the vadose and saturated zones, and seepage rates and 
stored water residence time.
    Pilot testing results show that recharge water introduced during 
pilot testing reached the ground water within a few days of 
introduction to the pilot spreading basin. Soil moisture 
instrumentation showed that, in some cases, percolating water reached 
deeper portions of the unsaturated zone first and ponded up into the 
more shallow sediments before saturating the entire soil column beneath 
the basin. A surface infiltration rate of approximately 3 ft per day 
was maintained throughout the test. Analysis of artificial recharge 
scenarios using a calibrated ground water flow model show that the 
recharged water can be stored in the aquifer system for more than 6 
months before extraction, a major regulatory criteria for recycled 
water. In summary, the testing showed that artificial recharge is 
feasible in this mountain area.
    Thomas E. Harder, P.G., CH.G., GEOSCIENCE Support Services Inc.
the effects of artificial recharge on nitrate concentrations in ground 
           water in the unsewered warren subbasin, california
    In 1995, the Hi-Desert Water District (HDWD) implemented an 
artificial ground-water recharge program in the unsewered 19 mi2 Warren 
subbasin in the Mojave Desert. Artificial recharge from imported water 
in spreading ponds in the eastern part of the subbasin increased 
ground-water levels by as much as 250 feet. As water levels rose, 
nitrate concentrations increased from 10 to more than 110 milligrams 
per liter (mg/L), due to the entrainment of septage. In 2006, HDWD 
constructed additional spreading ponds to recharge the western part of 
the subbasin. A ground-water management and monitoring plan was 
developed to maximize recharge and minimize increases in nitrate 
concentrations. Monitoring sites were installed at the recharge pond 
(YVUZ-1) and a nearby residential area with high septic-tank density 
(YVUZ-2). The sites contain heat-dissipation probes, suction-cup 
lysimeters, advanced tensiometers, and piezometers to monitor the 
artificial recharge.
    Prior to artificial recharge, nitrate concentrations in pore-water 
samples collected from the unsaturated zone at YVUZ-1 and YVUZ-2 ranged 
from 10 to 66 mg/L and 10 to 2,100 mg/L, respectively. Data collected 
from YVUZ-2 indicate that septage has not migrated deeper than 130 feet 
below land surface (bls). Monitoring at YVUZ-1 indicates that 
artificial recharge reached the water table at 360 feet bls in 42 days, 
for an average velocity of 8.6 feet per day. A total of 1,685 acre-feet 
of imported water was recharged over five months, resulting in a water-
level rise of less than 10 feet beneath the ponds and less than 5 feet 
beneath the residential area. Nitrate concentrations in samples 
collected from the unsaturated and saturated zones at YVUZ-1 decreased 
to less than 12 mg/L and increased to18 mg/L, respectively, in response 
to the recharge. Continued monitoring will assist water managers in 
making decisions that will help ensure that the water table remains 
lower than septage-related high-nitrate zones.
    Rhett R. Everett, Hydrologist1, Tracy Nishikawa1, Peter Martin1 and 
Lee Pearl, General, Manager2, (1)U.S. Geological Survey, (2)Hi-Desert 
Water District
      diverse applications of the ground water recharge technology
    Concerns from western communities include; the growth is straining 
the water system; the water treatment plant is undersized, but growth 
is not enough to fund additions; undersized transmission lines are 
incapable of moving water to locations of development or for peak day 
delivery; development is increasing runoff and flooding; or the 
wastewater treatment plant is at capacity with concerns of expansion 
and additional effluent discharge.
    With the exodus of families from the overpopulated urban centers to 
our peaceful communities, we are finding strains placed on the 
infrastructure and resources. Communities will quickly find ways to 
maximize the efficiency of the existing treatment and delivery systems, 
though are lacking in the application of efficient source water 
management. Water companies work hardest to make peak day delivery. In 
all reality, this should be the easiest day of the year if the water 
resources are efficiently managed in the fall, winter, and spring 
seasons.
    Placing potable water underground provides an alternative to 
surface tanks or large earthen reservoirs. The water is secure, does 
not require chlorination, and uses only the property required for the 
recharge/recovery wells. Using underground storage, water can be moved 
to location of demand when the pipelines are under low demand or water 
is available, recovering the water for peak delivery at location of 
need. Excess storm run-off water can be polished through simple, 
natural means, and placed into the underground aquifer. Placing water 
underground should become a common tool to all agencies to round out 
the management of our water resources during the off seasons. Recharge 
technology applications will be discussed from California, Nevada, 
Arizona, New Mexico, Utah, Colorado, Texas, Iowa, Wisconsin, Florida, 
North Carolina, New Jersey, New York, New Hampshire, and across the 
globe in Norway, Japan, China, Brazil, and Australia.
    Tom Morris, ASR Systems LLC
         overview of underground recharge facilities in arizona
    In 1986, the Arizona Legislature established the Underground Water 
Storage and Recovery Program which is administered by the Arizona 
Department of Water Resources (ADWR). This program was designed to 
promote the underground storage and use of the State's renewable water 
supplies, such as effluent, surface water, and Colorado River-Central 
Arizona Project (CAP) water, instead of non-renewable ground water. In 
1994, the Legislature enacted the Underground Water Storage, Savings, 
and Replenishment Act (UWS), which further expanded and defined ADWR's 
Recharge Program. There are two types of recharge facilities or 
Underground Storage Facilities (USF's) permitted by ADWR; managed and 
constructed. A managed facility is designed to utilize the natural 
channel of a stream to store water through the controlled release and 
subsequent infiltration of effluent or other renewable water supplies 
that are not part of the natural flow of the stream or river. A 
constructed facility is designed and constructed to store water 
underground by a variety of methods such as direct injection wells, ASR 
wells, vadose zone wells, trenches and/or basins. Both types of 
facilities can be permitted to recharge treated effluent, surface water 
and/or CAP water. Currently, there are six managed recharge facilities 
and 53 constructed recharge facilities permitted by ADWR across the 
State. The annual permitted recharge volumes for these USFs range from 
150 acre-feet per annum (AFA) up to 200,000 AFA. Since the inception of 
the Recharge Program, ADWR has encountered unique and challenging 
technical issues associated with permitting various recharge 
facilities. This presentation will highlight these challenges and also 
present a virtual tour of Arizona's permitted USFs, showcasing the 
array of methodologies used at these facilities as well as their common 
and/or unique issues and achievements.
    Drew Swieczkowski, Manager, Tracey Carpenter and Sharon Morris, 
Arizona Department of Water Resources
     planning, development, and operation of large aquifer storage 
                               facilities
    The Salt River Project (SRP), the largest water purveyor of the 
Phoenix metropolitan area, operates two large ground water recharge 
facilities: the Granite Reef Underground Storage Project (GRUSP) and 
the New River-Agua Fria Underground Storage Project (NAUSP). The GRUSP 
has been in operation for twelve years and has stored nearly 1,000,000 
acre-feet of water. It is the largest underground storage facility in 
Arizona with a capacity in excess of 100,000 acre-feet per year. Water 
stored at GRUSP is from two sources: Colorado River water delivered by 
the Central Arizona Project Aqueduct (CAP water) and water from the 
Salt and Verde Rivers (SRP water). Recharge at GRUSP is by water-
spreading in seven basins with a total surface area of 225 acres. The 
basins are constructed on the dry channel of the Salt River, three 
miles downstream of SRP's Granite Reef Dam. All water to be stored is 
delivered by gravity. Recharge rates range from three to seven feet per 
day. The site was selected because of its very favorable hydrogeologic 
characteristics. The vadose zone and aquifer underlying the facility 
are part of a thick alluvial fan composed mostly of unconsolidated 
coarse detritic sediments at the base of the Mc Dowell Mountains. The 
NAUSP is designed for a storage capacity of 75,000 acre-feet per year. 
It consists of six off-channel basins. Total infiltration surface is 
180 acres. Recharge rates exceed 2.5 feet per day. The site was 
selected on an area of thick alluvial sediments that are part of the 
valley of the Agua Fria River and very favorable for recharge and 
underground water storage. The GRUSP and the NAUSP are an integral part 
of the large water resources management system of the SRP.
    Mario Lluria, Salt River Project
    planning and life-cycle cost analysis of an aquifer storage and 
recovery system (well #299) in the northeast regional aquifer, city of 
                                phoenix
    Due to the disconnection and or abandonment of wells because of 
water quality issues and aging equipment, the City of Phoenix has the 
capability of currently meeting 10 to 15 percent of its peak day demand 
with ground water. A need to rebuild this well capacity for drought 
redundancy, operating flexibility, system emergencies, and managing 
surface water supplies has been identified. It is anticipated that 
ground water needs for operating flexibility and system emergencies are 
more compelling in the short term than demands to offset drought 
impacts. The City's objective is to manage aquifers to ensure the 
future availability of good quality ground water when needed, and to 
reduce the risks of land subsidence and other adverse environmental 
impacts. A life-cycle cost analysis and planning study was conducted 
for an Aquifer Storage and Recovery (ASR) well to assess whether this 
system is economically and technically feasible. Based on the life-
cycle cost analysis for treated Central Arizona Project (CAP) water 
coupled with the operational management of our distribution and 
treatment system, the following findings were identified:

  <bullet> Existing infrastructure and treatment system can be utilized 
        for the ASR system;
  <bullet> Additional land acquisition is not required;
  <bullet> From a well clogging/operational perspective, utilizing 
        injected treated CAP water will not be as problematic as other 
        water sources (i.e., raw CAP and reclaimed water);
  <bullet> Operational flexibility and redundancy is achieved during 
        emergency and drought conditions; and
  <bullet> Injection/recharge demands are easily assessable through the 
        CAP water wheeling process.

    Our future goal is to develop a network of ASR wells that will meet 
our long-term water resources needs and to implement a joint 
management/planning strategy with City of Scottsdale so that both 
Cities can manage and sustain ground water levels and our future water 
resource supplies within the northeast aquifer.
    Gary M. Gin, R.G.1, Marshall Brown, P.E.2, Aimee Conroy, P.E.1 and 
Andy Terrey1, (1)City of Phoenix, (2)City of Scottsdale
     proposition 13 ground water grants and loans program summary, 
                california department of water resources
    In California, under Proposition 13 the Safe Drinking Water, Clean 
Water, Watershed Protection and Flood Protection Act, between 2001 and 
2004 a total of approximately $206 million in grant and loan funds were 
awarded to 62 local projects whose total cost exceeded $1 billion.(4) 
These 62 projects when completed are estimated to increase ground water 
storage yield by 300,000 acre-feet per year. The California State Water 
Plan calls for increasing average annual water deliveries by between 1/
2 million and 2 million acre-feet by the year 2030 by using between 9 
million to 20 million acre-feet of new ground water storage.\6\
    California Department of Water Resources, 2005.
     Attachment 2.--Additional Examples of Conjunctive Use Projects
                        Provided by NGWA Members
    Metropolitan Water District--California: The Metropolitan Water 
District of Southern California is often cited for their aggressive 
program to expand and optimize their water supply. The Metropolitan 
Water District of Southern California, the primary wholesale provider 
of imported water for the southern California regions, has a portfolio 
of diversified supplies. They include water conservation, water 
recycling, desalination, Colorado River deliveries, state water project 
deliveries, water transfers, storage in ground water basins and surface 
reservoirs, and drought contingencies.
    Kern County--California: Intensive agricultural beginning in the 
latter half of the 19th century and continuing throughout the 20th 
century with related ground-water development resulted in ground-water-
level declines of more than 190 feet and land subsidence of as much as 
9 feet in the early- to mid-1900s in the Kern County ground water 
basin. The Kern County ground water basin is situated in the southern 
end of the Central Valley of California, a 500 mile long valley which 
provides have the fruits, nuts of vegetables in the US, or about one-
quarter of the nation's table food on only 1 percent of the country's 
farmland. Water banking was initiated in the subbasin in 1978, and 
seven projects with facilities including over 15 square miles of 
recharge basins and more than 120 recovery wells, now contain nearly 4 
million acre-feet of banked water in dewatered aquifer storage space. 
Approximately two thirds of this storage is in the Kern River Fan area 
west of Bakersfield; the remainder is in the Arvin-Edison Water Storage 
District in the southeastern subbasin or in the Semitropic Water 
Storage District in the northwestern subbasin.\8\
    Tampa Bay Water--Florida: This regional water supply authority 
consists of three surface water sources, one surface water treatment 
facility, 13 wellfields, and six ground water treatment facilities. It 
delivers approximately 182 million gallons per day of drinking water to 
customers. The desalination facility,, which came online in December 
2007, will provide an additional 24 million gallons per day and will be 
used to offset ground water supplies. The Tampa Bay area is in the 
Southern Water Use Caution Area of the Southwest Florida Water 
Management District and in an area where ground water levels have been 
severely impacted.
                                 ______
                                 
     Responses of Brian Ritcher to Questions From Senator Bingaman
    Question 1. Your testimony contains a number of recommendations 
intended to ensure that environmental flows are incorporated into 
adaptation strategies and general water management goals. Currently, 
however, it seems that environmental flow targets are only incorporated 
into river management when endangered species are present.
    Do you agree with this assessment, or do you think that water 
managers are striking a better balance in providing water for 
consumptive uses while addressing environmental needs outside the 
Endangered Species Act?
    Answer. It is certainly true that environmental flow issues are 
given greatest attention when ESA-listed species are the driver. In 
fact, the environmental flow studies conducted in rivers such as the 
Colorado (Grand Canyon), Klamath, Trinity, Platte, Utah's Green, or 
Sacramento related to endangered species recovery have considerably 
advanced the science of environmental flow assessment, largely because 
of the considerable funding resources and expertise that have been 
committed to these efforts.
    The re-balancing of water uses and changes in dam operations 
required to restore adequate flow conditions in these rivers is also 
spurring innovation in water engineering and policy, enabling 
preciously-scarce water supplies to serve multiple purposes including 
endangered species protection. In a partnership with the Army Corps of 
Engineers (called the ``Sustainable Rivers Project''), The Nature 
Conservancy is helping to demonstrate that important ecological, 
social, and economic benefits can be realized in rivers such as the 
Willamette in Oregon, the Bill Williams in Arizona, or the Savannah in 
Georgia by restoring environmental flows through modified dam 
operations, even when endangered species are not involved. More 
information can be found at: http://www.nature.org/success/dams.html
    Many states have adopted environmental flow policies and apply 
these policies when issuing water rights or permits, and sometimes in 
authorizing new reservoirs. Some states, such as Florida, Maine, and 
Arizona, have been able to determine environmental flow needs for many 
rivers within their jurisdictions, and are actively protecting 
environmental flows through their water supply planning and management 
efforts. However, the protection afforded environmental flows suffers 
from one or more shortcomings in every single state.
    These shortcomings include: (1) Environmental flow needs have been 
determined for some but not all rivers, leaving the natural, cultural, 
and economic values of the majority of rivers in every state in 
considerable jeopardy; (2) The scientific methods being used to 
determine environmental flow needs are, with few exceptions, grossly 
outdated and lagging behind the progress made in scientific knowledge 
by decades; and (3) Environmental flow requirements are usually 
specified only for the largest water allocations and are generally not 
applied to dam operations, particularly federal dams, which have 
pervasive and severe impacts on environmental flows.
    Healthy rivers are essential to the economic vitality, quality of 
life, and cultural identity in every state, and there is nothing more 
important to the health of our rivers than the protection of adequate 
environmental flows. The scientific community has recently developed 
methods that could enable state governments to determine the 
environmental flow needs of every river and stream in their state in a 
highly cost-effective manner.\1\ By determining environmental flow 
needs for all rivers and using this information in water planning and 
allocation, the states can substantially avoid the ``train wrecks'' 
that have arisen in river basins where species have become endangered 
because of lack of attention to environmental flow needs, or where 
river flow depletions are causing severe water quality problems and 
economic consequences.
---------------------------------------------------------------------------
    \1\ See attached fact sheet describing the ``Ecological Limits of 
Hydrologic Alteration'' (ELOHA) framework, now being implemented in a 
number of states.
---------------------------------------------------------------------------
    The SECURE Water Act can facilitate the application of scientific 
methods and data needed to define environmental flow needs for all 
rivers and streams in each state by providing funding support for this 
work.
    Question 2. You mention that existing reservoir space could be made 
available and no longer reserved for flood control purposes if the 
floodplain below the reservoir could be restored, including the removal 
of existing structures.
    Are there some examples you can cite to in the United States where 
this has been done or where it might be possible?
    Answer. In our committee testimony, we referred to the example of 
our work in the Yangtze River basin in China. Early results from our 
feasibility assessment suggest that rather than depending heavily on 
new dams to provide flood control, it would be far preferable to manage 
flood risk by utilizing the Yangtze's floodplain to maximum advantage. 
By doing so, we can create the opportunity to maintain adequate 
environmental flows in the middle reaches of the river and enable the 
managers of new dams being built on the Yangtze to use the new dams to 
generate much more hydropower.
    We do not know of any similar analyses in the United States. Until 
now, there has not been sufficient motivation to give this idea the 
attention it deserves. It is difficult to justify the considerable 
expense associated with restoring natural floodplains solely on the 
basis of endangered species or biodiversity. However, a number of 
emerging factors suggest that it is time to give this idea serious 
consideration: (1) One of the most certain predictions about climate 
change is that floods will become more frequent and severe, and 
improved floodplain management can minimize increasing flood risks; (2) 
Economic losses and deaths associated with flooding are already rising 
in the U.S. due to continuing encroachment of human populations and 
infrastructure into floodplains, a false sense of security that dams 
can protect us from large floods, and possible changes in flood 
frequency associated with climate change; (3) The economic value of 
``ecosystem services'' such as the provision of natural flood storage 
in floodplains, purification of water supplies by floodplain wetlands, 
recreation and tourism opportunities, and commercial fisheries strongly 
justify investigating this idea; and (4) The list of aquatic species 
endangered by flow alteration, including alteration of natural flooding 
patterns by flood control dams, is growing longer every year.
    The potential benefits of implementing this idea are huge, and the 
number of possible places in the US to implement it is great. The most 
obvious candidates for these changes in reservoir operations would be 
dams that are presently being operated for flood control and other 
purposes already. According to the National Inventory of Dams, there 
are 640 dams in the US being operated for flood control and water 
supply; more than 400 being operated for both flood control and 
hydropower. If the flood control needs of these dams were to be 
lessened, specifically by enabling higher levels of flood releases from 
the dams by moving downstream structures out of harm's way and 
appropriately compensating landowners whose existing uses of floodplain 
lands may be temporarily and occasionally impacted by higher 
floodwaters, the reservoir space presently allocated to flood control 
could be reduced. The freed-up space in these reservoirs could then be 
re-allocated to other purposes, including water supply storage, 
hydropower generation, and restoration of environmental flows.
    We can illustrate the potential benefits of re-allocating reservoir 
space in a flood control with the example of Lake o' the Pines in 
Texas, owned and managed by the Army Corps of Engineers. The ecological 
health of Big Cypress Creek and Caddo Lake (the state's only natural 
lake) located downstream of Lake o' the Pines have suffered greatly 
since the reservoir was built in 1959, primarily because the river's 
floods have been reduced from an annual average of 6,000 cubic feet per 
second (cfs) to a maximum of 3,000 cfs. By enabling higher flood 
releases from the dam, the ecological health of the river and lake can 
be restored. Just as importantly, some of the flood control storage 
space in the reservoir could be made available for additional water 
supply storage in this water-short region. In fact, approximately 
28,000 acre-feet of water supply could become available for every 
additional vertical foot of storage freed up in the reservoir 
(presently, 21 feet of flood control storage is reserved in the 
reservoir). Each foot of freed-up flood control space would store 
enough water to supply a population of 17,000 people each year. 
Alternatively, this additional water supply could be held in reserve, 
for use during the more-frequent droughts expected under climate 
change.
    Another way to illustrate potential benefits of using floodplains 
to store and convey floods is to review what has taken place in the 
Sacramento valley, where a floodplain stores much of the floodwaters 
that enter the valley. This floodplain, called the Yolo Bypass, serves 
as an effective substitute for an immense amount of reservoir flood 
storage. During major floods, such as in 1986, the Yolo Bypass safely 
conveyed approximately 2.4 million acre-feet of water through the 
valley during a four-day period. It would be prohibitively expensive to 
provide that amount of storage in upstream reservoirs. The Yolo Bypass 
provides important habitat for native fish and waterfowl, recreational 
opportunities, and 2/3 of its area is in productive agriculture.
    While the above illustrations and examples give some sense of the 
potential benefits of this idea, the feasibility of implementation will 
require rigorous engineering evaluation in each case. The SECURE Water 
Act could provide funding support for such feasibility evaluations.
         Attachment.--Ecological Limits of Hydrolgic Alteration
     integrating environmental flows with regional water management
    Worldwide, water conflicts are escalating as cities, industries, 
agriculture, and energy producers compete for limited supplies. At the 
same time, there is a growing awareness of the need to dedicate some 
portion of natural streamflow to sustaining the health and productivity 
of lakes, rivers, and aquifers that benefit communities and economies. 
To provide for growing human populations while protecting and restoring 
natural ecosystems, governments need efficient, integrated water 
resource management systems.
    The integration of ecosystem considerations into water plans has 
been hampered by the difficulty, cost, and time required for 
determining environmental flows - the amount and timing of water flows 
required to maintain the species, functions, and resilience of 
freshwater ecosystems and the livelihoods of communities that depend on 
them. When environmental flows are determined, water managers know how 
much of the remaining flow is available for human uses, and how much 
alteration of natural water flow patterns by humans is too much. Thus, 
the specification of environmental flows is a key to sustainable water 
management.
    Despite the existence of more than 200 methods for specifying 
environmental flows, until now none was suitable for application to the 
broad regional scales at which state, provincial, and national 
governments manage water resources. Simple `rules of thumb' lack 
scientific credibility, while complex, data-intensive methods are too 
expensive and time-consuming to apply to every river and stream in a 
jurisdiction.
    The Ecological Limits of Hydrologic Alteration (ELOHA) framework 
provides a timely and scientifically credible means for broadly 
assessing environmental flow needs when in-depth studies cannot be 
performed for all rivers. By linking changes in river flows to changes 
in ecological conditions, water managers and stakeholders can develop 
regional environmental flow targets and apply them to all rivers in a 
region without requiring detailed site-specific hydrologic or 
biological information for each river. The Nature Conservancy, working 
with leading international scientists, developed ELOHA specifically to 
accelerate the integration of environmental flow management into 
regional water resource planning. ELOHA builds upon the wealth of 
knowledge about natural flow variability gained from riverspecific 
studies and applies that knowledge to geographic areas as large as a 
state, province, nation, or large river basin. Compared to river-by-
river approaches, ELOHA is rapid, flexible, costeffective, and 
practical to implement.
    ELOHA synthesizes existing hydrologic and biological databases from 
many rivers within a region to generate flow alteration-ecological 
response relationships for different types of rivers. These flow-
ecology relationships correlate ecological condition, which cannot be 
managed directly, to streamflow conditions, which can be managed 
through water-use policies. In this way, ELOHA helps water managers 
comprehensively integrate human and ecosystem water needs throughout 
their jurisdictions.
     the scientific process: developing flow alteration-ecological 
                         response relationships
    Step 1. Build a hydrologic foundation, a regional database of daily 
or monthly streamflow hydrographs representing both baseline 
(undeveloped) and developed conditions for ``analysis nodes'' 
throughout the region, for a selected time period long enough to 
represent past climate variability. (Once built, this foundation also 
could be used to assess and manage the impacts of future climate 
variability). Analysis nodes include sites where water managers may 
want to make allocation or other water management decisions, as well as 
sites where biological data have been collected. Hydrologic modeling is 
used to extend the periods of streamflow data for gauged analysis nodes 
and to synthesize data for ungauged analysis nodes as needed. 
Alternatively, if a hydrologic model or decision support system for 
water management already exists, then ELOHA can fully integrate with 
the existing system.
          computing flow statistics and hydrologic alteration
    Hundreds of flow statistics that are already being used in hydro-
ecological research and environmental flow assessments may also be used 
in ELOHA. Among these are the 34 ``Environmental Flow Components,'' or 
EFCs, introduced by The Nature Conservancy to describe the magnitude, 
duration, frequency, timing, and rate of change of pulses, large and 
small floods, and low and extreme low flows. EFCs are well suited for 
ELOHA because they strongly link between environmental flow assessment 
and implementation, and they have clear ecological relevance. Because 
EFCs are intuitive to hydrologists, ecologists, and water managers 
alike, they greatly facilitate communication and understanding between 
the disciplines. The Nature Conservancy's Indicators of Hydrologic 
Alteration (IHA) software (free download at nature.org/freshwaters) 
calculates hydrologic statistics, including EFCs, and also measures the 
degree of hydrologic alteration between baseline and developed 
conditions. ELOHA uses statistical methods to select a small, 
manageable subset of non-redundant flow variables for analysis of 
hydrologic alteration.
    Step 2. Classify river segments based on similarity of flow 
regimes, using hydrologic statistics computed from the baseline flow 
series developed in Step 1. Subclassify according to geomorphology. The 
number of river types in a region ranges from one to as many as ten, 
depending on the region's inherent heterogeneity.
    Step 3. Compute hydrologic alteration for each analysis node, 
expressed as the percentage deviation of developed-condition flows from 
baseline conditions at each analysis node, using six to ten flow 
variables that are strongly linked to ecological conditions and are 
amenable for use as water management targets.
    Step 4. Develop flow alteration-ecological response relationships 
by associating percentages of hydrologic alteration with associated 
changes in ecological condition. A family of curves is developed for 
each river type, using a variety of flow and ecology variables. 
Ecological data used to develop the flow-ecology relationships - for 
example, aquatic invertebrate species richness, riparian vegetation 
recruitment, or larval fish abundance - ideally are sensitive to 
existing or proposed flow alterations, can be validated with monitoring 
data, and are valued by society. All stakeholders need to understand 
the development and application of these flow-ecology relationships.
     the social process: using flow alteration-ecological response 
              relationships to manage environmental flows
    Step 1. Determine acceptable ecological conditions for each river 
segment or river type, according to societal values. The goal of ELOHA 
is not to maintain pristine conditions in all rivers; rather, it is to 
understand and manage the tradeoffs between flow alteration and 
ecological degradation. Stakeholders might, for instance, decide that 
the goal for a particular ``working'' river is to achieve fair, not 
excellent, ecological condition. A gradational approach like this lends 
flexibility to governments overseeing variable levels of water 
development within their jurisdictions.
    Step 2. Develop environmental flow targets for each river segment 
or river type by using flow-ecology relationship to associate the 
desired ecological condition with the corresponding degree of flow 
alteration. The allowable degree of flow alteration is the 
environmental flow target. The development of regional environmental 
flow targets is an on-going, iterative process in which additional data 
collection, monitoring, testing and evaluation, and evolving social 
values continually refine the targets and the flowecology relationships 
upon which they are based.
    Step 3. Implement environmental flow management by incorporating 
environmental flow targets into the hydrologic model developed in Step 
1 of the Scientific Process. Because that model accounts for the 
cumulative effects of all water uses, it can be used to assess the 
practical limitations to, and opportunities for, implementing 
environmental flow targets at any analysis node in the project area, or 
for every node simultaneously. It can be used, for example, to 
prioritize restoration projects, optimize water supply efficiency, or 
account for cumulative upstream and downstream impacts in permitting 
decisions. For basins in which water is already over-allocated, it can 
help target flow restoration options such as dam reoperation, 
conjunctive management of ground water and surface water, drought 
management planning, demand management (conservation), and water 
transactions (leasing, trading, purchasing, banking) transactions 
(leasing, trading, purchasing, banking) mediated by water trusts and 
markets.
    The hydrologic model used to build the hydrologic foundation is, in 
essence, a comprehensive regional water management tool into which 
environmental flow targets are integrated. Thus, ELOHA's hydrologic 
foundation anchors decisions about future water allocation and river 
management to a comprehensive understanding of the availability, 
location, and timing of the flows needed to maintain or restore the 
overall health of a region's river ecosystems.
                            who does eloha?
    Because environmental flows sustain ecosystems critical to human 
livelihoods, successful implementation of ELOHA necessarily involves 
many people, from scientists to water managers to citizen stakeholders.
    Engaging an interdisciplinary team of hydrologists, 
hydrogeologists, aquatic entomologists, geomorphologists, water quality 
and hydraulics specialists, fish biologists, and riparian vegetation 
ecologists from government agencies and universities broadens and 
strengthens the scientific products.
    Both funding and expertise can come from a variety of sources. In 
the United States, for example, The Nature Conservancy has cost-shared 
with state governments and the federal government to have U.S. 
Geological Survey scientists lead the scientific process. The 
Conservancy coordinates the overall process, and the state government 
adopts and implements the results.
                               conclusion
    ELOHA is a robust regional environmental flow framework grounded in 
scientifically-defined flowecology linkages that are subject to 
empirical testing and validation. It is applicable worldwide across a 
spectrum of social, political and governance contexts, and is useful 
regardless of the stage of water resource development and historical 
status of environmental flow protection. It also is applicable across 
an array of flow alteration, from modified land use, to water 
diversions, to river regulation by dams. And, notably, it is applicable 
across a wide range of available data and scientific capacity.
    While ELOHA is a necessary new advance in environmental flow 
determination, it does not supplant river-specific approaches for 
certain rivers that require more in-depth analysis where political or 
economic issues are of such magnitude that only a river-specific 
treatment will suffice. But at a time when population increase, land-
use change, economic development, and climate change are amplifying 
demands for sound science to inform decision making, ELOHA fills an 
urgent need to jump start the comprehensive management of streamflow 
for people and for nature.
                                 ______
                                 
    Responses of Patrick O'Toole to Questions From Senator Bingaman
    Question 1a. Your testimony recommends a comprehensive 
quantification of climate change induced streamflow reductions to help 
plan for developing supplies necessary to replace the loss of those 
flows.
    Do you believe that the data is currently available to perform this 
analysis or do we still need to develop that database before 
proceeding?
    Answer. The answer to this question is both ``yes'' and ``no''. In 
some parts of the West, we may have enough data, in others, not enough. 
We need to focus the research that is out there to deal with a 
comprehensive quantification of climate change induced streamflow 
reductions. Sometimes, the desire for more research and more data 
stifles actual progress required to reach solutions.
    In the big picture, we understand that prehistoric climate and 
hydrology research, such as Greenland ice studies and tree-ring 
analysis, indicates that the climate in North America has been the most 
stable from 1850 to the present. This type of research suggest that we 
will likely see much more volatile climate conditions and longer 
drought periods at some point in the future, similar to what occurred 
centuries ago.
    With that said, we have enormous amounts of data that tell the 
story of recent climate conditions. However, even with all the data we 
have today--we will ultimately only know the real facts regarding 
climate change-induced prolonged drought ``after the fact''. We will 
not have the right data until decades from now when we have actually 
experienced such a drought. Often times, you only know you are in a 
problem situation once you are three years into the drought.
    Focused research must lay out a range of expected scenarios that 
prudent water managers should use in their planning.
    An initial priority research item should be a comprehensive 
validation of West-wide changes in climate change-driven streamflow. We 
offer the following recommendations that might be used to guide a 
comprehensive quantification of watershed yield in the Western United 
States:

  <bullet> Catalog the research and data collection that has already 
        been completed, on a watershed-by-watershed basis;
  <bullet> As these studies are assessed and compiled, the margin of 
        error associated with different climate change models and data 
        sets must be acknowledged so that realistic plans lead to real 
        political solutions for Western watersheds.
  <bullet> A range of predicted watershed yield values should be 
        developed for each watershed, reflecting the variability and 
        uncertainty associated with climate change models.
  <bullet> Consideration of legal and political influences should also 
        be assessed. For example, in North Dakota and other states, 
        pending Native American water rights settlements create 
        tremendous uncertainty regarding potential impacts to water 
        supply on sources like the Upper Missouri River. Understanding 
        these ramifications is critical for water managers and 
        decision-makers. Similarly, we believe it is important for 
        policy makers to understand the often significant differences 
        that exist between what natural stream flows are what 
        regulatory agency-driven biological assessments and opinions 
        call for. We need to recognize that a changed hydrology could 
        change the resultant biology which in turn may lead to a change 
        of biological / hydrological expectations that are more 
        realistic.
  <bullet> Quantify the amount of additional above-and below-ground 
        reservoir storage, conservation targets, and other actions that 
        would be required to address anticipated hydrologic changes. To 
        optimize water management for beneficial use, researchers 
        should look at scenarios where storage is spaced through the 
        drainage. Potential storage sites should be located at high and 
        low elevations to regulate and subsequently re-regulate the 
        water supply to maximize beneficial use. We believe a study of 
        this type would quickly illustrate to policy makers the need to 
        start modernizing our water infrastructure.
  <bullet> Data collection and research on climate change must be 
        properly peer-reviewed. Climate change research and data 
        collection must be guided by neutral, peer-reviewed processes 
        and diligence will be required to minimize political 
        manipulation of these efforts. Agricultural water users and 
        their communities need to be confident climate research will be 
        used to develop the best solutions, not simply the most 
        expedient solutions, which always seem to focus on transferring 
        agricultural water to urban and environmental uses without 
        regard for the long-term consequences.

    Question 1b. Can you provide some specific examples of the water 
supply enhancement projects that the Family Farm Alliance has looked at 
to make up for streamflow losses?
    Answer. The Board of Directors of the Family Farm Alliance in 2005 
launched a project that pulled together a master data base of potential 
water supply enhancement projects from throughout the West. Our goal 
was to gather together ideas from around the West and put them into one 
master data base.
    The types of projects contained in the resulting Western Water 
Supply Enhancement Study database are not monstrous dams like China's 
Three Gorges project. Instead, they are supply enhancement projects 
that range from canal lining and piping, to reconstruction of existing 
dams, to integrated resource management plans. There are also some very 
feasible new surface storage projects. The benefits from these projects 
include providing certainty for rural family farms and ranches, 
additional flows and habitat for fish, and cleaner water.
    Along with basic information included on a CD-ROM, the database 
that was generated from the compilation of the survey has a Global 
Information System (GIS) element and includes pictures, maps and a 
description of up to 500 words for each project or proposal. New GIS 
format technology is embedded that permits viewers to see a map of 17 
Western states and then ``drill down'' to see map details of a project 
area.
Examples
    There are over 100 projects included in our data base. Some 
specific projects include:

  <bullet> Atterberry Irrigation Reservoir (Washington) is a small 
        proposed project that involves construction of an irrigation 
        water reservoir (500 acre-feet) which would reduce irrigation 
        water withdrawal from the Dungeness River during periods of low 
        streamflow. The project will provide substantial increases in 
        available side channel spawning/rearing habitat as well as 
        reduced water temperature benefits.
  <bullet> Plateau Reservoir (Colorado) would be operated in 
        conjunction with McPhee Reservoir to improve downstream fishery 
        habitat. The Dolores Water Conservancy District (DWCD), Bureau 
        of Reclamation, State of Colorado and Federal fishery agencies 
        have identified the need to provide at least 3,300 acre-feet 
        per year of additional water for the fishery flow downstream of 
        McPhee Reservoir in southwest Colorado. McPhee Reservoir and 
        related delivery facilities are part of the Bureau of 
        Reclamation Dolores Project a multi-purpose water storage 
        project that supplies water for irrigation, municipal, fishery 
        below the dam, and other uses. The fishery downstream of McPhee 
        Dam is an excellent cold water trout fishery. DWCD has been 
        studying methods to provide the additional fishery water and 
        has identified the construction of Plateau Reservoir as an 
        option to supply additional fishery water. Plateau Reservoir 
        would be approximately 21,000 acre-feet in capacity formed by a 
        120 foot high dam with a surface area of approximately 750 
        acres. Detailed topography and preliminary soils testing has 
        been conducted to confirm the availability of suitable 
        embankment material. A preliminary embankment design, including 
        spillway location and sizing, has been prepared for the 
        selected dam site. Discussions are ongoing with the involved 
        entities to assess the available methods to supply additional 
        fishery water and the development of Plateau Reservoir is one 
        of the considerations.
  <bullet> Viva Naughton Reservoir (Wyoming) is one of several 
        alternative storage sites under investigation on the Hams Fork 
        River above Kemmerer. The recent drought has greatly changed 
        the water agreement between downstream irrigators and 
        PacifiCorp, the owner of Viva Naughton Reservoir. Local 
        sponsors are interested in proceeding forward with permitting 
        of the most desirable reservoir alternatives, but that process 
        cannot begin until more information is obtained on site 
        specific geology and wetlands. Investigations completed for the 
        Green River Groundwater Recharge and Alternate Storage Study 
        published in late 2001 indicate enlarging Viva Naughton 
        Reservoir is one of the more efficient water development 
        projects in the state. The permitted enlargement of Viva 
        Naughton Reservoir reserves 10,752 acre-feet for irrigation on 
        the Hams Fork downstream of the dam, and would provide a much 
        needed source of late season water for users below the dam, 
        like the Hams Fork Water Users Association, and the Towns of 
        Kemmerer and Diamondville.
  <bullet> Santa Cruz River Offstream Storage (Arizona) would aid the 
        Tohono O'odham Nation reservation, located in the desert of 
        south central Arizona. Groundwater forms the primary locally 
        available water supply. The Santa Cruz River, once a perennial 
        river, now only flows intermittently for most of its course 
        except for stretches supported by discharges from municipal 
        wastewater plants. At times these flows are great enough to 
        cause extensive flood damages at the village of Chui Chu and 
        surrounding areas on the reservation and on the surrounding 
        non-Indian lands and communities. The Nation and others have 
        investigated opportunities to capture the intermittent flows of 
        the Santa Cruz River and put them to beneficial use on the 
        reservation.
  <bullet> Sites Reservoir (California) has been identified by the 
        Department of Water Resources and the CALFED Program as one of 
        the most cost-effective and environmentally beneficial new 
        facilities under consideration in California. The Sites project 
        would enhance water supply reliability for environmental, urban 
        and agricultural uses throughout the state. It would provide 
        water supplies in average and dry years for urban, agricultural 
        and environmental purposes, increase San Francisco Bay-
        Sacramento / San Joaquin Delta outflows during critical times, 
        improve flood control, enhance groundwater recharge, bolster 
        fish flows, and improve flexibility for existing projects, such 
        as Shasta Reservoir. Sites reservoir can greatly increase 
        reliability of water supplies by reducing water diversions on 
        the Sacramento River during critical fish migration periods.
  <bullet> Strawberry Valley Rehabilitation and Betterment Projects 
        (Utah) are proposed to decrease the water seepage and losses in 
        the Strawberry Valley Project, as well as provide gravity 
        pressure for the continued migration toward sprinkler 
        irrigation systems, which would then provide additional water 
        savings. These projects could save approximately 15,000 to 
        20,000 acre-feet of water per year in an agricultural area that 
        is rapidly urbanizing.
  <bullet> Temperance Flat Dam (California) would be a new structure 
        constructed on the San Joaquin River, above Friant Dam, which 
        would provide much needed water supplies and hydroelectric 
        power. The Upper San Joaquin River Basin Storage Investigation 
        was completed by the U.S. Bureau of Reclamation, in cooperation 
        with the California Department of Water Resources, consistent 
        with recommendations in the CALFED Bay Delta Program Record of 
        Decision.
  <bullet> Teton Dam Re-Construction (Idaho) would replace Teton Dam, 
        which failed in 1976 just as it was completed, causing massive 
        flooding in the Rexburg, Idaho, area. Fremont-Madison 
        Irrigation District is considering participating in a 
        reconstruction of this dam, which, in 1990, was estimated to 
        cost $168--$265 million. The project would yield 41,000 acre-
        feet of water to benefit the fishery, 24,000 acre-feet for 
        trumpeter swans, and 20,000 acre-feet for irrigation.
  <bullet> Water for Irrigation, Streams, and Economy Project (WISE--
        Oregon), is a collaborative effort in Oregon to improve the 
        health of the Little Butte Creek and Bear Creek systems and 
        increase the effectiveness and efficiency of local irrigation 
        districts. The WISE Project utilizes a combination of 
        strategies including: piping and lining canals, increasing the 
        storage capacity of selected reservoirs, and installing a 
        pumping system that will provide access to water that has been 
        allocated for agricultural purposes. Collectively, more water 
        will be available for management for irrigation and 
        environmental instream purposes.

    Shortly after the Alliance's data base was released, the Bureau of 
Reclamation in November 2005 submitted a report to Congress that 
identifies nearly one thousand potential hydroelectric and water supply 
projects in the Western United States that have been studied, but not 
constructed. The report was required by the Energy Act of 2005.
    The 2005 Alliance and Reclamation efforts show that, in most areas 
of the West, water resources are available to be developed. 
Environmentally-safe and cost-effective projects exist. They await the 
vision and leadership needed to move them to implementation.
    Question 2. In addition to streamflow losses, increasing 
temperatures and a drying climate will likely dry rangelands and have 
other negative impacts to agriculture. This industry, particularly in 
the Rocky Mountain region, is already stressed.
    What is your sense of the future of agriculture in the West--do the 
opportunities outweigh the challenges or do you have concerns about the 
long-term viability of family farms?
    Answer. The family farmers and ranchers that make up the membership 
of our organization convey varying degrees of optimism and pessimism 
when they discuss the future of irrigated agriculture in the West. 
Unfortunately, in recent years, when our association gathers in Nevada 
for our annual meeting and irrigators from Western states begin to swap 
stories, the mood appears to be getting more pessimistic each year.
                           defining optimism
    Where does our wealth come from, if we have it? How do we measure 
up with others? The answers to these questions are also factors that 
influence how optimistic today's family farmers and ranchers are. 
Farming is unique because of the tremendous amount of money that is 
tied up in our investment to work the land. By the time the year is 
over, despite good markets and efficient operations, the financial 
pickings are slim, compared to other occupations. One of the founding 
members of the Family Farm Alliance--a successful rancher and 
businessman from Arizona--was astounded later in life when he found out 
how relatively easy it was to make money running an auto parts store. 
The rate of investment in farming is very high, but the rate of return 
is often very low. It's easy to sound like a pessimist when you look at 
how all of your money is tied up, with very little return to show for, 
and your kids are leaving the farm to try to live like the people they 
see on television.
                     tough times to get things done
    Many farmers and ranchers are pessimistic about the future of 
agriculture because it is getting increasingly more difficult to 
accomplish anything. As a nation, it seems that we have become rich, 
spoiled losing the drive to get things done the way we used to. One of 
my fellow board members is a farmer in the Dolores Water Conservancy 
District in Colorado. His district put together a plan for an 
outstanding and feasible water delivery project that would have added 
another 4,000 acres of productive farmland to his community. The 
project was ready to go, but then the 2002 drought arrived, and 
community leaders became gun shy, and reigned in their efforts. When 
interest was revived a few years later, the price of petroleum (and 
thus, piping) had risen considerably. The district had to scale back 
its original plan, re-engage with the regulatory agencies, and before 
long, the momentum faltered, and the project never materialized.
    We built Hoover Dam in less than five years, ahead of schedule and 
under budget, during the midst of the Great Depression. In this day and 
age, the environmental permitting and litigation alone for such a 
project would take at least twice that time.
                         family farms in crisis
    Family farms and ranches are experiencing a crisis in numbers. In 
the 1930s, there were close to seven million farms in the United 
States. Today, just over two million farms remain. Of the remaining 
farms, roughly 565,000 are family operations, farming just over 415 
million acres or 44 percent of total farmland. And 330 farm operators 
leave their land every week.
    One of the most troubling aspects of the on-going farm crisis is 
the decline in the number of young farmers entering the field. More 
than half of today's farmers are between the ages of 45 and 64, and 
only six percent of our farmers are younger than 35. Some of my fellow 
directors on the Alliance board will admit that we ranchers are 
becoming dinosaurs. Both statistically and anecdotally, for the first 
time in many generations we see sons and daughters of farmers opting to 
leave the family farm because of uncertainty about agriculture as a 
career.
    Urbanization and competition for water supplies are driving Western 
farmers off the land at a time when American food production in general 
is following other industries ``off-shore'' in search of lower costs. 
Traditional farms and ranches are disappearing, and our country is 
becoming a net importer of food, drawing frightening parallels to our 
dependence on foreign sources of energy.
    Meanwhile, according to USDA's Economic Research Service statistics 
for 2005, Americans are spending, on average, 9.9 percent of their 
disposable income on food. To put this into perspective, just 70 years 
ago, the figure was more than 25 percent. So, while more, better and 
safer food is being produced by our farmers, they continue to feel the 
pinch--and it is only a matter of time before that pinch translates 
itself back into the supermarket.
    Ironically, it is because Western irrigated agriculture has been so 
adaptive and successful at providing plentiful, safe and affordable 
food that it is now jeopardized--nobody believes there can be a 
problem. The last Americans to experience food shortages are members of 
the so-called Greatest Generation and their parents. For the most part, 
they have left us, taking with them the memories of empty supermarket 
shelves. When the issue has never been personalized, it's easy to be 
complacent.
              agriculture is not the reservoir of the west
    A February 2007 report by a National Research Council (NRC) 
committee says agriculture is the likeliest target for shifting use to 
urban needs in the fast growing West. But that study--which focuses on 
the Colorado River--cautions that ``the availability of agricultural 
water is finite.'' It adds that rising population and water demands 
``will inevitably result in increasingly costly, controversial and 
unavoidable trade-off choices'' in managing a shrinking resource.
    We are also troubled to hear more and more anecdotal accounts from 
Western farmers and ranchers of important agricultural lands being 
converted to residential and commercial development and of agricultural 
water being used (transferred or bought) to support these new demands. 
New environmental water demands imposed by regulatory agencies or 
courts also first look to agriculture. This is happening in every 
state, but farmers and ranchers point to some striking examples:

  <bullet> A report released in April by Environment Colorado found 
        that, from 1987-2002, Colorado lost an average of 460 acres per 
        day of agricultural land. The report predicts 3.1 million more 
        acres will be lost to development by 2022.
  <bullet> Arizona's Salt River Project (SRP) is the ``poster child'' 
        for transfers of agricultural water to urban areas. In a few 
        years, the SRP will cease to provide water to agriculture in 
        order to meet new demands exerted by development.
  <bullet> In Las Vegas, over 70,000 new residents are moving in every 
        year, and Southern Nevada Water Authority is looking to rural 
        areas to satisfy its growing thirst.
  <bullet> A restoration agreement developed for the Platte River could 
        potentially dry up hundreds of thousands of acres of farmland 
        in Nebraska and Wyoming, in order to reallocate water to meet 
        the perceived needs of ESA-listed fish and wildlife.
  <bullet> According to the American Farmland Trust, the California 
        Department of Conservation documented more than 1 million acres 
        of farmland in the state that were converted between 1988 and 
        1998. Last year, California's population officially topped 37 
        million, and it is predicted that the state's population will 
        reach 59.5 million by the year 2050.

    The continued focus on moving agricultural water to meet other 
Western water demands-urban, industrial, and environmental--is very 
disturbing to us. It is short-sighted and complacent to believe the 
illusion that water can be taken from agriculture to take care of new 
urban and environmental demands.
    We cannot continue long-term hypothetical processes that focus 
primarily on continued conservation and downsizing of Western 
agriculture. The U.S. needs a stable domestic food supply, just as it 
needs a stable energy supply. The post 9/11 world of terrorist threats 
makes the stability of domestic food supply even more pressing.
    In this era of shrinking agricultural landscapes, there does not 
appear to be much talk of saving agriculture, let alone trying to 
increase production acreage. If these things are not done, we're afraid 
we will lose it all. The continued focus on eliminating farming and 
tightening water conservation as means of freeing up water to meet 
other demands could set us up for a train wreck. While we are a free-
market country, some of our members believe we need to get aggressive 
about finding ways to keep water available for agriculture rather than 
just allowing individuals to sell their water--developed with 
government assistance to encourage agricultural development decades 
ago--to fund their retirement.
    Our entire society needs that water because we need a strong 
domestic agricultural base. Americans are justifiably concerned about 
the recent contamination of wheat gluten imported from China and used 
in pet food that killed thousands of animals in the United States. Yes, 
the U.S. has recently experienced failures in its own food safety 
systems. But domestic food safety issues are within our power to 
address. Contamination of food stuffs produced by factories and farms 
beyond our borders is not. That is why the Family Farm Alliance 
believes that a national response to climate change should include as 
one of its goals self-sufficiency in food production. It is time for 
our national leaders to stand up and focus on improving the security, 
stability, and economic aspects of domestic food production so that our 
food remains readily available, ample, affordable, and safe.
    If Congress wants to do something truly meaningful, it too, should 
look at the bigger picture. For farmers to survive; for food to be 
produced in America; a stable water supply must be available. The 
federal government must adopt a policy of supporting new projects to 
enhance water supplies while encouraging state and local interests to 
take the lead in the implementation of those projects.
    Responses of Patrick O'Toole to Questions From Senator Domenici
    Question 1. Do you believe that the inter-agency coordination 
required by the bill will help achieve federal coordination of water 
resources research?
    Answer. Section 7 of the SECURE Water Act outlines the climate 
change and water intragovernmental panel, which would be comprised of 
federal agency leaders. We believe this proposed panel and the actions 
they will be tasked with should improve federal coordination of water 
resources research. We support the Section 7 provisions that direct 
this panel to coordinate with state water resources agencies and 
relevant water user, environmental and non-governmental organizations. 
For this panel to achieve success, coordinating with the state water 
resources agencies is critical.
    Question 2. Please describe the opportunities and challenges in the 
West regarding the current and future water demands for energy 
production.
    Answer. Throughout the West, we are seeing proposals to build 
plants to make ethanol, another ``answer'' that may (or may not) lower 
greenhouse gas emissions. An April 2007 Sacramento Bee editorial 
provides a reality check on how much water it would take to grow all 
the corn required to meet California's goal of producing a billion 
gallons of ethanol a year. According to the Bee's calculations, that's 
about 2.5 trillion gallons of water for 1 billion gallons of ethanol, 
which is more than all the water from the Sacramento-San Joaquin Delta 
that now goes to Southern California and valley farms. Because there is 
only so much water for agriculture in California and other Western 
states, this means that some other existing crops will not be grown, 
thus furthering our dependence on imported food sources.
    We believe a thorough, comprehensive and peer-reviewed analysis is 
also needed to pin down future water needs for ethanol production, 
followed by identification of measures required to meet that new 
demand.
    Another growing demand that will be placed on Western water 
resources is driven by power requirements. The total water consumed by 
electric utilities accounts for 20 percent of all the non-farm water 
consumed in the United States. By 2030, utilities could account for up 
to 60 percent of the nonfarm water, to meet the water needs required 
for cooling and pollutant scrubbing. This new demand will likely have 
the most serious impacts in fast-growing regions of the U.S., such as 
the Southwest. Even without warming climate conditions, continued 
growth in these regions will put the squeeze on both water and power 
use. When you throw in climate change considerations, the projections 
look worse.
    Elsewhere in the energy sector, opportunities exist to better 
manage water produced in the development of coal bed natural gas 
resources in Rocky Mountain states. Large amounts of water, sometimes 
saline, are produced from coalbed methane wells, especially in the 
early stages of production. While economic quantities of methane can be 
produced, water disposal options that are environmentally acceptable 
and yet economically feasible, are a concern. Water may be discharged 
on the surface if it is relatively fresh, but often it is injected into 
rock at a depth where the quality of the injected water is less than 
that of the host rock. According to the U.S. Geological Survey, another 
alternative, not yet attempted, is to evaporate the water and collect 
the potentially saleable solid residues; this scheme might be feasible 
in regions having high evaporation rates.
    Question 3. Please describe the relative costs of demand-management 
actions in relation to supply-enhancement measures as described in your 
written testimony.
    Answer. Individual supply enhancement proposals and proposed demand 
management actions must be evaluated and the associated benefits and 
risks must be viewed in a net, comprehensive manner. While some 
environmental groups focus on perceived negative impacts associated 
with new facility construction (e.g. loss of habitat, disruption of 
``natural'' stream flow patterns, and potential evaporative losses), 
these perceived impacts must also be compared to the wide range of 
multi-purpose benefits that storage projects can provide. Properly 
designed and constructed surface storage projects provide additional 
water management flexibility to better meet downstream urban, 
industrial and agricultural water needs, improve flood control, 
generate clean hydropower, provide recreation opportunities, and--yes, 
create additional flows that can benefit downstream fish and wildlife 
species.
    Conservation is often seen as the solution to water supply issues. 
While conservation is surely a tool that can assist in overcoming water 
supply problems, it cannot be viewed as the single answer to water 
shortages. Conserved water cannot realistically be applied to instream 
uses, as it will more likely be put to beneficial use by the next 
downstream appropriator or held in carryover storage for the following 
irrigation season. Also, reliance on demand management alone--
particularly to meet growing municipal and industrial water demands--
ultimately leads to ``hardened'' demand that could lead to volatility 
in extended droughts. A more productive federal role in conservation 
would involve the development of programs that foster locally-based 
conservation tailored to the unique circumstances of each region by 
providing genuine incentives, rather than the issuance of directives or 
attempts to inspire conservation by artificially manipulating economics 
through vehicles like compelled tiered pricing.
    The Alliance supports continued voluntary implementation of 
efficient water management practices and opposes mandatory or 
enforceable requirements for agricultural water use efficiency. Only 
practices that reduce irrecoverable losses actually increase the total 
useable water supply. Furthermore, water saved within a water district 
or on-farm is used elsewhere within the same district or farm. Western 
agriculture in many areas is already highly efficient in its use of 
water and that more efficient water application does not necessarily 
increase useable water supplies.
    The relative costs of demand and supply management actions can only 
be properly assessed by looking at the full range of benefits generated 
and beneficiaries served. For the most part, new water supplies are not 
being proposed to meet the expanding needs of agriculture. On the 
contrary, we are seeing a move in the opposite direction, where 
agricultural lands are going out of production and being lost to 
expanding urban development. Water that was originally established for 
agriculture and the communities it supports is now being reallocated to 
meet new growing urban and environmental water demands. The growing 
numbers of urban water users in the West and the public interest served 
through improved environmental water supplies should naturally be part 
of equitable financing schemes.
    In addition to developing the proper mix of demand management 
actions and new water supply infrastructure, it is imperative that we 
find creative ways to provide for the operation, maintenance, and 
modernization of existing water supply infrastructure. In 2005, we 
attended a briefing with the Bureau of Reclamation and learned at that 
time that there were 80 Western water projects in need of repair in the 
next ten years and that 40% of those would require major 
rehabilitation. The total estimated cost, including dam safety 
projects, was estimated to be $800 million. Sound business practices 
dictate that this existing infrastructure, and the water supply 
provided by these facilities, be protected and preserved.
    Question 4. Please describe the current interest within your 
membership to implement the rural water project Federal loan guarantee 
program.
    Answer. The Family Farm Alliance--driven by its members 
(particularly in Washington and Idaho)--advocated for the loan 
guarantee provisions contained in the Rural Water Supply Act of 2005. 
This new program addresses an important issue to western water users: 
the inability of irrigation and water districts to pay for expensive 
repairs to Bureau of Reclamation dams, canals and other facilities
    As noted above, many Reclamation facilities are near the end of 
their design life, and maintaining the West's aging water 
infrastructure is a major financial challenge for Reclamation. It is 
also a challenge for irrigation districts and communities that depend 
upon these projects because in most cases, project beneficiaries are 
obligated by contract to pay 100 percent of operation, maintenance and 
repair costs at Reclamation facilities. Repair and replacement of aging 
gates, canals and other facilities often involve major construction 
projects costing millions of dollars. Under Reclamation law, project 
beneficiaries are required to pay these costs immediately; they cannot 
be repaid over time.
    Private financing is difficult for many local entities to obtain 
because they do not own the facilities that are being repaired. In the 
past, programs such as the Rehabilitation and Betterment Act provided 
federal loans and other assistance for meeting the costs of repairs and 
replacement of equipment. However, such programs are no longer 
available.
    The alternative financing mechanism contained in the Rural Water 
Supply Act--which would provide a government loan guarantee to allow 
local entities to amortize expensive operation, maintenance and 
replacement (OM&R) projects--will be helpful to some local agencies 
struggling to afford repairs to federally owned facilities. By making 
it easier for certain local agencies to meet their financial 
responsibilities, loan guarantees would make it easier to protect the 
federal investment in the West water supply infrastructure.
    The Alliance is very concerned that the Department of the Interior 
has not yet implemented the loan guarantee. The Department's apparent 
lack of action is difficult to understand given the Administration's 
strong support for the Act when it was pending in Congress. We urge the 
Committee to take a close look at the Department's handling of the 
program and to take steps to remedy whatever problems are hindering the 
full implementation of the law.
    Question 5. Please describe how you could streamline the regulator 
permitting process to provide for the necessary improvements to augment 
our existing and future water supply systems.
    Answer. The Family Farm Alliance believes that without new sources 
of water, increasing urban and environmental demands will deplete 
existing agricultural supplies and seriously threaten the future of 
Western irrigated agriculture. The often slow and cumbersome federal 
regulatory process is a major obstacle to realization of projects and 
actions that could enhance Western water supplies.
    The federal government has played a pivotal role in the development 
and subsequent regulation of water resources in the West over the past 
century. However, this involvement has grown exponentially over the 
past several decades through legislative enactments such as the 
Endangered Species Act (ESA), National Environmental Protection Act 
(NEPA) and the Clean Water Act (CWA). Implementation of these and other 
laws has challenged traditional notions about continued control of 
water resources by the States. In addition, there exists within some 
agencies a defeatist attitude that no dams or water supply projects 
will be built. So, there is no commitment to earnestly begin and engage 
the difficult problems we face. The increased control exerted by 
federal agencies through a variety of means has led to gridlock in the 
management of water supplies in the West.
    For the most part, expanding agricultural development is not 
driving the need for new water supplies. Those new demands are coming 
from expanding urban development and more emphasis on environmental 
water needs. New water does not necessarily have to be developed for 
agriculture but it can be developed to prevent water from being taken 
from agriculture. That means regulatory streamlining will benefit urban 
water managers as well as Western irrigators.
    The Family Farm Alliance is hopeful that a concerted good-faith 
effort to address these problems will result in a streamlined 
regulatory process that will be efficient, fair and effective. Over the 
past three years, we have developed and proposed specific 
recommendations on how to streamline ESA and NEPA processes, which we 
believe would make the regulatory process less daunting for state and 
local water agencies trying to enhance water supplies.
   recommended changes to modernize and streamline esa implementation
    The Family Farm Alliance strongly affirms the goals of the ESA. 
However, this 30-year old law could stand some targeted reforms, 
including common-sense changes to make it work better, encourage 
incentive-driven recovery efforts, and discourage litigation. Our 
specific recommendations--developed by our members in 2005--include:

  <bullet> Encourage regulatory agencies to pull in senior policy 
        officials to help solve ESA problems. Districts should be able 
        to meet directly with upper level managers.
  <bullet> Find ways to streamline the consultation process. Establish 
        time limits, and force the agencies to comply.
  <bullet> Require agency work on biological opinions to keep pace with 
        development of NEPA compliance documents.
  <bullet> Enhance congressional budgets of the lead agency (often 
        Bureau of Reclamation) to cover additional costs associated 
        with consultation.
  <bullet> Employ better science in the consultation process.
         recommended changes to streamline nepa implementation
    The Alliance also developed a number of recommendations to 
streamline NEPA implementation associated with new water supply 
enhancement projects. These include:

  <bullet> Implement--either legislatively or administratively, the 
        recommendations of the 2006 final report of the NEPA Task 
        Force, chaired by U.S. Rep. McMorris-Rodgers (Washington).
  <bullet> Restrict agency NEPA regulators from dismissing potential 
        benefits or uses of future water supplies from ``Purpose and 
        need'' requirements. Planning opportunities and purposes for 
        which a project may be permitted should not be restricted, 
        which narrows the planning horizon, and makes it impossible to 
        plan for projects with long-term benefits.
  <bullet> Require that impacts of drought and continuing water demands 
        be assessed and built into the NEPA process.
  <bullet> Amend NEPA to create a ``NEPA Ombudsman'' within the CEQ. 
        This recommendation would direct the CEQ to create a NEPA 
        Ombudsman with decision making authority to resolve conflicts 
        within the NEPA process.
  <bullet> Direct CEQ to control NEPA-related costs.
  <bullet> Amend NEPA to add mandatory timelines for the completion of 
        NEPA documents.
  <bullet> Amend NEPA to create a citizen suit provision. This 
        provision would clarify the standards and procedures for 
        judicial review of NEPA actions.
  <bullet> Amend NEPA to clarify that the alternative analysis must 
        include consideration of the environmental impact of not taking 
        an action on any proposed project.
  <bullet> Require that ``reasonable alternatives'' analyzed in NEPA 
        documents be limited to those which are economically and 
        technically feasible.

    NEPA documents should only pertain to the proposed action and only 
address issues raised in public scoping that are directly tied to the 
proposed action. A common ploy of certain activist groups is to throw a 
``laundry list'' of issues and concerns at a federal agency, knowing 
full well it will distract, confuse, and lengthen the process, thereby 
creating a document with potential loop holes that might later be 
appealed. We believe alternatives should be limited to the proposed 
action being analyzed. The number of alternatives should be constrained 
only to the range of activities and associated impacts of the proposed 
action.
      Response of Patrick O'Toole to Question From Senator Salazar
    Question 1. The Family Farm Alliance's recent report, Water Supply 
in a Changing Climate, discusses the increase in ethanol and energy 
production as another demand on water resources in the West. Do you 
think the SECURE Water Act goes far enough in assessing impacts to 
water from energy use, or would you suggest other changes to the Act?
    Answer. Section 9 of the SECURE Water Act directs the Secretary of 
Interior to work with an advisory committee and state and local water 
resource agencies to develop a water use and availability assessment. 
One of the tasks charged to this group is to work towards an improved 
ability to forecast the ability of water required for energy production 
uses. This specific charge--while fairly broad--should provide a 
vehicle to develop a thorough, comprehensive and peer-reviewed analysis 
to pin down future water needs for ethanol production, and new power 
plants, followed by identification of measures required to meet that 
new demand.
    We also recommend that this assessment identify opportunities to 
better manage water produced in the development of coal bed natural gas 
resources in the Rocky Mountain states. A basin-by-basin quantification 
of the potential ``new'' water that could be generated through coal bed 
methane production operations should also be undertaken.
                                 ______
                                 
     Responses of Jon C. Lambeck to Questions From Senator Bingaman
    Question 1a. MWD is one of the largest water utilities in the 
nation, and perhaps the one facing the greatest number of challenges. 
Based on current and long-term projections, you face the distinct 
likelihood of reduced Colorado River supplies, potential reductions in 
State project water because of environmental issues in the Sacramento-
San Joaquin Bay-Delta area, and an ongoing local drought.
    Is MWD facing the possibility of rationing water to its 18 million 
customers? If not, what strategies have you implemented to help avoid 
that possibility?
    Answer. Metropolitan is preparing for the possibility of allocating 
supplies to its 26 public member agencies by developing an allocation 
plan for adoption by its Board. This plan sets in place a formula to 
equitably cut supplies through all of Southern California should that 
become necessary.
    However, Metropolitan is acting to avoid allocation by utilizing 
its drought storage reserves and pursuing water transfers. Further, 
Metropolitan has embarked on a regional education and media campaign to 
reduce water use and encourage conservation, including the promotion of 
California native (low water use) plants and landscaping. This is in 
addition to stepped up incentive programs to cause retail customers to 
install water saving appliances and plumbing fixtures, and to use 
recycled water whenever available and appropriate for use.
    Question 1b. Can you estimate how much water MWD has been able to 
save because of conservation efforts over the last 10-15 years? Do you 
anticipate that additional savings are possible?
    Answer. Metropolitan's modern water conservation efforts date back 
to the prolonged drought of the 1980s. Since 1990, conservation efforts 
in the Metropolitan service area have saved approximately 10 million 
acre-feet (AF). Conservation savings have reduced regional water 
demands by about 15%. In fact, conservation has provided almost 800,000 
AF of water in our service area this past year--that is more water than 
we will receive from the Colorado River. It should be noted that 1 AF 
typically meets all the indoor and outdoor water needs of two average 
Southern California families.
    However, our conservation efforts are nowhere near complete and 
many new opportunities exist. Most water savings in California have 
come from indoor plumbing improvements such as changing to low flow 
shower heads and retrofitting residential toilets to ultra-low flush 
models. The commercial, industrial, institutional, and landscape 
sectors still have significant opportunity for savings. These sectors 
have not participated in efficiency programs in the past due to 
complexities in business practices, procurement processes, 
institutional barriers, and a lack of water saving technologies. Most 
of these obstacles have been or are now being overcome. New landscape 
efficiency devices, like Smart Irrigation Timers and high efficiency 
spray nozzles that ensure more of the water gets to the plants, can 
greatly reduce water use in commercial and residential landscapes. 
Industrial process improvement programs are seeing a large increase in 
participation in Metropolitan's service area as corporations and local 
businesses begin to see the financial and social benefits of 
conserving. A recent example is the partnership between Metropolitan 
and Kimberly-Clark in which Metropolitan paid approximately $500,000 to 
offset some of the costs of Kimberly-Clark's industrial process 
improvements in a paper production facilities, saving about 500 acre-
feet per year. But even with the best corporate citizens, bad choices 
are sometimes made when they cannot tell the difference between 
efficient and non-efficient devices in the marketplace. Because of 
this, Metropolitan supports national labeling of water efficient 
devices through EPA's WaterSense Program. Continued Congressional 
support of this program will leverage local effort to get businesses to 
make water efficient choices.
    Question 2a. Your testimony recommends evaluating ways to optimize 
hydropower production at federal facilities due to the likelihood that 
power production will continue to be impacted by low reservoir 
elevations in the future.
    What is the current state of research associated with developing 
more efficient low head turbines? Is it realistic to expect that it 
will be technically and economically feasible to retrofit such 
equipment on existing facilities in the near future?
    Answer. Turbine manufacturers have developed different designs over 
the years that have higher efficiency or generation output under 
specific reservoir elevations or head. As reservoirs in the western US 
have been drawn down as a consequence of continuing drought, the head 
under which the existing turbines are operating has moved further 
outside their optimum operating range. Hydrologists and other experts 
have questioned whether we can expect the western reservoirs to return 
to their historical operating elevations anytime in the near future.
    The studies recommended in the testimony would take available 
designs and technology and analyze the technical challenges and 
improved power production that would be achieved under current and 
continuing reduced head conditions. The studies would provide the 
expected increase in power and the cost to implement the equipment 
change. With the information produced, stakeholders could make 
decisions on whether the increased value is worth the required 
expenditures.
    Question 2b. What other sources is MWD looking at to potentially 
replace the hydropower it currently uses to move water through the 
Colorado River Aqueduct?
    Answer. Metropolitan is looking at several options to replace the 
possible reduction in federal hydro power. With wind measurement 
equipment (wind speed and direction) supplied through the Western Area 
Power Administration as part of their customer service program for 
renewable energy development and equipment purchased directly by 
Metropolitan, the wind along the Colorado River Aqueduct (CRA) is being 
monitored for potential use as part of a multi-year program. The data 
from this monitoring will be analyzed to determine the economics of 
wind power development along the CRA.
    Metropolitan is also analyzing the potential for solar power along 
the CRA as an expansion of solar power development already underway at 
Metropolitan facilities in its Southern California service territory. 
These current solar power developments are at existing facilities such 
as water treatment plants served under retail electricity service 
tariffs by utilities such as the Southern California Edison Company or 
the Los Angeles Department of Water and Power.
    Another option is the use of power Metropolitan produces at its 16 
small hydroelectric power plants located along its pipelines is 
Southern California. The energy produced at these hydroelectric plants 
is presently sold to electric utilities. If economically feasible, 
Metropolitan could utilize the power from these hydroplants to meet 
some of its own CRA energy demand.
    Other options include purchasing addition energy from the wholesale 
energy marketplace to replace the declining Hoover energy or develop 
contracts for a firm supply of power from new facilities owned by 
others or in partnership with Metropolitan.
     Responses of Jon C. Lambeck to Questions From Senator Domenici
    Question 1. In addition to the correlation between energy and hydro 
production, please describe what Metropolitan is doing to reduce their 
energy demands on moving water through the system and developing new 
water supplies through desalination and the recycling of brackish 
water.
    In regards to reducing energy demands, Metropolitan has always been 
proactive in identifying and implementing energy saving improvements. 
For example, beginning in the earlier 1980's, Metropolitan initiated an 
aggressive construction program to install small hydroelectric 
generators at pressure control facilities on its water distribution 
system. This allowed the production of clean, zero-emission, renewable 
electric power from the energy in water flowing through distribution 
pipelines that previously had gone untapped. In 2007, Metropolitan 
produced approximately 500,000 MWh from its 16 small hydro generators.
    Also starting in the 1980's and continuing into the 90's, 
Metropolitan spent over $32 million rehabilitating its Colorado River 
Aqueduct structures and electric equipment, including 45 electric 
motors ranging in size from 4300 HP to 12,500 HP . This rehabilitation 
project resulted in annual savings of over 110,000 MWh during periods 
of high water deliveries.
    Finally, in 2005, Metropolitan completed the redesign of one of its 
major distribution system pumping plants. The new design reduced the 
energy requirement to pump water from 400 kWh/acre-foot (AF) to 200 
kWh/AF and has resulted in energy savings of over 9,000 MWh annually.
    The above examples are some of the larger efforts Metropolitan has 
undertaken to reduce its energy use. There are many other smaller 
efforts have been completed or that are continuing, including: 
implementing energy audit recommendations at all its major facilities 
(such as lighting retrofits, installation of variable speed motors, 
HVAC improvements and motion sensing light switches); utilizing high 
efficiency equipment in new installations; installing photovoltaic 
solar generation at its treatment plants; and replacement of old CRT 
monitors.
    Lastly, Metropolitan is championing an effort that would provide 
recognition to electric utilities who support water conservation 
efforts by allowing them to obtain the credit for energy saved from 
reduced water conveyance, treatment and distribution energy 
requirements.
    Concerning new water supplies in Southern California, recycled 
water production is used to offset potable water demands to irrigate 
golf courses and public parks, offset imported water demands for 
industrial process water, and protect groundwater basins from seawater 
intrusion that could impair groundwater production and storage. 
Groundwater recovery programs desalt brackish groundwater to create a 
new supply while cleaning up groundwater basins to enable better 
groundwater storage and management. Seawater desalination is not 
currently in large-scale production in Southern California, but 
advances in membrane and energy recovery technologies have brought the 
cost of this supply to levels where it can be considered as part of a 
diverse portfolio of a reliable water supply.
    In 2006, Metropolitan set a regional target of 750,000 acre-feet of 
annual production for the combined resources of water recycling, 
groundwater recovery (brackish water desalting), and seawater 
desalination. Currently, the region has approximately 320 TAF per year 
of recycling and groundwater recovery production. Metropolitan offers 
financial incentives up to $250 per acre-foot of produced water through 
its member agencies. Metropolitan financially supports over 150 TAF of 
the existing annual production. Finally, Metropolitan has signed or is 
in the final process of signing five contracts to provide financial 
assistance to local seawater desalination projects that are expected to 
be online as early as 2015.
    Question 2. In what areas should the federal government focus its 
research on water for energy and energy for water?
    Answer. As mentioned in the response to the previous question, 
improvements in the design and technology of the desalination process 
continues to result in lower energy requirements for the water 
produced. Metropolitan has done extensive research to improve the 
efficiency of the desalination process and to lower the overall cost of 
desalination for brackish waters through improvements in pretreatment, 
membrane fouling, scale-up of membranes, and brine treatment. Federal 
research in these areas, along with improvements in energy recovery 
devices, may result in further cost reductions for desalination and 
help reduce energy usage, not only for brackish waters but also for 
other water sources such as seawater.
    Another area where research could provide significant benefits 
regarding energy for water would be in raw water treatment. Many of the 
newer water treatment processes, including ozone and ultraviolet 
disinfection are very energy intensive. Advances in reducing the energy 
requirements for water treatment could result in significant cumulative 
energy savings throughout the country.
    Regarding the issue of water for energy, large quantities of water 
can be consumed in energy related activities such as thermal power 
plant cooling, fuel refining and oil and gas exploration and 
extraction. Any research that could result in new industrial processes 
that require less water would be beneficial by allowing the conserved 
water to be available for other critical purposes.
    Research by the federal government in the above areas could provide 
substantial benefits, especially to regions of the country where 
existing and new supplies of water are limited or constrained. 
Metropolitan would support such federal efforts.
                                 ______
                                 
     Responses of John D'Antonio to Questions From Senator Bingaman
    Question 1a. Water allocation and management are primarily a state 
and local responsibility. At the same time, with the number of water 
issues increasing, there seems to be a growing need for more federal 
assistance in this area.
    What is your sense of the role the Federal government should have 
in water management? What is the States' perspective on recent federal 
budgets for water resource programs?
    Answer. It is imperative that the federal government be a strong, 
committed partner in assisting state and local communities with current 
and future water supply challenges. Recent federal budgets have not 
kept pace with the urgent water resources challenges faced by state and 
federal water managers, especially in the western United States. S.2156 
would provide the financial assistance to non-federal entities for 
water use efficiency improvements, enhanced spending authority for USGS 
stream-gauging activities, a ground water monitoring system, brackish 
water study, new methods to estimate and measure water use, a new water 
use and availability assessment, establishment of intra-governmental 
panel on climate change and water resources, a Reclamation Climate 
Change Adaptation Program, and a hydroelectric power assessment given 
the potential effects of climate change.
    S.2156 authorizes a National Water Use and Availability Assessment 
Program. The Secretary of Interior, acting through the USGS and in 
coordination with state and local water resource agencies, is to 
undertake a program to provide better information on water resources 
and identify trends in use and availability, as well as help forecast 
water availability for future economic, energy production and 
environmental needs. The USGS is also to maintain a national inventory 
on water, and provide grants to states to enable locally generated data 
to be integrated with national datasets. Using federal grants and state 
cost sharing, this essential partnership will develop and integrate 
water use and availability datasets into a comprehensive database and 
can serve as the basis for sound decision making.
    I would like to highlight one technology of growing importance in 
many western states that presently has the capability to provide 
critical information on ground water withdrawals, agricultural and 
other outdoor water uses, evapotranspiration rates and consumptive 
uses. The USGS and National Aeronautics and Space Administration (NASA) 
now jointly operate a system of earth observation satellites that 
include a thermal infrared (TIR) sensor on Landsat 5 and Landsat 7, 
which are over due for replacement. Data from this sensor is now used 
by western states (and others) to measure and monitor 
evapotranspiration and consumptive uses from irrigated areas (and other 
land cover) by calculating the ``residual'' energy balance. The Landsat 
Data Continuity Mission (LDCM), under NASA's Earth Sciences 
Directorate, currently has scheduled the launch of Landsat 8 for 2011. 
Once in orbit, NASA will turn over satellite operations and data 
management to USGS. However, NASA's FY 2008 budget did not include 
funding for a TIR instrument, and without immediate action by the 
Congress, this important tool could be lost for the foreseeable future.
    Question 1b. In your view, does the SECURE Water Act respect state 
primacy over water rights while properly addressing a federal role that 
will help address water resource issues?
    Answer. Yes, we appreciate the explicit recognition that ``. . . 
States bear the primary responsibility and authority for managing the 
water resources of the United States'' and that ``the Federal 
Government should support the States, as well as regional, local and 
tribal governments . . .''. We appreciate the many provisions in the 
bill requiring federal agencies to consult and coordinate with the 
applicable state water resource agency with jurisdiction. The savings 
clause is also important which states that: ``Nothing in this Act 
preempts or affects any--(A) State water law; or (B) interstate compact 
governing water.'' So is the requirement that the Secretary comply with 
applicable State water laws.
    Question 2. Some of the impacts of climate change on water 
resources are pretty well understood, such as reduced snow-pack, 
earlier runoff, and increased evaporation.
    Are the Western States actively dealing with these impacts, either 
individually or collectively, or is more information still needed to 
better understand the specific impacts and to be able to tailor 
solutions to identified areas of concern?
    Answer. The Western States Water Council has consulted with its 
member states and it is evident that there is not sufficient 
information available to provide a comprehensive and firm foundation 
for future decision making. Presently, western states water planning 
capabilities vary widely from state to state, particularly as it 
relates to estimating future water uses and needs.
    Changes in climate variability due to warming temperatures in the 
West has the potential to upset the current balance achieved through 
the storage of seasonal surpluses. The Congress should fund research 
for improving the predictive capabilities for climate change, and 
assessment and mitigation of its impacts. Based on the complex 
climatology in the West, it is important that climate change modeling 
be conducted at a much finer resolution such as at the watershed and 
sub-watershed level. Also, it is unclear how temperatures affect summer 
monsoonal activity in several western states and efforts should be made 
to focus on vulnerabilities and building increased resiliency to 
climate extremes.
     Responses of John D'Antonio to Questions From Senator Domenici
    Question 1. Do you believe that the inter-agency coordination 
required in the bill will help achieve federal coordination of water 
resources research?
    Answer. Yes, interagency coordination will greatly enhance the cost 
effectiveness of the necessary water resources research and avoid the 
potential duplication of efforts that would likely occur under a non-
coordinated approach. The bill specifies how the Secretary of Interior 
will interact through the USGS and the USBR in coordination with state 
and local water resource agencies and promote the development and 
integration of locally generated data with national datasets. The 
efforts will include the expansion of the USGS' National Streamflow 
Information Program (NSIP), the implementation of a systematic national 
ground water resources monitoring program for major aquifer systems in 
the U.S. to identify significant brackish aquifers that could use 
desalination technologies as an important alternate source of supply. 
Also, the Secretary shall establish a Reclamation Climate Change 
Adaptation Program and a Climate Change and Water Intra-Governmental 
(I-G) Panel to assess risk of climate change to water resources and to 
review the science on climate change and water, and develop ways to 
better forecast impacts.
    The bill also mandates a Hydroelectric Power Assessment and directs 
the Secretary of Energy, in consultation with the federal Power 
Marketing Administrations (PMAs), and other federal and state agencies, 
to assess the effects of climate change on the water available for 
facilities producing hydropower marketed by the PMAs.
    The USGS and National Aeronautics and Space Administration (NASA) 
now jointly operate a system of earth observation satellites that 
include a thermal infrared (TIR) sensor on Landsat 5 and Landsat 7, 
which are over due for replacement. Data from this sensor is now used 
by western states (and others) to measure and monitor 
evapotranspiration and consumptive uses from irrigated areas (and other 
land cover) by calculating the ``residual'' energy balance. The Landsat 
Data Continuity Mission (LDCM), under NASA's Earth Sciences 
Directorate, currently has scheduled the launch of Landsat 8 for 2011. 
Once in orbit, NASA will turn over satellite operations and data 
management to USGS. However, NASA's FY 2008 budget did not include 
funding for a TIR instrument, and without immediate action by the 
Congress, this important tool could be lost for the foreseeable future.
    Question 2. Please describe the type of water assessments you would 
undertake if grants were provided to State water resource agencies.
    Answer. The Office of the State Engineer (OSE), the New Mexico 
Interstate Stream Commission (ISC) and the New Mexico Bureau of Geology 
and Mineral Resources through (NMBGMR) will work in coordination with 
the U.S. Geological Survey (USGS) to undertake a program to provide 
better information on water resources and identify trends in use and 
availability, as well as help forecast water availability for future 
economic, energy production and environmental needs. State agencies 
will help integrate locally generated data with national datasets 
compiled by the USGS and other federal agencies to update and maintain 
a national inventory of water resource information.
    The OSE, ISC, NMBGMR and New Mexico Environment Department (NMED) 
will assist the USGS with implementing a systematic national ground 
water resources monitoring program for major aquifer systems that 
extend into New Mexico. It has become increasingly evident that there 
is not sufficient ground water data available, both quantity and 
quality, to support all the administrative actions (at the state and 
local levels) needed to understand and effectively manage ground and 
surface waters conjunctively. Many wells are not metered, and 
increasing ground water development is having a significant impact on 
surface water resources in some areas. The OSE will continue to 
actively pursue metering and measuring of water use in seven key basins 
under our Active Water Resource Management initiative.
    More and more often, the use of waters of impaired quality, such as 
brackish ground waters, offer an effective alternative to the 
development of surface water supplies and their transport over long 
distances. Federal grants to the State's water resource agencies would 
allow state and local entities to work with the USGSS to conduct 
assessments identifying significant brackish aquifers. Desalination of 
brackish ground water and other impaired waters promises to be an 
important alternate source of supply for some uses and users.
    Under federal grants, state agencies could enter into cooperative 
agreements to help conserve water, increase water use efficiency, 
facilitate water markets, enhance water management or carry out similar 
activities in any watershed with a Reclamation project nexus or to 
address water use efficiencies, drought, and climate-related impacts to 
water supplies.
    Question 3. Please describe the States that have the most complete 
understanding of their groundwater resources. What are these States 
doing to better understand this important water resource?
    Answer. It is difficult to address which states have the most 
complete understanding of their groundwater resources. In my experience 
in attending Association of Western State Engineer and Western State 
Water Council meetings, it seems that the vast majority of western 
states are having extreme difficulty in managing their surface and 
groundwater together. As is evident by all of the past and current 
interstate litigation between states, the effect of groundwater 
withdrawals on surface water supplies has had deleterious effects on 
compact deliveries to neighboring states. Resulting damages as a result 
of these interstate lawsuits is in the hundreds of millions of dollars. 
A better understanding of how to conjunctively manage groundwater and 
surface water would greatly reduce these interstate conflicts.
    Question 4. Do you believe anything in this legislation would lead 
to the federalization of State water rights?
    Answer. No, as the legislation has been drafted we appreciate the 
explicit recognition that ``. . . States bear the primary 
responsibility and authority for managing the water resources of the 
United States'' and that ``the Federal Government should support the 
States, as well as regional, local and tribal governments . . .''. We 
appreciate the many provisions in the bill requiring federal agencies 
to consult and coordinate with the applicable state water resource 
agency with jurisdiction. The savings clause is also important which 
states that: ``Nothing in this Act preempts or affects any--(A) State 
water law; or (B) interstate compact governing water.'' So is the 
requirement that the Secretary comply with applicable State water laws.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

          Questions for Robert M. Hirsch From Senator Bingaman
    Question 1a. Your testimony sends mixed signals. It expresses 
support for the SECURE Water Act's goals, but then expresses concern 
because many of the activities called for in the bill are not in the 
President's budget.
    At present budget levels, will Reclamation and USGS be able to 
carry-out the objectives of this bill, such as effectively responding 
to the water challenges posed by climate change, increasing water use 
efficiency, substantially increasing the National Streamflow 
Information Program, expanding groundwater monitoring, and implementing 
a comprehensive national water census?
    Question 1b. Will Reclamation be able to continue the Water 2025 
grant programs without the long-term authority provided by the SECURE 
Water Act?
    Question 2a. It's my understanding that a fundamental purpose of 
the National Streamflow Information Program (NSIP) was to create a base 
nationwide streamgage network that would be 100% federally-funded. The 
SECURE Water Act is intended to implement NSIP as originally 
envisioned, including its current goal of establishing 4,700 monitored 
sites, which the bill requires to be done within the next 10 years. 
Your written testimony, however, states that the streamgages under the 
NSIP program should be cost-shared, rather than federally-funded.
    Does your testimony represent a change in the structure of the NSIP 
program and its purpose of having a base network designed to meet 
federal science objectives?
    Question 2b. As a follow-up--is the current NSIP network stable and 
functioning as intended, or does the system need to be updated with new 
equipment and technology?
    Question 2c. Is there anything in the SECURE Water Act that would 
alter the existing cooperative water program under which USGS also 
installs and maintains streamgages?
    Question 3a. Bob Hirsch, USGS--Earlier this year, USGS indicated 
there was general agreement among climate models projecting a long-term 
drying trend in the Southwest. Subsequently, an August 2007 report 
noted that current climate models predict a decrease of 15-20% in 
precipitation during the 21st century in the Upper Colorado River 
Basin. Under these models, the Colorado River Compact and U.S. water 
treaties with Mexico will be met only 60% of the time by 2070. In New 
Mexico, a report was recently released predicting a 12-33% decline in 
surface water availability in the Rio Grande basin over the next 20 to 
70 years.
    What current degree of confidence exists in these projections?
    Question 3b. Can the accuracy of the projections be improved by the 
actions called for in this bill? If so, what are the most important 
steps that need to be taken?
    Question 4a. The National Ground Water Association's testimony 
raises questions about whether states are adequately monitoring water 
resources to help compile a national assessment of water availability.
    Does USGS have a similar concern? If so, how long do you think it 
will take to establish the monitoring necessary to accurately assess 
long-term water availability in this country?
    Question 4b. What does USGS expect to learn from a national water 
census? Who will use that information and for what purposes? Will it 
help avoid water conflicts?
          Questions for Robert M. Hirsch From Senator Domenici
    Question 1. You indicate that much of the Secure Water Act can be 
done under existing authorities. Will you please provide the Committee 
with these existing authorities and how you have used them in the past, 
and will use them in the future?
    Question 2. Please describe the current Federal interagency 
process, identified in your written testimony, to develop comprehensive 
approaches to water planning and management throughout the United 
States.
    Question 3. Please describe the non-federal entities you are 
working with on climate change and the type of research currently being 
undertaken.
    Question 4. Has the Department of the Interior created an 
intergovernmental panel, similar to the interagency Climate Change 
Science Program, to address the water needs for energy production?
    Question 5. Please describe the current research that the 
Subcommittee on Ground Water is undertaking. How much of the research 
is being done by outside groups?
    Question 6. Please describe the effort being undertaken in the 
Great Lakes Basin to assess how much water is in the region now, how 
the region is using water, how water availability is changing, and how 
much water the region can expect to have in the future. In addition, 
please describe the opportunities and challenges that have resulted 
from the study, and whether this pilot program can be replicated 
elsewhere.
          Questions for Robert M. Hirsch From Senator Salazar
    Question 1. Mr. Hirsch, I am aware of the Landsat Data Continuity 
Mission program jointly managed by NASA and USGS. Currently, the 
thermal infrared sensor that is so important to providing data to water 
managers is not budgeted to be included in Landsat 8. Can you discuss 
USGS's use of the data from the thermal infrared sensor, and the 
importance USGS places on the continuity of this data?
    Question 2. Mr. Hirsch, the USGS is one of the participating 
federal agencies in the U.S. Climate Change Program that is conducting 
research on climate change, including impacts on water. Do you have any 
recommendations for ensuring coordination between the work the U.S. 
Climate Change Program is doing and the Climate Change and Water Intra-
Governmental Panel the SECURE Water Act proposes to establish?
                                 ______
                                 
           Questions for Robert Johnson From Senator Bingaman
    Question 1a. Your testimony sends mixed signals. It expresses 
support for the SECURE Water Act's goals, but then expresses concern 
because many of the activities called for in the bill are not in the 
President's budget.
    At present budget levels, will Reclamation and USGS be able to 
carry-out the objectives of this bill, such as effectively responding 
to the water challenges posed by climate change, increasing water use 
efficiency, substantially increasing the National Streamflow 
Information Program, expanding groundwater monitoring, and implementing 
a comprehensive national water census?
    Question 1b. Will Reclamation be able to continue the Water 2025 
grant programs without the long-term authority provided by the SECURE 
Water Act?
    Question 2a. Reclamation's Water 2025 program has been funded on a 
year-to-year basis through the annual appropriations process.
    Has the demand for grants under the program exceeded the annual 
amounts so far available? Can you provide for the record an estimate of 
the average annual demand for federal funding under the program over 
the last several years?
    Question 2b. Has the program been implemented in a manner that 
gives priority to projects that will help minimize or reduce water-
related conflicts? Are grants coordinated on a watershed basis to 
leverage the maximum benefits for both water users and environmental 
needs?
    Question 2c. Could you please summarize the grants or other 
financial assistance provided under the Water 2025 program since it was 
initiated? What are the benefits of the program?
    Question 3. One of the purposes of the SECURE Water Act is to 
ensure that water managers and the scientific community are working 
together to avoid water-related crises to the extent possible. Question 
4 outlined some of the dire predictions currently out there with 
respect to water supply in the West.
    Is Reclamation currently using this information to engage in long-
term planning in the affected river basins? What needs to be done to 
make this information more applicable for water managers?
    Question 4. Testimony by the Nature Conservancy indicates that 
there is a tremendous volume of reservoir space available behind 
existing dams because that space is reserved to capture incoming floods 
and protect downstream structures. If those structures were removed and 
some amount of the natural floodplain could be restored, then the 
reservoir space could possibly be used to meet water user and 
environmental needs.
    Has Reclamation studied this possibility as it applies to its 
facilities? Do you agree that the potential exists to secure the use of 
existing reservoir space if some floodplain restoration were 
undertaken?
           Questions for Robert Johnson from Senator Domenici
    Question 1. You indicate that much of the Secure Water Act can be 
done under existing authorities. Will you please provide the Committee 
with these existing authorities and how you have used them in the past, 
and will use them in the future?
    Question 2. Please describe the current Federal interagency 
process, identified in your written testimony, to develop comprehensive 
approaches to water planning and management throughout the United 
States.
    Question 3. Please describe the non-federal entities you are 
working with on climate change and the type of research currently being 
undertaken.
    Question 4. Has the Department of the Interior created an 
intergovernmental panel, similar to the interagency Climate Change 
Science Program, to address the water needs for energy production?
    Question 5. Please describe the current research that the 
Subcommittee on Ground Water is undertaking. How much of the research 
is being done by outside groups?
    Question 6. Please describe the effort being undertaken in the 
Great Lakes Basin to assess how much water is in the region now, how 
the region is using water, how water availability is changing, and how 
much water the region can expect to have in the future. In addition, 
please describe the opportunities and challenges that have resulted 
from the study, and whether this pilot program can be replicated 
elsewhere.
           Questions for Robert Johnson From Senator Salazar
    Question 1. Many of the Bureau of Reclamation water projects in the 
West are nearing a century in age, and badly in need of repair. More 
than 300 dams in Colorado are classified as high hazard dams meaning 
the loss of human life is expected in the event of dam failure. Forty 
five of these high hazard dams are owned by the Bureau of Reclamation.
    The SECURE Water Act would authorize grants to provide financial 
assistance to States, Tribes, & local entities to construct 
improvements or take actions to address drought, climate change, or 
other water-related crises. Do you foresee opportunities to 
simultaneously address drought/climate change issues and high hazard 
dams?
    Question 2. In your's and Mr. Hirsch's testimony, you discuss a 
review of the National Streamflow Information Program which has been 
conducted. Can you tell describe the results of that review in terms of 
the need for additional streamflow stations? Can you also describe the 
cost-share arrangements you have with State and local governments when 
new streamgages are added?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

      Statement of the Western Coalition of Arid States (WESTCAS)
    The Western Coalition of Arid States (WESTCAS) offers the following 
statement regarding our support and recommendations regarding the 
Senate Energy and Natural Resources Committee hearing on S. 2156, the 
SECURE Water Act.
    WESTCAS is a coalition of approximately 125 water and wastewater 
districts, cities and towns and water resource professionals focused on 
water quality and water quantity issues in the states of Arizona, 
California, Colorado, Idaho, Nevada, New Mexico, Oregon and Texas. 
Established in 1992, our vision has been to ensure sustainable water 
quality and quantity in the arid West. Our mission has been to work 
with state, regional, and federal water quality and quantity agencies 
to promote scientifically-sound laws, regulations, funding, and 
policies that protect the public health and the environment in the arid 
West.
    The Southwestern United States is the fastest growing region in the 
country, with a 100% + population growth increase projection for 
Arizona and Nevada by 2030, and nearly 60% increase in Utah and Texas, 
and yet most areas in these states have suffered multiyear droughts 
over the last decade. This rapid growth projection, along with the 
consequences of a changing climate, requires communities to have a 
diverse water supply portfolio; and new approaches to creating higher 
quality sources of water supply need to be undertaken to meet the 
region's essential needs. Not unlike the arid West, there is already 
recognition that new water conservation skills will be critical for 
each region of the country to manage their water resources properly, as 
highlighted by the recent events in the Southeast.
    The issue of climate change is global in nature but, for our 
purposes, national in scope and not just limited to the West. WESTCAS 
is supportive of addressing water quality and quantity problems in the 
East, Southeast, and other regions, but we deserve reciprocity in 
having our unique resource challenges met in a responsible fashion. 
Though much has been done on the issue of climate change in terms of 
broad research, we believe in the need to approach the issue in terms 
of practical preparedness in a comprehensive manner. This includes: 
water resources and the related issues of energy generation and use, 
sustainable agriculture, environmental conservation, public health and 
safety, and national security. In this context, we must highlight our 
concern that the federal government is inadequately addressing funding 
upgrades to existing water infrastructure, and is not focusing on 
federal agency outreach/coordination programs for at-risk sectors. 
These elements are necessary and vital adaptations in any national, 
climate change mitigation strategy.
    Preparedness can be a strong cornerstone for such a strategy. In 
our view, what is missing is a nationwide approach where state and 
local governments, the private sector, non-governmental entities with 
expertise in the subject area, and the incubators of new deas (i.e. the 
university system), become part a national dialogue and national plan 
for addressing these pressing concerns.
    WESTCAS supports the SECURE Water Act, and in particular one of the 
principles behind the SECURE Water Act that mandates routine reports to 
Congress on the effect of climate change on water resources and the 
quantity of brackish water within the United States. We believe that 
collection and reporting of independent scientific data, free of 
political posture, should be the basis for such policies and program 
development. Investing in more robust data collection, monitoring 
efforts, and modeling is important if we are to engage in the business 
of proper planning and making decisions which impact (what some refer 
to as) the triple bottom line: the economic, environmental and social 
agendas of this country. As such, the SECURE Water Act provides federal 
requirements to monitor and manage limited water resources to ensure 
adequate supplies for the future, and this is important if we are to 
convene a national strategy for addressing climate change as an issue 
that can be reconciled with population growth.
    Although we support the proposed legislation, WESTCAS poses the 
following question regarding the expected direction to the Bureau of 
Reclamation to initiate a climate change adaptation program to develop 
strategies and conduct feasibility studies to address water shortages, 
conflicts, and other impacts to water users and the environment. 
Although WESTCAS is a historical and ardent supporter of the Bureau of 
Reclamation, we raise the question of whether the Bureau of 
Reclamation, at the present time, is the best federal agency to carry 
out such a mission, i.e. should the new mission go to another federal 
agency? Although we have been impressed with the Bureau's recent effort 
on the Modeling of the Boise Reservoir System with Climate Change, we 
wonder if the Bureau resources are being over-taxed, considering their 
massive backlog of authorized projects. Although, we can envision that 
with adequate Congressional funding and a serious commitment by the 
Bureau, when the backlog of work in their Construction Program is 
addressed, that they could play a positive role in the future of this 
key undertaking.
    In posing this question regarding which federal agency is best to 
lead this proposed initiative, WESTCAS draws your attention to specific 
information that provokes our question on this issue, which can be 
found in the Bureau of Reclamation budget, through their Science and 
Technology program, which is currently funded at less than $10 million 
dollars. When you examine the Bureau's Water Conservation Field 
Services program you see only $6 million and less than $1.5 million for 
Emergency Planning and Disaster Response. The Bureau of Reclamation's 
Water Investigations program ranges from the thousands to a couple of 
hundred thousand, and is not even active in every state of the arid 
West. Even more to the point, in 1997 a document was produced by the 
Western Water Policy Review Commission, which included numerous 
recommendations and studies that the Bureau could have taken advantage 
of in order to address the new mission that this legislation is now 
proposing. Instead, the Bureau embarked on their own initiative called 
Water 2025 which offered no scientific basis for their decisions, as to 
where to provide minimal `seed' money for projects--that do not even 
relate to a larger strategic plan as envisioned by the SECURE Water 
Act.
    Although it is not our intent to appear critical, the Bureau is 
facing two other issues that raise this ``best agency'' question 
regarding the assignment of carrying out this proposed new mission. The 
first, the aging of its infrastructure, has hopefully been addressed by 
the last Congress with the passage of the Rural Water Supply 
legislation and the 21st Century Water Works Act, though we note the 
delays by the Bureau to advance the guidelines for this new effort. Of 
additional concern is the Bureau's increased funding of their Operation 
and Maintenance program; this is the first year it has exceeded the 
budget for their Construction program. In our view, this has important 
ramifications for the Bureau's undertaking of new missions.
    The downsizing of the Bureau's staff also has implications for 
their engaging in new program work. The Bureau has been engaged in a 
`Managing For Excellence' effort for the past two years, and like many 
other federal agencies, there are a large percentage of employees who 
are now eligible to retire. This retirement pool represents a huge 
institutional knowledge base, especially with regard to the unique 
character of the West. This, too, will have an impact on the Bureau's 
ability to perform additional new work in the future.
    On a more positive note, WESTCAS participated in an effort--the 
Invest In the West Campaign--several years ago to increase the budget 
of the Bureau of Reclamation, which had been chronically under-funded. 
Thankfully, Congress recognized the need and through its leadership, 
the budget was increased several hundred million dollars over several 
years. Still, our WESTCAS members, particularly those in California, 
have been concerned with the on-going lack of funding for the backlog 
of the authorized projects within the Bureau's Title 16 Water Reuse and 
Reclamation Program. With over $300 million needed, (and more 
authorizations pending in this Congress) these new `rivers' of water 
are the future supplies for many in the West, and play an important 
role in addressing the conditions of future climate change. Reuse 
projects represent one of the most cost-effective approaches to meeting 
new water needs throughout the United States; WESTCAS would be pleased 
to work with Committee Members and their staffs on funding strategies 
to reduce the Bureau's Title 16 backlog.
    Legislation for greater research and technology development that 
promotes additional water reuse is also needed. In addition, we urge a 
federal agency education program aimed towards community acceptance of 
water reuse -in partnership with the local project developer-along the 
lines of the need for, and the benefits of, this technology. Especially 
in the arid West, recycling and reuse of finite water supplies is 
undoubtedly one of the major elements of adaptive management strategies 
in the face of the impacts of long-term drought and climate change and 
the burgeoning population growth.
    We know the U.S. Army Corps of Engineers is not under the 
jurisdiction of your Committee. However, the recently passed and 
enacted Water Resources Development Act (WRDA) for the Corps provides a 
model that should be considered on a national scale for water resource 
planning at the state level--the unstated purpose inherent in the 
proposed language of S. 2156. A recent report that we are familiar with 
indicated that, in the West, ten states have developed State Water 
Plans, three rely on annual reports, and four rely on so-called 
strategic plans for their water resources planning. The WRDA 
legislation, which WESTCAS supported, authorizes Statewide 
Comprehensive Water Planning for Oklahoma in Section 5119 of the Act, a 
section that should be applied nationwide. What is most important is 
the authorized technical assistance. This provides for the Secretary of 
the Army to assist in: 1) acquisition of hydrologic data, groundwater 
characterization, database development, and data distribution; 2) 
expansion of surface water and groundwater monitoring networks; 3) 
assessment of existing water resources; 4) numerical analysis and 
modeling necessary to provide an integrated understanding of water 
resources and water management options; 5) participation in state 
planning forums and planning groups; 6) coordination of federal water 
management planning efforts; and 7) technical review of data, models, 
planning scenarios, and water plans developed by states. There is $6.5 
million authorized at a twenty-five percent cost-share. We see this 
approach as the future, and it should be applied nation-wide.
    The Texas members of WESTCAS have undertaken in their state, along 
with others throughout state and local government, the development of a 
new State Water Plan. That effort will be materially aided by the 
tremendous water resource planning expertise of the U.S. Army Corps of 
Engineers and the modeling capabilities within the organization, which 
is second to none. The Corps' budget far exceeds the U.S. Bureau of 
Reclamation's, and they are nationwide in scope. We strongly encourage 
a more pivotal role for the U.S. Army Corps of Engineers in this new 
legislation, i.e. S.2156.
    WESTCAS supports the proposed roles and responsibilities for the 
USGS in the SECURE Water Act. We have been supportive of the USGS 
Stream Flow Information Program, and have worked to see that it has 
been adequately funded as a consequence of the cooperator partnerships 
that many of our members have undertaken as a result of the program. 
The inclusion of the USGS in this effort, given their scientific 
credibility and expertise, will be quite beneficial (as demonstrated 
later in our testimony) to water resource practitioners at the state 
and local level who are now challenged to address the climate change 
issue.
    We have been impressed with the modeling efforts of the USGS and we 
also recognize how much they have done with so small a budget 
allocation for that effort. The recent announcement of the 
Instantaneous Data Archive (IDA) website will be extremely valuable for 
local and state water planners and the engineering community involved 
in hydrologic analysis. This points to the importance of the stream-
gauging program being appropriately funded over the years. In addition, 
the recent USGS Circular Water Budget: Foundations for Effective Water-
Resources and Environmental Management will ultimately prove to be a 
valuable tool in helping the public and elected decision-makers 
formulate better policies in the water resources arena.
    An area of some concern for WESTCAS is how S. 2156 will be 
integrated with other Climate and Energy legislation currently before 
Congress. There are other climate adaptation programs, provisions for 
national water policy commissions, provisions for other studies to take 
place, and studies that have been previously authorized that have yet 
to yield results. In addition, there are new provisions in the Farm 
Bill legislation before Congress that promise also to be beneficial in 
this field. In addition, we believe there would be value in federal 
water agencies providing the Committee Members and staffers with a 
historical overview of what has been previously funded under loans, 
grants and cooperative agreements over the past ten years, so that 
future financial resources are well-directed. In addition, there is 
language in current legislation for recovery efforts on the Platte 
River--regarding water and land--that is being considered in the 
definition of an in-kind contribution. We believe, in these tight 
budgetary times at the state and local level, that serious 
consideration ought to be given to this concept.
    The Energy and Natural Resources Committee has jurisdiction of the 
Department of Energy and the National Laboratories. Several WESTCAS 
members in New Mexico and California have experience with National 
Laboratory involvement in water resource issues, such as the 
hydrogeologic and technical assistance work in the Espanola Basin in 
New Mexico, and perchlorate research in California. One of the issues 
regarding Laboratory contributions to water resource problem-solving is 
always the cost-of-services for such expertise, and limited access to 
Laboratory expertise. Although the National Laboratories have a ``work 
for others'' program, the bureaucratic requirements often impede its 
successful utilization. In addition, the lack of a Department of Energy 
(DOE) Water Program creates a barrier to Laboratory involvement in 
water resource initiatives due to such work being viewed in variance 
with current DOE missions. We would encourage the Committee to consider 
how to bring these talented and valuable scientific resources to the 
table so that state and local water resource planners and managers 
could more readily benefit from these institutions and their Federal 
funding.
    The expertise the National Laboratories possess with regard to 
science, engineering, computational modeling, basic research, and the 
development of new technologies adds an important new dimension to 
cutting edge solutions in the national water resource arena. We feel 
that all the National Laboratory expertise in both the energy and 
national security areas (that are being addressed by this legislation) 
can help bring a more holistic approach to all our efforts.
    Finally, we would suggest that with regard to the Water 
Intergovernmental Panel created under Section 7, that the Secretary of 
Energy and EPA Administrator be added. It is important that both power 
and water quality issues be integrated into the Panel's efforts, as 
they are integrally linked with water quantity issues. We also 
appreciate the inclusion of the Secretary of Commerce through the 
Administrator of NOAA, especially given the work of the Climate 
Prediction Center in Boulder, Colorado and the National Weather 
Service's efforts with the development of the National Drought Monitor.
    The many members of WESTCAS thank you for considering our views. 
This hearing is an important first step in considering the issue of the 
nation's water resources within the context of global climate change. 
We would encourage the Committee to engage in field hearings throughout 
the West to better hear from those likely to be affected and those who 
are challenged to prepare for the region's changing water resources 
future.
    We look forward to the opportunity to work with the Committee as 
you move forward with this legislation.
                                 ______
                                 
                                           American Rivers,
                                 Washington, DC, December 21, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Domenici: On behalf of 
more than 65,000 members and supporters of American Rivers, I want to 
thank you for holding a hearing on S. 2156, the SECURE Water Act. This 
legislation is an important first step in addressing the effects that 
global climate change will have on our nation's rivers and other 
freshwater resources.
    Healthy rivers are vital to the health, safety, and quality of life 
of communities across the country. Many communities already face 
threats to their local rivers from population growth, unsustainable 
land use, inefficient agricultural and urban water use, poor dam 
operations, and unbridled resource extraction, among other factors. 
Climate change will likely exacerbate the impact of these threats on 
communities. In light of climate change, it is imperative that we 
protect and maintain healthy watersheds, restore damaged rivers and 
floodplains, and begin to manage our water resources and existing water 
infrastructure more efficiently. These actions will help maintain and 
improve the condition of our nation's rivers even in the face of 
climate change and other pressures. At the same time, they will provide 
more cost-effective and sustainable ways to meet the needs of 
communities and agriculture, including providing water for drinking. 
boating, fishing, irrigation. and for wildlife.
    S. 2156, the SECURE Water Act, will expand our knowledge of the 
nation's water supplies--especially in the western United States--so 
that water resources can be managed in an intelligent and efficient 
manner in the face of global warming. Wisely, the SECURE Water Act does 
not hold out new surface storage as the primary tool for meeting future 
water needs, instead including it as one tool among many. This is the 
right approach, as building new surface storage projects can be 
prohibitively expensive, is often environmentally damaging, and may be 
less effective than alternatives.
    As the Committee further refines the provisions of the bill 
relating to water management tools, we urge consideration and 
incorporation of the following water supply principles throughout the 
bill.

          1) Demand for water should be addressed using the most cost-
        effective tools that maximize environmental benefit, minimize 
        environmental harm, and can be readily adapted to meet changing 
        circumstances;
          2) The full range of credible alternatives for meeting 
        demonstrated water demand should be evaluated;
          3) An accurate assessment of current and future water supply 
        tools (including demand-side management such as conservation) 
        and future water demand should precede any commitment to build 
        a water supply project;
          4) Beneficiaries of water supply projects should pay project 
        costs; and
          5) Public involvement should be a priority during each stage 
        of evaluating a new water supply project.

    In addition to offering these general principles, we urge the 
Committee to make several changes to the text of the bill to help 
better realize its purpose of improving water management. The following 
recommendations are offered to ensure that future water and dam 
management strategies are cost-effective, enjoy widespread support, and 
result in minimal harm and maximum benefit for rivers, river 
ecosystems, and communities that depend on healthy rivers.
    Where possible, we propose specific changes to the bill's language. 
In other places, we flag questions or concerns we have with the 
existing language. We look forward to continuing discussions with the 
Committee on how best to craft the bill to ensure that it results in 
sound management and stewardship of our freshwater resources and 
ecosystems.
                          recommended changes
    Section 2. Findings
    Sec. 2(6)(b)(ii)-This section is unclear as to the definition of 
``reclaimed.'' This section could be struck; the previous section (Sec. 
2(6)(b)(i) on efficient management and use of water resources 
adequately describes why the information developed by the SECURE Water 
Act will be helpful.

    Section 4. Climate Change Adaptation Program.
    Sec. 4(b)(3)(C)-change to ``recreation upstream and downstream of 
reclamation facilities''
    Sec. 4(b)(3)(G)-add subsection ``environmental flow needs of 
freshwater ecosystems.''
    Sec. 4(b)(4)-While consultation with ``non-Federal participants'' 
is appropriate, that consultation should always include states and 
affected tribes in order to ensure broad public support. As such, we 
recommend revising this language to read ``in consultation with states, 
affected tribes, and other appropriate non-Federal participants...'' 
This broad consultation requirement may be unnecessary for lower 
impact, less costly projects such as habitat restoration, but since 
this subsection lumps together evaluation of potentially small scale 
projects such as restoration or conservation with large projects such 
as new surface storage, broad consultation is necessary. Alternatively, 
this subsection could separate large and small projects and subject 
them to different levels of consultation and scrutiny.
    Sec. 4 (b)(4)(C)-change to ``water conservation and efficiency, 
including demand reduction strategies.''
    Sec. 4(b)(4)(E)--Add subsections (F) ``water markets'' and (G) 
``enforcement of state water laws.''
    Sec. 4(c)(3)-Strike ``and implemented.'' Implementation of these 
strategies is premature at best until the feasibility study process 
described in Section 4(d) is complete.
    Sec. 4 (d)(1)-The relationship of the ``feasibility studies'' in 
this section to the National Environmental Policy Act and Bureau of 
Reclamation Feasibility Study process is unclear. This language should 
be clarified to make its relationship to existing law clearer--perhaps 
the term ``feasibility studies'' could be changed to ``pre-
feasibility'' studies in order to avoid confusion with existing law.
    In addition, the Committee should ensure that projects with a 
significant environmental impact are subjected to cost-effectiveness/
cost-benefit and alternatives analyses. It is important to avoid 
institutionalizing the assumption that the construction of major new 
infrastructure, such as a water storage dam, is the only way to meet an 
identified water need. In addition, this section should require the 
non-Federal participant to conduct the study in cooperation with 
affected state and tribal governments--otherwise, there will be a 
higher risk that federal resources will be spent studying and possibly 
constructing unnecessary, environmentally harmful projects backed by 
narrow interests. We look forward to further discussions with the 
Committee to refine the language in Sec. 4(d)(1).

    Sec. 5. Water Management Improvement
    This section does not include a vetting process for the project 
applications it will solicit, and grants may be given to eligible 
applicants with no evidence that the project is a feasible, 
environmentally sound, or cost-effective way to deal with water 
resource challenges from climate change or that the project has broad 
support. We suggest that this entire section be deleted unless it is 
tied to the climate change adaptation program in Section 4 including 
analyses of alternatives and cost-effectiveness, assuming the above 
concerns are addressed. In addition, should this section remain in 
place, states and any affected tribes should be required to partner in 
applying for a grant with non-sovereign ``eligible applicants'' in 
order to ensure the projects have broad public support and provide 
public benefit.

    Section 6. Hydroelectric Power Assessment We recommend that a 
subsection be added to Section 6 requiring a report be conducted on how 
climate change is expected to not only affect hydrology, but also 
ecologically healthy flows and fish and wildlife. The language, which 
could be appropriately plugged into existing subsection 6(c) as a new 
subsection 6(c)(1)(C):

          (i) how the Bureau of Reclamation and Power Marketing 
        Agencies expect to ensure the provision of ``ecologically 
        healthy flows'' in light of climate change, including:

                  I. how flood control rule curves could be safely 
                altered to help meet ecologically healthy flows; and
                  II. how any increase in flood risk from new flood 
                control rule curves could be addressed by changing land 
                use in floodplains downstream of dams

          (ii) Identifying, in consultation with the U.S. Fish and 
        Wildlife Service and NOAA Fisheries, constraints or limitations 
        on hydropower operations at Bureau of Reclamation projects 
        necessary to protect resident and diadromous fish and wildlife, 
        including species listed under the Endangered Species Act or 
        managed pursuant to tribal or international treaties.

    Sec. 6(a) should be changed to read ``...with respect to water 
supplies that are required for the generation of hydroelectric power 
and for the provision of ecologically healthy river flows at each 
Federal water project...''

    Section 8. Water Data Enhancement by United States Geological 
Survey
    Sec. 8(a)(4). We recommend that the number of sites measured under 
the national streamflow information program be increased sooner than 
the 10 years specified.

    Section 9. Water Use and Availability Assessment Program
    Sec. 9(d)(1) Add new subsection (we suggest a new subsection 
9(d)(1)(C), moving the other subsections around accordingly)-``to 
determine the proportion of streams in the United States that have 
ecologically healthy flows''
    All of us at American Rivers applaud the Committee for addressing 
this issue and for the opportunity to provide written testimony for the 
record. For our communities to continue to enjoy healthy rivers and the 
many health, economic, and quality of life benefits they provide, we 
must help ensure that rivers are protected and well-managed in the face 
of climate change and growing populations. We look forward to working 
with the committee on S. 2156 to identify and implement sustainable and 
cost-effective policies to protect our nation's water resources.
            Sincerely,
                                      Randall D. Snodgrass,
                      Vice President, Goverment Affairs & Outreach.
                                 ______
                                 
                               Environmental Working Group,
                                 Washington, DC, December 11, 2007.
    Dear Senator: In preparation for your hearing on the Science and 
Engineering to Comprehensively Understand and Responsibly Enhance Water 
Act (SECURE Water Act, S. 2156), the Environmental Working Group would 
like to provide you with some critical information on water subsidies 
to inform your decisions on water management for multiple uses. EWG 
urges you to ensure that federal subsidies are distributed to those 
truly in need of the funds and that the benefits of these programs flow 
to the public at large and not into the pockets of a few large farmers 
in the Westlands Water District and other large irrigation districts in 
the Central Valley Project.
    EWG has extensive expertise in analyzing and tracking water issues 
as they impact the West, with a particular focus on the largest 
taxpayer-funded federal irrigation system in the country, the Central 
Valley Project (CVP), and the Westlands Water District, in California. 
At a time when western water is scarce and expensive, taxpayers are 
subsidizing, at well over $500 million a year, a project that has led 
to a host of problems, including: inefficient use of water; devastation 
of fish and wildlife habitat; severe toxic pollution and the 
subsidization of artificially cheap irrigation water for large 
agribusiness operations at the expense of local communities.
    EWG's analyses of the Central Valley Project found:

  <bullet> Subsidies are distributed unfairly and are not benefiting 
        small family farms. In 2002, the largest 10 percent of the 
        farms got 67 percent of the water, for an average subsidy worth 
        up to $349,000 each. Twenty-seven large farms received 
        subsidies each worth $1 million or more at market rates, 
        compared to a median subsidy for all recipients of $7,076.\1\
---------------------------------------------------------------------------
    \1\ Environmental Working Group. 2004. California Water Subsidies. 
15 Dec 2004. Available online at: http://archive.ewg.org/reports/
Watersubsidies/.
---------------------------------------------------------------------------
  <bullet> Thousands of agribusinesses are double-and triple-dipping 
        from U.S. taxpayers' pockets. Agribusinesses receive water to 
        grow surplus crops that the government subsidizes a second time 
        with price supports. In 2002, almost one in five CVP farms 
        received water subsidies worth an estimated $121.5 million and 
        crop subsidy checks totaling another $122.3 million. Some 
        operations are triple dippers, receiving water subsidies to 
        grow corn, for which they receive crop subsidies, then feeding 
        the corn to cattle, who produce dairy products that are also 
        subsidized.
  <bullet> The rock-bottom rate the CVP charges agribusinesses for the 
        power neded to move water through the system amounts to an 
        energy subsidy worth more than $100 million a year, at the same 
        time that a volatile energy market has caused brownouts in the 
        state's major cities and spurred a push to build new power 
        plants.\2\
---------------------------------------------------------------------------
    \2\ Environmental Working Group. 2007. Power Drain. 29 May 2007. 
Available online at: http://www.ewg.org/reports/powersubsidies.
---------------------------------------------------------------------------
  <bullet> Massive water rerouting and pumping has severely impacted 
        area fish populations, bringing the fragile ecosystem of the 
        San Francisco Bay-San Joaquin Delta to the point of collapse. 
        Billions of dollars have already been spent trying to repair 
        ecosystem damage.\2\
  <bullet> Recipients of federally subsidized water often sell their 
        excess water to the state for environmental restoration, or to 
        local utilities at rates well above what they opaid for the 
        water.
  <bullet> Despite these economic, ecological, and equity concerns, the 
        federal government is poised to increase the amount of 
        taxpayer-subsidized irrigation water by 43 percent over the 
        next 25 years, well beyond what the state's infrastructure can 
        reliably supply, leading to pressure to build expensive new 
        dams and reservoirs, which in turn cause further environmental 
        damage.

    In fashioning future water proposals, EWG urges Congress to:

  <bullet> Encourage water and power conservation and fairness by 
        ensuring contracts are based on prices closer to their actual 
        market price.
  <bullet> Ensure that recipients of taxpayer-subsidized water are not 
        allowed to profit from resetting their unneeded water back to 
        governments or private utilities at elevated prices.
  <bullet> Prohibit double-and triple-dipping of subsidies for crops, 
        energy and water.

    We hope that you will find this information useful and look forward 
to working with you on developing water policies that protect our water 
and our communities. Thank you for your attention to this issue.
            Sincerely,
                                               Bill Walker,
                                  Vice President/West Coast Office.
                                 ______
                                 
Metropolitan Water District of Southern California,
                                          Executive Office,
                                 Los Angeles, CA, December 6, 2007.
Hon. Jeffrey Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, SD-304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Bingaman: I want to take this opportunity to thank 
you for including the Metropolitan Water District of Southern 
California as part of your Legislative Hearing next week on S. 2156. 
Although prior commitments in California prevent me from delivering 
MWD's testimony in person, I am pleased to inform you that Jon Lambeck, 
Metropolitan's Systems Operations Manager, will be presenting testimony 
on our behalf.
    Again, Metropolitan's Board and management greatly appreciates your 
leadership in moving forward with this important legislation and we 
look forward to providing you and your staff with any comments and/or 
resources that you may find useful in this regard.
            Sincerely,
                                       Jeffrey Kightlinger,
                                                   General Manager.
                                 ______
                                 
                      National Water Resources Association,
                                Los Angeles, CA, December 11, 2007.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, United States Senate, 
        Washington, DC.
    Dear Mr. Chairman: On behalf of the membership of the National 
Water Resources Association, I am writing to express our strong support 
for 5.2156, the SECURE Water Act.
    NWRA represents water and power users throughout the Western United 
States. We applaud your new initiative and look forward to working with 
you and the Committee to perfect this important legislation. In that 
regard, a regionally diverse task force of our members has reviewed 
S.2156 and provides the following recommendations for your 
consideration:

          1. Recognizing that this is an authorization bill and that 
        the Committee cannot obligate the Appropriations Committee, we 
        are concerned that expenditures under this authorization not 
        adversely impact annual appropriations for operations and 
        maintenance, projects and other Bureau of Reclamation programs.
          2. Integration of potential impacts of climate change into 
        supply scenarios is now a major feature of most Western water 
        districts long-term local and regional planning. We would 
        recommend that climate change be added to the findings section 
        of the bill.
          3. In the next decade, we believe, that one of the most 
        critical problems facing the Bureau of Reclamation and many 
        water districts throughout the West is maintaining the existing 
        water and power infrastructure at peak operational efficiency. 
        Currently, the Bureau of Reclamation does not have a program 
        which enables water users to modernize or rehabilitate their 
        projects and payoff those costs over time under reasonable 
        terms and conditions. The water supply and power infrastructure 
        build over the last century by the Bureau of Reclamation 
        remains vitally important to the West and the nation as a 
        whole. We would recommend that new and innovative federally-
        enhanced financing tools be established under S. 2156 to 
        address this critical need.
          4. In light of the potential impacts of climate change and 
        unprecedented population growth in the West, we would recommend 
        that the Bureau of Reclamation not only ``ensure the continued 
        existence of sufficient quantities of water'', but also be 
        directed to enhance water supplies in order to meet these 
        challenges.
          5. With regard to assessing the status of surface water and 
        groundwater resources in the United States, we believe it is 
        important to recognize the important work some states have 
        already accomplished. While some provisions in the bill only 
        require ``consultation and coordination'' with state and local 
        water resource agencies, we would recommend a stronger 
        relationship between the states and the federal agencies 
        through direct partnerships be promoted in the bill.
          6. The bill currently recognizes the importance of input from 
        water users and many other constituents; we would suggest the 
        inclusion of input from power marketing authority customers and 
        their associations.

    Again, NWRA strongly supports 5.2156 and stands ready to assist the 
Committee in any manner it deems appropriate. We deeply appreciate the 
opportunity to submit our recommendations and hope that the Committee 
finds them helpful.
            Respectfully submitted,
                                        Thomas F. Donnelly,
                                          Executive Vice President.
                                 ______
                                 
                              Western States Water Council,
                                    Midvale, UT, November 20, 2007.
Hon. Robert C. Byrd,
Chairman, Senate Appropriations Committee, United States Senate, The 
        Capitol, Room S-I31, Washington, DC.
    Dear Chairman Byrd: On behalf of the Western States Water Council, 
representing the governors of eighteen western states, I am writing to 
again reiterate and express our strong support for maintaining a 
thermal infrared (TIR) instrument on Landsat 8, as part of NASA's 
Landsat Data Continuity Mission (LDCM). Attached is a previous letter 
from the Western Governors' Association that also supports funding.
    NASA's recent LDCM ``Request for Offer'' to build the Landsat 8 
spacecraft (under the existing Rapid II contract) does not preclude the 
addition of a thermal instrument. The selected contractor will design, 
build, qualify the spacecraft and integrate the Government-furnished 
instruments. However, NASA has not requested or otherwise found funding 
to build the TIR instrument. It is estimated that a total of about $90 
million is needed for the TIR instrument, including $35 million now.
    The Senate Appropriations Committee has directed that NASA report 
as to how it intends to continue providing TIR data in the future, and 
eight Senator recently wrote the Administrator asking that NASA take 
immediate action to ensure this capability is not lost. A copy of that 
letter is attached.
    Given this congressional interest, NASA has left open the 
possibility for a TIR instrument to minimize the impact to LDCM 
development of adding the instrument to the satellite at a late stage 
in its development. While the instrument is included in the 
``preliminary design,'' without additional funding, Landsat 8 will be 
deployed without it. Adding TIR may delay deployment by an estimated 
eight months. However, losing this capability would seriously degrade 
our future ability to measure, monitor and manage our increasingly 
scare water resources, particularly during shortages, such as drought. 
It would also compromise our ability to observe changing 
evapotranspiration rates over large areas, due to increasing climate 
variability, at a scale useful to many decision-makers that will need 
to prepare and implement appropriate adaptation strategies.
    We would respectfully request that you support a specific provision 
in any CJS appropriation bill, any continuing resolution, or any 
supplemental FY 2008 appropriation to begin work immediately on a TIR 
instrument. Further, this should be a vital element in the FY 2009 CJS 
appropriations bill. Again, we urge you to take whatever steps are 
necessary to insure that our 25-year investment in Landsat thermal data 
is preserved and this increasingly valuable tool is not lost.
            Sincerely,
                                            Duane A. Smith,
                                                          Chairman.
                                 ______
                                 
                                                September 10, 2007.
Hon. Dirk Kempthorne,
Secretary of the Interior, U.S. Department of the Interior, 1849 C 
        Street, NW., Washington, DC.
Hon. James A. Nussle,
Director, Office of Management & Budget, Eisenhower Executive Building, 
        Washington, DC.
Regarding: STREAMGAGE SUPPORT IN FY-2009

    Dear Secretary Kempthorne and Director Nussie: The undersigned 
organizations support the US Geological Survey's Cooperative Water 
Program (CWP) and National Streamflow Information Program (NSIP) and 
urge your support for full implementation of the NSIP beginning in FY-
2009 and for stronger funding of the CWP at approximately $70 million. 
Full implementation of the NSIP would require $110 million in FY-2009, 
substantially more than the $16.2 million appropriated in FY-2007.
    Our members rely extensively on the trustworthy data and science 
that these two programs produce and many are active, financial partners 
(``Cooperators'') in the Cooperative Water Program. Nationwide, our 
need for a well-informed understanding of streamflow, groundwater, 
tidal surge, precipitation and other water resource attributes 
continues to increase as a function of our growing population, economy, 
land uses and ecological awareness.
    The NSIP and CWP have proven to be a source for reliable, 
scientific information concerning America's water resources, 
information that is required by decision makers in both the public and 
private sectors for a wide variety of planning, design and management 
functions. Unfortunately, their capacity has not kept up with America's 
growing needs despite the strong, national cost-share partnership with 
over 1,400 Cooperators.
    NSIP and CWP data are needed on a regular basis by many federal, 
state, tribal, and local government agencies, and by many businesses, 
landowners, public interest organizations and individuals for many 
essential decisions, including the:

  <bullet> monitoring compliance with federal treaty, compact and 
        Native American trust responsibilities;
  <bullet> designing of bridges, dams and other infrastructure;
  <bullet> forecasting of storm surge, flood and drought conditions and 
        issuing emergency advisories;
  <bullet> identifying flood-prone areas to protect lives and property 
        and reduce disaster relief expenses;
  <bullet> administration of water rights and management of hydropower 
        generation, environmental and navigation releases from 
        reservoirs;
  <bullet> monitoring and protecting water quality, fisheries, wetlands 
        and endangered species;
  <bullet> providing for public recreation safety;
  <bullet> analysis of climate change; and
  <bullet> projecting future water needs and availability for 
        agricultural, municipal, and industrial uses.

    The NSIP and CWP inform and guide vital programs and diverse 
interests in all 50 states. but they do not have the capacity to 
support future water resource and infrastructure decisions necessary to 
keep our communities and businesses safe and prosperous. Since 2001, 
when the NSIP was authorized by Congress, the USGS streamgaging network 
has depended for more than 80% of its operation and maintenance on 
funds appropriated for the CWP, which has a distinct and highly 
valuable role to serve.
    The CWP has served us well for more than 110 years as a federal/
non-federal partnership funded through 50/50 cost-share agreements. 
Today, however, less than one-third of the cost is borne by the USGS 
because of the need to sustain the NSIP. From the combined network of 
about 7,400 streamgages nationwide, more than 775 have been 
``discontinued'' in the last 10 years due to inadequate funding; many 
of them had over 30 years of continuous record, which gives their loss 
even greater significance. More than 175 streamgages were discontinued 
between 2004 and 2005 and another 174 gages in 24 states are currently 
identified as being at risk or recently discontinued.
    Concern for the long-term continuity and reliability of our 
national streamgaging data led the USGS to propose the NSIP in 1999. 
Unlike the CWP, the NSIP was designed as a federally funded 
``backbone,'' supporting a national communications framework and the 
subset of approximately 4,770 streamgages and tidal gages necessary to 
meet five specific national purposes. The National Research Council's 
Committee on Water Resources Research evaluated the NSIP design in 2004 
and concluded that it will provide ``a sound, well-conceived program 
that meets the nation's needs for streamflow measurement, 
interpretation, and information delivery.'' However, of the 4,770 
streamgages needed to meet the specified national goals, at least 425 
have never been installed, more than 970 need to be reactivated and 
approximately 2,550 are funded (wholly or partially) with CWP funds; 
most of them need to be ``flood hardened'' and updated with real-time 
communications equipment in order to provide reliable flow forecast 
data.
    With severe flooding and drought recently causing loss of life and 
property affecting so many states, including Alabama. Arizona, 
Arkansas, California, Colorado, Florida, Georgia, Kansas, Indiana, 
Louisiana, Minnesota, Mississippi, Missouri, Nebraska, Nevada, North 
Dakota, New Mexico, Ohio, Oklahoma, South Dakota, Tennessee, Texas, 
Wisconsin and Wyoming, reliable science to support sustainable water 
resource management has never been more important.
    As the NSIP is fully implemented, funding for the CWP streamgages 
and investigations at $70 million (about 10% more than FY-2007) will be 
necessary to reverse the decade of erosion that deficient federal 
support has caused and to restore the planning, water rights 
administration, project operation and flow forecasting capabilities 
that so many people, businesses and agencies depend upon nationwide. 
Federal support has been far less than the $138 million contributed 
annually by Cooperators since FY-2004 and cutting funds from the CWP 
budget to enhance the NSIP has not helped.
    The Interior Department and USGS should commit themselves to full 
implementation of the NSIP plan as soon as possible and we urge you to 
seek an appropriation of $110 million in FY-2009 for that purpose. This 
represents an appropriate increase, considering the magnitude of our 
ongoing disaster emergency expenses and the federal responsibilities 
and programs that depend on information from the NSIP streamgages. Full 
funding for the NSIP would reverse the loss of long-term streamgages 
and provide essential information needed to assess water quality and 
climate change, forecast floods (including storm surge) and droughts 
and provide emergency warnings, manage interstate water supplies and 
monitor compliance with federal treaty, compact and Native American 
trust responsibilities.
    We urge you and the Administration to give a higher priority to 
these vital programs until they are both fully implemented and the 
cost-share agreements are fully matched.
            Sincerely,
                    Pamela S. Dillon, Executive Director, American 
                            Canoe Association; Antonius Laenen, 
                            President, American Institute of Hydrology; 
                            Rebecca R. Wodder, President, American 
                            Rivers; W. F. Marcuson III, Ph.D., P.E., 
                            President, American Society of Civil 
                            Engineers; Gerald Galloway, President, 
                            American Water Resources Association; Tom 
                            Curtis, Deputy Executive Director, American 
                            Water Works Association; Mark Singleton, 
                            Executive Director, American Whitewater; 
                            Kenneth D. Kimball, Director of Research, 
                            Appalachian Mountain Club; Chako John, 
                            President, Association of American State 
                            Geologists; Lori Spragens, Executive 
                            Director, Association of State Dam Safety 
                            Official; Al Goodman, President, 
                            Association of State Floodplain Managers; 
                            Linda Eichmiller, Executive Director, 
                            Association of State & Interstate Water 
                            Pollution Control Administrators; Katherine 
                            Andrews, Executive Director, Coastal States 
                            Organization; James H. Steele Jr, Tribal 
                            Council Chairman, Confederated Salish & 
                            Kootenai Tribes; Carol R. Collier, 
                            Executive Director, Delaware River Basin 
                            Commission; Mary E. Kelly, Sr. Attorney, 
                            Co-Director, Land, Water and Wildlife 
                            Program Environmental Defense; R. P. 
                            VanGytenbeek, CEO, Federation of 
                            Flyfishers; Tim A. Eder, Executive 
                            Director, Great Lakes Commission; Roger L. 
                            Gauthier, Interim Executive Director, Great 
                            Lakes Observing System; John Seebach, 
                            Chair, Hydropower Reform Coalition; Hal 
                            Beecher, President, Instream Flow Council; 
                            Sue Lowry, Chair, Interstate Council on 
                            Water Policy; Deborah Hamlin, Executive 
                            Director, Irrigation Association; Derek 
                            Guthrie, President, National Association of 
                            Flood and Stormwater Management Agencies; 
                            John M Johnson, Executive Director, 
                            National Association of State Boating Law 
                            Administrators; Joe Garcia, President, 
                            National Congress of American Indians; John 
                            Duchouquette, President, National Flood 
                            Determination Association; Thomas F. 
                            Donnelly, Executive Vice President, 
                            National Water Resources Association; David 
                            R. Conrad, Sr. Water Resource Specialist, 
                            National Wildlife Federation; Larry M. 
                            Feazell, Executive Director, Ohio River 
                            Basin Commission; Mathew E. Menashes, 
                            Executive Director, Paddlesports Industry 
                            Association; Don Eider, President/CEO, 
                            River Network; Paul O. Swartz, Executive 
                            Director, Susquehanna River Basin 
                            Commission; Ann Yakimovicz, President, 
                            Texas Floodplain Management Association; 
                            Brian Richter, Co-Leader, Global Freshwater 
                            Team, The Nature Conservancy; Chris Wood, 
                            Vice President for Conservation, Trout 
                            Unlimited; Holly Stoerker, Executive 
                            Director, Upper Mississippi River Basin 
                            Association; Mohamed F. Dahab, President, 
                            Water Environment Federation; Duane Smith, 
                            Chairman, Western States Water Council.
                                 ______
                                 
                                                  October 16, 2007.
Hon. Dirk Kempthorne,
Secretary of the Interior, U.S. Department of the Interior, 1849 C 
        Street, NW., Washington, DC.
Regarding: STREAMGAGE SUPPORT IN FY-2009

    Dear Secretary Kempthorne: The undersigned officials support the US 
Geological Survey's Cooperative Water Program (CWP) and National Stream 
flow Information Program (NSIP) and urge your support for full 
implementation of the NSIP beginning in FY-2009 and for stronger 
funding of the CWP at approximately $70 million. Full implementation of 
the NSIP would require $110 million in FY-2009, substantially more than 
the $16.2 million appropriated in FY-2007.
    Our agencies rely extensively on the trustworthy data and science 
that these two programs produce and most are active, financial partners 
(``Cooperators'') in the Cooperative Water Program. Nationwide, our 
need for a well-informed understanding of streamflow, groundwater, 
precipitation and other water resource attributes continues to increase 
as a function of our growing population, economy, land uses and 
ecological awareness.
    The NSIP and CWP have proven to be a source for reliable, 
scientific information concerning America's water resources, 
information that is required by decision makers in both the public and 
private sectors for a wide variety of planning, design and management 
functions. Unfortunately, their capacity has not kept up with America's 
growing needs despite the strong, national cost-share partnership with 
over 1,400 Cooperators.
    NSIP and CWP data are needed on a regular basis by our agencies and 
other state, tribal, local and federal government agencies, and by many 
businesses, landowners, public interest organizations and individuals 
for many essential decisions, including the:

  <bullet> monitoring compliance with interstate treaty, compact and 
        Native American trust responsibilities;
  <bullet> designing of bridges, darns and other infrastructure;
  <bullet> forecasting of storm surge, flood and drought conditions and 
        issuing emergency advisories;
  <bullet> identifying flood-prone areas to protect lives and property 
        and reduce disaster relief expenses;
  <bullet> administration of water rights and management of hydropower 
        generation, environmental and navigation releases from 
        reservoirs;
  <bullet> monitoring and protecting water quality, fisheries, wetlands 
        and endangered species;
  <bullet> providing for public recreation safety;
  <bullet> analysis of climate change; and
  <bullet> projecting future water needs and availability for 
        agricultural, municipal, and industrial uses.

    The NSIP and CWP inform and guide vital programs and diverse 
interests in all 50 states, but they do not have the capacity to 
support future water resource and infrastructure decisions necessary to 
keep our communities and businesses safe and prosperous. Since 2001, 
when the NSIP was authorized by Congress, the USGS streamgaging network 
has depended for more than 80% of its operation and maintenance on 
funds appropriated for the CWP, which has a distinct and highly 
valuable role to serve.
    The CWP has served us well for more than 1 10 years as a federal/
non-federal partnership funded through 50/50 cost-share agreements. 
Today, however, less than one-third of the cost is borne by the USGS 
because of the need to sustain the NSIP. From the combined network of 
about 7,400 streamgages nationwide, more than 775 have been 
``discontinued'' in the last 10 years due to inadequate funding; many 
of them had over 30 years of continuous record, which gives their loss 
even greater significance. More than 175 streamgages were discontinued 
between 2004 and 2005 and another 174 gages in 24 states are currently 
identified as being at risk or recently discontinued.
    Concern for the long-term continuity and reliability of our 
national streamgaging data led the USGS to propose the NSIP in 1999. 
Unlike the CWP, the NSIP was designed as a federally funded 
``backbone,'' supporting a national communications framework and the 
subset of approximately 4,770 streamgages and tidal gages necessary to 
meet five specific national purposes. The National Research Council's 
Committee on Water Resources Research evaluated the NSIP design in 2004 
and concluded that it will provide ``a sound, well-conceived program 
that meets the nation's needs for streamflow measurement, 
interpretation, and information delivery.'' However, of the 4,770 
streamgages needed to meet the specified national goals, at least 425 
have never been installed, more than 970 need to be reactivated and 
approximately 2,550 are funded (wholly or partially) with CWP funds; 
most of them need to be ``flood hardened'' and updated with real-time 
communications equipment in order to provide reliable flow forecast 
data.
    Water rights administration, flood protection, infrastructure 
design, water quality protection, fisheries and wetlands conservation 
and recreation are vital concerns in every state. With severe flooding 
and drought recently causing loss of life and property affecting so 
many states, including Alabama, Arizona, Arkansas, California, 
Colorado, Florida, Georgia, rndiana, Kansas, Louisiana, Minnesota, 
Mississippi, Missouri, Nebraska, Nevada, North Dakota, New Mexico, 
Ohio, Oklahoma, South Dakota, Tennessee. Texas, Wisconsin and Wyoming, 
reliable science to support sustainable water resource management has 
never been more important.
    As the NSIP is fully implemented, funding for the CWP streamgages 
and investigations at $70 million (about 10% more than FY-2007) will be 
necessary to reverse the decade of erosion that deficient federal 
support has caused and to restore the planning, water rights 
administration, project operation and flow forecasting capabilities 
that so many people, businesses and agencies depend upon nationwide. 
Federal support has been far less than the $138 million contributed 
annually by CWP Cooperators since FY-2004 and cutting funds from the 
CWP budget to enhance the NSIP has not helped.
    The Interior Department and USGS should commit themselves to full 
implementation of the NSIP plan as soon as possible and we urge you to 
seek an appropriation of 6110 million in FY-2009 for that purpose. This 
represents an appropriate increase, considering the magnitude of our 
ongoing disaster emergency expenses and the federal responsibilities 
and programs that depend on information from the NSIP streamgages. Full 
funding for the NSIP would reverse the loss of long-term streamgages 
and provide essential information needed to assess water quality and 
climate change, forecast floods and droughts and provide emergency 
warnings, manage interstate water supplies and monitor compliance with 
federal treaty, compact and Native American trust responsibilities.
    We urge you and the Administration to give a higher priority to 
these vital programs until they are both fully implemented and the 
cost-share agreements are fully matched.
            Sincerely,
                    For WYOMING, John Corra, Director, Dept of 
                            Environmental Quality; Patrick T. Tyrrell, 
                            State Engineer; Michael K. Purcell, 
                            Director, Water Development Commission.
                    For WISCONSIN, Todd L. Ambs, Water Division 
                            Administrator, Department of Natural 
                            Resources.
                    For WASHINGTON, Jay J. Manning, Director, 
                            Department of Ecology.
                    For UTAH, Dennis J. Strong, Director, Division of 
                            Water Resources; Jerry Olds, State 
                            Engineer.
                    For TEXAS, E.G. Rod Pittman, Chairman, Water 
                            Development Board; Glenn Shankle, Executive 
                            Director, Commission on Environmental 
                            Quality.
                    For OKLAHOMA, Duane Smith, Director, Water 
                            Resources Board.
                    For NORTH DAKOTA, Dale L. Frink, State Engineer.
                    For NORTH CAROLINA, John N. Morris, Director, 
                            Division of Water Resources.
                    For NEW MEXICO, John R. D'Antonio, Jr., P.E., State 
                            Engineer.
                    For NEBRASKA, Ann Salomon Bleed, Director, 
                            Department of Natural Resources.
                    For MISSOURI, Michael D. Wells, Deputy Director, 
                            Dept of Natural Resources.
                    For KANSAS, Tracey Streeter, Director, Kansas Water 
                            Office; Adrian Polansky, Secretary of 
                            Agriculture; David Barfield, Acting Chief 
                            Engineer.
                    For IOWA, Wayne Gieselman, Administrator, 
                            Environmental Services Division, Dept of 
                            Natural Resources.
                    For ILLINOIS, Gary R. Clark, P.E., Director, DNR 
                            Office of Water Resources.
                    For IDAHO, Hal Anderson, Administrator, Department 
                            of Water Resources.
                    For COLORADO, Dan McAuliffe, Acting, Director, 
                            Water Conservation Board; Steve Gunderson, 
                            Director, Water Quality Control Division; 
                            Kenneth W. Knox, Acting State Engineer.
                    For ARKANSAS, J. Randy Young, P.E., Executive 
                            Director, Natural Resources Commission.
                    For ARIZONA, Stephen A. Owens, Director, Department 
                            of Environmental Quality.
                                 ______
                                 
                  Association of California Water Agencies,
                                  Sacramento, CA, December 7, 2007.
Hon. Jeff Bingaman,
703 Hart Senate Office Building, Washington, DC.
RE: ACWA Support for S. 2156

    Dear Senator Bingaman: The Association of California Water Agencies 
(ACWA) is please to write in support of your Secure Water Act, S.2156. 
ACWA's 447 public agency members are collectively responsible for 90 
percent of the water delivered in our state for residential and 
agricultural purposes.
    ACWA is concerned about the potential impact of climate change on 
our nation's water supply. Increases in average annual temperatures 
could have a significant impact on California's water resources and 
ACWA's blueprint, ``No Time To Waste'', highlights this issue.
    California's mountain snowpack serves as a natural reservoir that 
is fundamental to our water supply, but is also particularly sensitive 
to climate variability and change. Predictions by the California's 
Department of Water Resources and others indicate climate change will 
likely result in a significant reduction in the Sierra Nevada snow 
pack. Less snowpack means less natural water storage. Since much of the 
state is highly dependent on existing reservoir storage and snowpack 
for water supply and flood management, this trend would strain our 
complex and already stressed water management system.
    The SECURE Water Act will finally enable the Bureau of Reclamation 
and other federal agencies including the U.S. Geological Survey and the 
U.S. Army Corps of Engineers to better determine how climate change 
scenarios will affect Bureau projects and identify ways the projects 
can be operated and augmented to adapt to future challenges. It will 
also help States and local governments develop long term plans to 
assess their future water needs. Additionally, the bill strengthens the 
USGS National Streamflow Information Program so that water managers 
will have more information on which to base future decisions.
    ACWA is pleased to support this legislation and would like to thank 
you for your leadership on thisissue.
            Sincerely,
                                            David Reynolds,
                                     Director of Federal Relations.

                                    

      

</pre></body></html>
